<html>
<title> - UNITED STATES AND MEXICO: IMMIGRATION POLICY AND THE BILATERAL RELATIONSHIP</title>
<body><pre>[Senate Hearing 108-513]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-513

     UNITED STATES AND MEXICO: IMMIGRATION POLICY AND THE BILATERAL 
                              RELATIONSHIP

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 23, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
94-643                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Aguirre, Hon. Eduardo, Jr., Director, Bureau of Citizenship and 
  Immigration Services, U.S. Department of Homeland Security, 
  Washington, DC.................................................    53
    Prepared statement...........................................    56
Boxer, Hon. Barbara, U.S. Senator from California, prepared 
  statement......................................................    37
Cornyn, Hon. John, U.S. Senator from Texas, statement submitted 
  for the record.................................................    40
Craig, Hon. Larry E., U.S. Senator from Idaho....................     7
    Prepared statement and background and explanatory materials 
      discussing the AgJOBS bill, S. 1645/H.R. 3142..............    10
Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    44
Durbin, Hon. Richard J., U.S. Senator from Illinois..............    38
Flynn, Dr. Stephen E., Jeane J. Kirkpatrick Senior Fellow in 
  National Security Studies, Council on Foreign Relations, 
  Washington, DC.................................................    82
    Prepared statement...........................................    84
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................    41
    Prepared statement...........................................    43
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
McCain, Hon. John, U.S. Senator from Arizona.....................     3
    Prepared statement including attachments.....................     5
Noriega, Hon. Roger F., Assistant Secretary of State, Bureau of 
  Western Hemisphere Affairs, U.S. Department of State, 
  Washington, DC.................................................    47
    Prepared statement...........................................    50
    Responses to additional questions for the record from Senator 
      Coleman....................................................   118
Papademetriou, Dr. Demetrios G., President, Migration Policy 
  Institute, Washington, DC......................................    91
    Prepared statement...........................................    93
Valenzuela, Dr. Arturo A., Director, Center for Latin American 
  Studies, Georgetown University, Washington, DC.................   102
    Prepared statement...........................................   105
Verdery, Hon. C. Stewart, Assistant Secretary, Policy and 
  Planning, Border and Transportation Security Directorate, U.S. 
  Department of Homeland Security, Washington, DC................    60
    Prepared statement...........................................    62

                                 (iii)

  

 
    UNITED STATES AND MEXICO: IMMIGRATION POLICY AND THE BILATERAL 
                              RELATIONSHIP

                              ----------                              


                        TUESDAY, MARCH 23, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 9:33 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Richard G. Lugar (chairman of the 
committee), presiding.
    Present: Senators Lugar, Hagel, Coleman, Dodd, Boxer, Bill 
Nelson, and Corzine.


        opening statement of senator richard g. lugar, chairman


    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Today the Senate Foreign Relations Committee meets to 
examine the United States-Mexico bilateral relationship, with a 
special focus on the role of immigration. The relationship 
between Mexico and the United States is complex and wide-
ranging. Every day the bilateral agenda deals with trade, 
management of our common border, water distribution, energy 
cooperation, transportation, communications, tourism, the 
environment, human rights, and the struggle against drugs and 
organized crime.
    Americans and Mexicans must understand that the fate of our 
two nations is inextricably intertwined. Mexico is the second 
largest trading partner of the United States. An economic 
downturn in either economy will affect the health of the other. 
Moreover, Mexico's importance to U.S. national security has 
been underrated, particularly during this era of global 
terrorism. Americans will not be as prosperous or as secure as 
we can be without sustained economic growth and political 
stability in Mexico, and a United States-Mexican relationship 
that transcends momentary disagreements in pursuit of our 
shared objectives.
    The most obvious economic and security concerns related to 
Mexico stem from Mexican migration across the U.S. border. When 
Presidents Fox and Bush met in January 2001, they recognized 
that migration is ``one of the major ties that bind our 
societies,'' a quote from the two Presidents. Mexicans 
represent 30 percent of the total immigrant population of the 
United States. Mexico's share of our total unauthorized 
immigrant population increased from 58 percent in 1990 to 69 
percent in 2000.
    Too often the debate on how to respond to illegal 
immigration from Mexico ignores the larger context of our 
relationship with Mexico or the role that Mexico must play in 
helping us get a grip on this question. I believe we need to 
broaden the context of the debate so that we see immigration as 
not just an economic or law enforcement issue, but also as a 
foreign policy issue. We must engage in diplomacy aimed at 
making the Mexican Government a closer ally in preventing and 
responding to illegal immigration.
    I would offer five common objectives that Mexico and the 
United States should pursue as we are developing and debating 
immigration policy.
    First, the United States and Mexico both have a strong 
interest in improving the management of our common border. Both 
nations must cooperate in preventing illegal immigration, as 
well as in preventing tragedies in which Mexican citizens, 
attempting to enter the United States, lose their lives while 
concealed or transported in dangerous circumstances. Our border 
cooperation must also include strengthened efforts to stop 
terrorist infiltration via land, sea, or air.
    Second, both the United States and the Mexican governments 
should try to facilitate greater transparency among the 
undocumented Mexican population in the United States. It serves 
the interests of neither nation to keep illegal immigrants in 
the shadows. Through matricula cards or other methods, we must 
have greater ability to identify Mexican nationals in this 
country. Without identification, little interaction with 
American society is possible. This increases the chances that 
immigrants will be victims of crime or exploitation, reduces 
the value of remittances to Mexico, and complicates the jobs of 
U.S. emergency and social service personnel.
    Third, in conjunction with improved border management and 
immigration transparency, the United States should develop 
realistic mechanisms through which illegal immigrants can 
regularize their status through positive behavior.
    Fourth, cross border labor must be put in the context of 
our broader trade relationship. It is legitimate to develop 
means to match willing Mexican workers with willing American 
employers in sectors where no Americans can be found to fill a 
job. We should strive to achieve this through regularized means 
that accentuate the benefits to both the American and the 
Mexican economies. President Bush's temporary worker proposal 
and other similar proposals developed in Congress deserve close 
examination by this body.
    Fifth, the United States and Mexico should expand 
cooperation aimed at domestic development in Mexico, 
particularly in the country's poorest regions. The 2-year-old 
Mexican-United States Partnership for Prosperity is a good 
start toward this objective, but more needs to be done. The 
Mexican Government must undertake this effort as a special 
responsibility that goes hand in hand with American willingness 
to develop means to regularize the status of illegal 
immigrants.
    This morning we are joined by three impressive panels to 
discuss these objectives and other aspects of our relationship 
with Mexico.
    On the first panel, we will hear from our colleagues, 
Senators Hagel, McCain, Craig, Durbin, and Cornyn. Each of 
these Senators has grappled with the immigration question, and 
each has sponsored relevant legislation. We are pleased by the 
strong interest of our colleagues in this hearing, and we look 
forward to learning about how their bills would contribute to 
the improvement of the United States-Mexican relations and 
American immigration policy.
    On our second panel, we will hear from representatives of 
the administration. We welcome again Roger Noriega, Assistant 
Secretary of State for Western Hemisphere Affairs; Eduardo 
Aguirre, Director of the Bureau of Citizenship and Immigration 
Services at the Department of Homeland Security; and Stewart 
Verdery, Assistant Secretary for Policy and Planning at the 
Department of Homeland Security.
    On our final panel, we will hear from Dr. Stephen E. Flynn, 
the Jeane Kirkpatrick Senior Fellow for National Security 
Studies at the Council on Foreign Relations; Dr. Demetrios 
Papademetriou, President of the Migration Policy Institute; and 
Dr. Arturo Valenzuela, Director of the Center for Latin 
American Studies at Georgetown University.
    We thank all of our witnesses in advance. We look forward 
to their insights.
    It is my privilege now to recognize the colleagues that I 
just mentioned. We are indeed grateful for the interest of our 
colleagues in the hearing, as well as the specific legislation 
and thoughtfulness that they have provided. I want to call upon 
Senator McCain first, because I know he has urgent time 
requirements. Then we will proceed with Senator Hagel or 
Senator Craig, depending upon the time requirements of those 
gentlemen. Senator McCain.

    STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you very much, Mr. Chairman. I want 
to thank you and Senator Hagel and my colleague, Senator Craig, 
and others who have been actively involved in this issue for a 
long period of time.
    I want to just mention a couple of statistics with you and 
I will try to be as brief as possible because I know you have 
some very important witnesses.
    We are nearing the end of March, Mr. Chairman. In my State 
of Arizona, since January 1, 2004, since January 1st this year, 
470 drop houses have been found across Arizona. Over 2,000 
suspected smugglers have been arrested. Over 155,000 
undocumented immigrants have been apprehended. In the city of 
Phoenix, killings are up by 45 percent. Violent crimes such as 
kidnaping, home invasions, and extortion are up 400 percent.
    Those are interesting statistics and a source of enormous 
concern to the mayor of Phoenix, Mayor Phil Gordon, who said 
Wednesday's discovery--that is another drop house--156 
undocumented immigrants being held by armed smugglers in a 
rented house in north Phoenix in filthy conditions without food 
or water. He said, Wednesday's discovery underscores the need 
for Federal immigration reform, pointing out that although 
police can stop criminal activity, they can do little to stem 
the flow of undocumented immigrants into the city. ``It's a 
mandate that affects all of us,'' Gordon said. ``We need an 
immigration policy that works. We need to secure our borders. 
The Federal Government has to do something about these 
issues.''
    May I just mention, after I mentioned those statistics, Mr. 
Chairman, an article recently in the Arizona Republic. ``It is 
a lonely place to die, out in the soft sandy washes. The desert 
floor, with its volcanic rock, can reach 160 degrees. Most 
people go down slowly.
    ``Blood starts to seep into the lungs. Exposed skin burns 
and the sweat glands shut down. Little hemorrhages, tiny leaks, 
start in the heart. When the body temperature reaches 107, the 
brain cooks and the delirium starts.
    ``Some migrants claw at the ground with their fingernails, 
trying to hollow out a cooler spot to die. Others pull 
themselves through the sand on their bellies, like they're 
swimmers or snakes. The madness sometimes prompts people to 
slit their own throats or to hang themselves from trees with 
their belts.
    ``This past year, the bodies of 205 undocumented immigrants 
were found in Arizona. Official notations of their deaths are 
sketchy, contained in hundreds of pages of government reports. 
There are sometimes little details, glimpses, of the people who 
died.
    ``Maria Hernandez Perez was No. 93. She was almost 2. She 
had thick brown hair and eyes the color of chocolate.
    ``Kelia Velazquez-Gonzalez, 16, carried a Bible in her 
backpack. She was No. 109.
    ``John Doe, No. 143, died with a rosary encircling his 
neck. His eyes were wide open.''
    Mr. Chairman, I give you those statements and those numbers 
to try to emphasize the urgency of this situation, this crisis. 
The human dimensions of it are incredibly appalling. If 205 
people were dying in such a short period of time anywhere else 
in America, there would be some great hue and cry about it, but 
we just sort of discover these bodies. Many times they have 
been eaten by animals. And we just sort of move on.
    I guess what I am trying to say is it is apparent to me 
that the Congress is not going to act this year on the 
immigration issue. We have had one hearing in a Judiciary 
subcommittee, a very good hearing. One hearing. This hearing is 
of utmost importance. I think we all know that if we go out in 
the month of August without acting, then of course, we have 
just the month of September and this year has expired.
    Everybody has different proposals. I respect Senator 
Hagel's proposal that he has proposed along with Senator 
Daschle. Senator Craig's proposal, obviously, addresses one of 
the immediate problems and that is an agricultural worker bill.
    I think it is time we sat down.
    And on the left, the so-called advocacy groups for 
Hispanics refuse to sign onto a proposal because they want an 
amnesty, just a blanket amnesty. Mr. Chairman, we tried that in 
the 1980s. We gave amnesty to several million people. Now we 
have got several million more people who are here illegally. 
Blanket amnesty does not work.
    On the other side of the coin, we have the other people who 
say all we have got to do is secure our borders. Mr. Chairman, 
the war on drugs proved that as long as there is a demand, 
there is going to be a supply. There is right now a demand for 
workers. There are jobs that Americans will not do. So it seems 
to me that maybe for the good of 2-year-old Maria Hernandez 
Perez who was almost 2 years old, who died in the desert, that 
perhaps maybe we ought to give this issue some serious 
priority.
    Finally, could I say, since it is the purview of this 
committee, I believe that the hopes and aspirations of the 
Mexican people were very badly dashed after September 11. I 
think one of the worst casualties of September 11 was any 
movement toward immigration reform. It has had an obvious 
affect on the internal politics of the country of Mexico, but 
more importantly, it has prevented us from addressing this 
issue in a very comprehensive fashion.
    I could go on a lot longer, Mr. Chairman, but I want to 
thank you for holding this hearing. I want to thank you for 
your advocacy for reform, and I want to thank Senator Hagel as 
well for his active involvement.
    Some people say to me, why is Senator Hagel involved? There 
are illegal, undocumented people working in the State of 
Nebraska. There are illegal, undocumented people working in 
Indiana. It is not an Arizona problem. It is a nationwide 
problem and we will be shirking our duties as legislators if we 
do not give this issue the highest priority and act on it as 
quickly as possible.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]

               Prepared Statement of Senator John McCain

    Last year, more than 300 people died illegally crossing the border 
separating the United States and Mexico. Over 200 of those deaths 
occurred in the Arizona desert.
    Since the beginning of this year, authorities in Arizona have 
identified 470 ``drop houses'' used by human smugglers--or Coyotes. 
These smugglers typically hold undocumented immigrants at gunpoint, 
often denying them basic needs including food and water. Since January, 
over 2,000 suspected smugglers and well over 155,000 undocumented 
immigrants have been apprehended across Arizona.
    Immigration is a national security issue for all Americans and a 
matter of life and death for many living along the border. America's 
immigration system is broken, and without comprehensive immigration 
reform, our nation's security will remain vulnerable. This problem, 
however, is not ours alone. The human tragedy is felt on both sides of 
the border. And the solution to this crisis must include a coordinated 
effort between governments.
    With a 6,000 mile land border, the task of ``sealing'' the U.S. 
border is herculean--unrealistic and impossible. No amount of manpower 
or technology will ever completely secure our nation's borders. During 
the 1990s, the federal government increased the number of Border Patrol 
agents from 3,600 to approximately 10,000 agents. Instead of 
decreasing, however, illegal immigration increased by an estimated 5.5 
million migrants.
    The federal government's inability to stem illegal traffic flowing 
across the border perpetuates a state of lawlessness and shifts 
substantial financial and social burdens to residents of the border 
region. Violent crimes in Phoenix, alone, have risen 400 percent over 
the past year, largely due to human smugglers.
    Across the nation, hospitals spend well over $200 million a year 
providing uncompensated care to undocumented immigrants, forcing many 
hospitals along the border to close their doors or dramatically reduce 
services. Cash-strapped local law enforcement officials spend millions 
of dollars covering the cost of incarcerating undocumented immigrants. 
Frustrated by this situation, some residents have taken the law into 
their own hands, forming vigilante groups to patrol the border.
    Although some of us hear about these troubling issues daily, too 
many in this country remain dangerously unaware. As a member 
representing a border state suffering from the immediate and downstream 
problems associated with illegal immigration, I know first hand the 
urgent need for reform. Immigration has long been a polarizing and 
politically divisive issue in this country. The difficulty this issue 
poses, particularly in an election year, should not allow for an excuse 
to delay reform. Immigration reform must come from the center--and it 
must be reasoned and bi-partisan. This issue is simply too important 
for partisan grandstanding.
    The current system has failed because it does not adequately 
address the labor needs of this country or the reality that as long as 
there are jobs in the United States that represent better opportunities 
than those in other countries, people will migrate to this country, and 
they will risk their lives to do so. Enforcement must be improved, but 
enforcement of out-dated and inadequate laws will not work.
    Earlier this year, President Bush helped to bring the immigration 
debate to the forefront. His principles for comprehensive immigration 
reform incorporated a market-based system, similar to the legislation 
introduced last summer in the House and Senate by Congressman Kolbe, 
Congressman Flake, and myself, which would pair willing workers with 
willing employers. The President's leadership and support will be 
essential to bringing this problem to a resolution and rallying a 
consensus in a much divided Congress.
    Immigration reform must be comprehensive--it must address future 
workers who want to enter the country as well as the current 
undocumented population. Recognizing the very real labor shortage faced 
by many sectors of our nation's economy, reform must provide a 
workable, market-based system without arbitrary numerical limitations. 
If jobs go unfilled in the U.S., and no American worker chooses to fill 
them, those jobs should be opened to legal foreign workers. This system 
should be electronic, accessible, and easy to navigate for both 
employers and potential workers.
    At the same time, in order to ensure we do not create a permanent 
underclass, new temporary workers must have complete portability to 
transfer from one job to another, a clear path to citizenship if they 
choose, and the ability to self-initiate that.
    I recognize that several of my colleagues present here today have 
proposed legislation that address various aspects of our broken 
immigration system. Although we may approach this problem with 
competing philosophies and with different solutions, our recognition of 
the failures of the current system moves the debate forward, and I 
commend them on their proposals.
    We will never be able to please the political extremists on either 
side of this issue. However, in the interest of national security, we 
must pursue a carefully balanced compromise. I hope we can work 
together to put rhetoric aside and enact meaningful comprehensive 
immigration reform.
    Thank you, Mr. Chairman.

         [The Arizona Republic--Nogales Bureau, Oct. 16, 2003]

                  205 Migrants Die Hard, Lonely Deaths

                           (By Susan Carroll)

    It is a lonely place to die, out in the soft sandy washes. The 
desert floor, with its volcanic rock, can reach 160 degrees. Most 
people go down slowly.
    Blood starts to seep into the lungs. Exposed skin burns and the 
sweat glands shut down. Little hemorrhages, tiny leaks, start in the 
heart.
    When the body temperature reaches 107, the brain cooks and the 
delirium starts.
    Some migrants claw at the ground with their fingernails, trying to 
hollow out a cooler spot to die. Others pull themselves through the 
sand on their bellies, like they're swimmers or snakes. The madness 
sometimes prompts people to slit their own throats or to hang 
themselves from trees with their belts.
    This past year, the bodies of 205 undocumented immigrants were 
found in Arizona. Official notations of their deaths are sketchy, 
contained in hundreds of pages of government reports.
    Beyond the official facts, there are sometimes little details, 
glimpses, of the people who died.
    Maria Hernandez Perez was No. 93. She was almost 2. She had thick 
brown hair and eyes the color of chocolate.
    Kelia Velazquez-Gonzalez, 16, carried a Bible in her backpack. She 
was No. 109.
    In some cases, stories of heroism or loyalty or love survive.
    Like the Border Patrol agent who performed cardiopulmonary 
resuscitation on a dead man, hoping for a miracle. Or the group of 
migrants who, with law officers and paramedics, helped carry their dead 
companion out of the desert. Or the husband who sat with his dead wife 
through the night.
    Other stories are almost entirely lost in the desolate stretches 
that separate the United States and Mexico.
    Within weeks, the heat makes mummies out of men. Animals carry off 
their bones and belongings. Many say their last words to an empty sky.
    John Doe, No. 143, died with a rosary encircling his neck. His eyes 
were wide open.

                                 ______
                                 

                       ARIZONA IMMIGRATION CRISIS

Since January 1, 2004:
  <bullet> 470 ``drop houses'' have been found across Arizona

  <bullet> Over 2,000 suspected smugglers have been arrested

  <bullet> Over 155,000 undocumented immigrants have been apprehended
Increased Crime in Phoenix Blamed on Coyotes:
  <bullet> Killings are up by 45%

  <bullet> Violent crimes such as kidnaping, home invasions, and 
        extortion are up 400%

    In a little over a month, 750 undocumented immigrants and 20 
suspected smugglers arrested from 13 drop houses:

  <bullet> February 11th--159 found in Shea drop house, at the edge of 
        a golf course in Phoenix

  <bullet> February 15th--27 undocumented were apprehended at a house 
        in East Phoenix

  <bullet> February 17th--102 immigrants were found at two Phoenix drop 
        houses, one several blocks from a fire station

  <bullet> February 23rd--78 undocumented arrested at home in the 
        Arcadia neighborhood of Phoenix; 45 more undocumented found 
        later the same day in another Phoenix drop house

  <bullet> February 26th--57 immigrants found in West Phoenix, with 
        additional immigrants seen fleeing the property

  <bullet> March 3rd--apprehended 222 undocumented, including 15 
        suspected smugglers, from two drop houses in Phoenix, Arizona

  <bullet> March 4th--77 undocumented aliens found in two apartments 
        used as drop houses in Mesa, Arizona

  <bullet> March 9th--185 suspected undocumented found hiding in 18 
        rooms at a Motel near Tucson, Arizona

    The Chairman. Well, thank you very much, Senator McCain, 
for a very strong keynote statement, as we begin this hearing. 
I think that the hearing is important, and I hope that all the 
considerations today will lead to action. I hope that August 
will not yield inactivity. I think that the relationship is 
important, as you pointed out.
    I want to call now upon Senator Craig. Senator Hagel has 
graciously stepped aside, out of the batting order, because he 
claims that he will be here throughout the hearing. I am taking 
him at his word. Thank goodness that he will do that. For the 
moment, Larry, will you proceed.

   STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM IDAHO

    Senator Craig. Well, Mr. Chairman, thank you.
    And as John has mentioned, all of us have legislation 
pending at this moment to deal with this problem. I approach it 
with the same passion that John does, although the difficulties 
that are happening in Arizona are phenomenally inhumane and he 
is right to be passionate about this problem.
    You have outlined it well, the relationship we have with 
the great nation of Mexico and the dependency we truly have on 
each other at this moment to work this problem out.
    I have introduced legislation, as has John, as has John 
Cornyn, and certainly Senator Hagel. It is a problem that truly 
cries out for a solution sooner rather than later. I must tell 
you that this President has finally stepped forward and offered 
up a solution. Up until that time, the Federal Government 
really remained in a state of denial and it was 9/11 that 
awakened us to the reality that we have got somewhere between 8 
million and 12 million undocumented foreign nationals in this 
country.
    Of course, as you know, Mr. Chairman, when we then shut the 
borders or worked hard to shut the borders after 9/11, we did 
two interesting things. Our intent was to keep people out, but 
we also locked people in. Hundreds of thousands of Hispanics 
who flowed back and forth over the Texas, Arizona, New Mexican, 
and California borders on an annual basis, working and going 
home and taking their money with them and not being able then 
to get back or staying because they were fearful if they left, 
they could not get back and they would not have the kind of 
resource that they had been able to have prior to 9/11. So 
border closures are not just the only solution here.
    And I think you are so right to hold this hearing to deal 
with this kind of problem. John spoke already of the over 200 
people who have died in Arizona. Last year over 300 died in the 
deserts of the Southwest, as they struggled to make their way 
into this country to work. And that is what is important. They 
died in boxcars. They died in the backs of vans. They died of 
thirst, as John offered those descriptions.
    Now, that is the reality that we are dealing with. Shame on 
us for dragging our feet toward this problem, but we are doing 
just that at this moment.
    I think, as John has said, some would suggest that it is 
purely a law enforcement solution, but I am here to tell you 
that that is a part of it and only a part of it. Those who say 
just round them up and get them out of the country are 
suggesting something that on its face is impossible to do. When 
you have between 8 million to 12 million--and we use those 
numbers because we do not know exactly how many undocumented 
foreign nationals we have in our country. We know that law 
enforcement is a part of it. But these people who are here by 
the vast majority deserve a responsible, humane approach toward 
dealing with them, treating them appropriately for the roles 
they play in this country and for the desire I think many 
nations have and in this case dominantly two nations, the 
United States and Mexico, have in solving this problem.
    I am going to offer you a solution today. It deals with 
only a small part of the total problem, but it is one, Mr. 
Chairman, that is ready. It is mature. It has been well thought 
out over 5 years of negotiation. You are a cosponsor. Senator 
Hagel is a cosponsor. John McCain is a cosponsor. It is my 
AgJOBS bill. We have not got John Cornyn on it yet, but he is 
leaning.
    He is leaning in our direction.
    Senator Boxer. You have got me on it.
    Senator Craig. Barbara is on it. We will have within 2 
weeks over 60 Senators on this legislation. Mr. Chairman, we 
have at this moment over 400 organizations nationwide who 
support it.
    Now, here are the key elements that make this a workable 
proposition. Not only does it reach out to identify 500,000 
workers who are now eligible in this country undocumented who 
can do something that is significant and important for 
themselves and for the economy of our country, and that is, 
earn a legal status. Earn a legal status. That is the key 
component of the AgJOBS bill: earned adjustment to a legal 
status. And they can do that by staying here and working for a 
period of time under a temporary legal situation and move that 
forward.
    In doing so, we fill a tremendous need for our country. We 
treat a great many hard-working people in a phenomenally humane 
and responsible way and we bring them out of the back streets 
and the alleys and the shadows of our culture to the front 
street where they belong because they are, as John has said, an 
important component in the economy of our country.
    That is what AgJOBS is all about and I think both you and I 
know that there are great numbers of these people working in 
your State, in Nebraska, in Idaho, in Texas. We believe in 
Idaho that it is possible that during the peak of the work 
season, there are between 25,000 and 30,000 undocumented 
workers. And Idaho is not a very big State, but it is a big 
agricultural State and that is important.
    I have a couple of letters that I would like to add for the 
record. I have a letter here from Clayton Yeutter, former 
Secretary of Agriculture, and he is asking that we get on the 
AgJOBS bill and move it this year as a way of moving something 
in the right direction. Here is what he says. ``In the 
northeastern United States, 99 percent of the new entrants into 
the farm labor force admit they are lacking legal status.'' 
That is a phenomenal statistic, but it is an important one.
    I also would like to introduce for the record the names of 
the 400 organizations that are supporting this legislation, Mr. 
Chairman, from the American Farm Bureau to the United Farm 
Workers Union. When I was standing in front of a microphone 
with the national presidents of those two organizations, who 
have for decades been arch-enemies, they see and recognize the 
importance of solving this problem now. The U.S. Chamber of 
Commerce and the AFL-CIO, the National Association of State 
Departments of Agriculture, and the legal services advocates 
for both large and small workers and Latino groups across the 
country.
    It is a mature product. It is something that I will urge 
the Senate by my action or collectively by this and other 
committees' actions to vote on this year, Mr. Chairman, because 
as all of us believe, this is something we do not just pass on 
for another year.
    I also agree that amnesty does not work. What I offer is 
not amnesty. It is the ability to earn a legal status, and all 
who are coming want that opportunity. To deny those people that 
opportunity, to deny our economy this needed work force, to 
fail to treat these undocumented workers in a responsible and 
humane way is in my opinion un-American. That is what we are 
about here.
    Thank you for holding this hearing. It is critically 
important, as we build the necessary base to move this 
legislation, and I would hope we could move it this year, or at 
least a small part of it. I believe mine is the excellent and 
appropriate template from which to move and look at the 
criteria for developing a legal status by causing those who 
come to earn it and to give them that opportunity to do so. So 
I thank you for convening this hearing, Mr. Chairman.
    [The prepared statement of Senator Craig follows:]

              Prepared Statement of Senator Larry E. Craig

    Mr. Chairman, thank you for holding this hearing. I appreciate your 
holding this hearing on a timely subject of immense importance to our 
homeland security, our economy, and the future of our nation.
    The United States shares a border of about 1,950 miles in length 
with our closest southern neighbor. Mexico is our second-largest 
trading partner. By some counts, the second largest component of 
Mexico's gross domestic product is receipts sent home from workers in 
the United States. Mexico provides a majority of our immigrant farm 
worker population and, by all estimates, a majority of undocumented 
workers in the United States, economy-wide.
    A nation that fails to manage its borders cannot be secure at home. 
It begins to lose control over the safety of its people, the order and 
legality of its commerce, and even its very identity. On the other 
hand, with approximately 7,500 miles of land borders and 95,000 miles 
of shoreline and navigable rivers, we cannot seal our country off. Our 
only alternative is to manage our borders and ports of entry 
effectively. This fact is true of our border with Mexico and demands a 
manageable, forward-looking, national immigration policy, as well.
    For the decade before this President came into office, the federal 
government led the way as our nation remained in denial, ignoring both 
the rapidly growing number of undocumented persons in this country and 
the increasing dependence of critical sectors of our economy on 
undocumented workers. Some would say, with justification, that the 
nation actually spent the last four decades looking the other way.
    A few of us saw this problem and began talking about it some years 
ago but, for almost all of us, a real wake-up call came on September 
11, 2001. There has never been a more graphic or horrible demonstration 
of the need to manage our borders effectively--and of the failure to do 
so for many years before.
    In the last 2\1/2\ years, we have made progress. President Bush has 
demonstrated tireless leadership on and since September 11. The new 
Department of Homeland Security has been established to bring 
rationality to our border, immigration, and homeland security efforts. 
With the hard work of Secretary Ridge and the Administration, our men 
and women in uniform, and the Congress, our country and our borders are 
more secure and our homeland is safer.
    However, a lot of work remains to be done, and you, Mr. Chairman 
and Members of the Committee, have recognized that by holding this 
hearing.
    We face multiple challenges.
    With an estimated 8 to 12 million undocumented persons in the 
country, we need to identify them, treat them humanely and reasonably, 
and bring them out of the underground economy. We need to face facts 
and realize that whole sectors of our economy are dependent on the 
labor of these workers--the vast majority of whom want nothing more 
than to work under decent conditions at jobs that, quite frankly, 
American citizens often do not want.
    We need to restore the confidence of the American people that their 
government can and will manage our borders effectively and protect the 
public. We need to ensure respect for the law, from all parties.
    We also need to realize that putting more locks on the border works 
both ways. As we have begun succeeding with better border enforcement, 
many undocumented workers have been locked in our country. Many of 
these workers would have preferred to leave the country when the 
growing season was over or other work was done. Now, they are trapped 
here, because getting smuggled home has become as dangerous as coming 
here in the first place.
    We also need to consider the humanitarian aspects of this issue. 
Every year, more than 300 human beings die in the desert, in boxcars, 
in trunks, or otherwise, being smuggled into this country. That cost in 
human life is intolerable.
    We need to consider the economic impact of future demographics for 
our country. Japan has suffered a prolonged period of recession in part 
because it has a closed society and, now, an aging population. Last 
year, in hearings before the Senate Committee on Aging, Alan Greenspan 
and others testified that, as America also looks forward to a 
``greying'' future, immigration and guest workers will have an 
important role to play in keeping our own economy vital and in making 
sure there are enough workers to support a growing number of retirees.
    These are not easy or popular issues and I commend the President 
for his bold leadership, in stepping forward, issuing another kind of 
wake-up call, to focus the bright light of public attention on these 
issues. The Chairmanship of this Committee often is not an easy or 
popular job, so I also commend you for your leadership, Mr. Chairman.
    I agree with the President, and with my colleagues who also have 
come here today to talk about their bills, on many of the broad, key 
principles necessary for a lasting solution.
    Increased enforcement is part of the solution--but only part. In 
the last decade, we have tripled the number of agents securing our 
borders and enforcing our immigration laws. Worker identification 
checks have intensified. Formal removals have increased sixfold. 
However, the population of undocumented individuals living here has 
more than doubled.
    Consider, also, what the ``enforcement only'' answer really means. 
No, Americans will not tolerate a vast, intrusive government sweep 
through our homes and neighborhoods to find, flush out, investigate, 
prosecute, and forcibly relocate men, women, and children numbering six 
to nine times the population of Idaho. We fought a Revolutionary War 
over that kind of government intrusion. From the founding of our 
republic, Americans have always abhorred other nations sending storm 
troopers door to door in communities, looking for suspected infractions 
of domestic laws.
    Those who say, ``Just round 'em up, just enforce the law,'' are 
only proposing an excuse, not a solution, while the status quo just 
gets worse.
    Robust, expanded, guest worker reforms are part of the solution--
but only part. The old Bracero program of the 1950s has been 
criticized--justly--in many respects. No one is proposing a revival of 
that kind program. However, our nation's experience with that program 
has provided us with empirical evidence, cited recently by the National 
Foundation for American Policy, that a guest worker program actually 
helps reduce illegal immigration. That and other experiences also have 
shown us that a guest worker program can be part of a more functional 
immigration system and can extend economic opportunity to those of our 
neighbors most in need.
    However, guest worker programs take substantial time to stand up, 
in terms of design, administration, infrastructure, coordination with 
employers and prospective workers, and working with consulates around 
the world. As we also have learned from experience, very different 
factors, often unique to different industries and occupations, have to 
be considered. There are a lot of issues to be debated and details to 
be worked out. For example, depending on the supply of willing, 
available, domestic workers in different occupations, some will argue 
that different industries need different mechanisms to guarantee that 
domestic workers have the first opportunity at domestic jobs. 
Historically, Congress has applied different labor standards to guest 
workers in different industries. Labor markets may be local, regional, 
national, or international. Work opportunities may be seasonal or 
permanent, migrant or stationary. We want any program to be as simple 
to use and as non-bureaucratic as possible, while we also realize that 
Congress is not going to rush forward with a one-size-fits-all program.
    Amnesty is not the solution. It has been tried and it has failed. 
Even if, as a Federal Reserve study suggests, amnesty may have some 
economic benefits, we also have to consider the effects that blanket 
amnesty has on respect for the law and expectations of future rewards 
for unlawful activity. I am, and have always been, opposed to blanket 
amnesty. I am pleased that the President has stated his opposition.
    An effective federal partnership with state and local law 
enforcement should be part of the answer. In Canyon County, Idaho, it's 
been reported that 1,200 undocumented aliens were arrested last year--
by local law enforcement. In many cases creating partnerships--not 
unfunded mandates, but true partnerships--with local law enforcement 
would be far better than simply further expanding federal agencies. 
This would be more cost-effective, more practical, and more likely to 
build community support. Our colleague, Senator Sessions, has 
introduced a bill on this subject that I've cosponsored. I hope and 
believe that approach will be considered in other hearings.
    Finally, a key part of any solution will be the fair, humane 
treatment of those undocumented workers already here, already 
contributing to our economy and paying taxes. They are among the most 
vulnerable persons in our nation and, too often, are exploited by labor 
smugglers--``coyotes.'' If these workers have been, and will be, law-
abiding in every other respect, if they are willing to make sacrifices 
to earn the right to stay, then we can and should establish a system 
that allows them to stay here and work legally.
    I stress, as the President has stressed, that he has proposed a 
framework for guest worker reform. I applaud the Administration's 
repeated assurance that it is not taking any position on any one bill 
and has no intention to preclude any bill. The President has emphasized 
he wants to work out the details with Congress and we are ready to work 
with him.
    Mr. Chairman, I appreciate this opportunity to highlight the fact 
that one bill already introduced in Congress is ready to move. We have 
a vehicle ready to road-test key principles in the President's 
framework. I also believe this bill is consistent with the broad goals 
and principles of our other colleagues who have introduced bills and 
are testifying here today.
    That bill is AgJOBS--the Agricultural Job Opportunity, Benefits, 
and Security Act, introduced as S. 1645 and H.R. 3142. The principal 
difference from other bills is that AgJOBS deals with one industry--
agriculture.
    AgJOBS is a mature, thoroughly-developed product.
    AgJOBS represents more than seven years of work on these issues. It 
reflects four years of tough, bipartisan negotiations among Republicans 
and Democrats in the Senate and House, employer and employee 
representatives, agriculture and other sectors of the economy, 
immigration issue advocates, church groups, state government agencies, 
Latino groups, and others. Legislation involving major labor and 
immigration issues simply does not become law, unless it achieves this 
kind of bipartisan and broad-based consensus. Fifty-four Senators, 
including a majority of this Committee, are cosponsors.
    I want to thank you, Mr. Chairman, as well as the Ranking Member of 
this Committee, Senator Biden, for being cosponsors of AgJOBS.
    AgJOBS demonstrates the level of detail necessary to the successful 
design of a guest worker and immigration reform package.
    This bill gives us the opportunity to use reform in agriculture as 
the demonstration program that will help us work out the details, 
anticipate challenges, prevent problems, and fine-tune the mechanics of 
an economy-wide reform package down the road.
    Moving forward with AgJOBS as the pilot program for economy-wide 
reforms is practical. It is going to be easier and faster to set up, a 
program involving one industry and about 500,000 eligible workers than 
to wait and debate the design of a program for 8 to 12 million workers.
    Agriculture also has a unique history of guest worker programs and 
migrant employment. We have the necessary data and experience to draw 
on. There is no doubt in the minds of most of us that there really are 
few American citizens today who want to work, on a seasonal and migrant 
basis, at the hard physical labor of agriculture. In contrast, in some 
other industries, there remains the controversy over the availability 
of willing and qualified domestic workers and concern about their 
displacement by guest workers.
    Agriculture is the industry most impacted by dependence on 
undocumented workers--not by anyone's design, but by circumstance and 
necessity. The government's own data--based, incredibly, on self-
disclosure by workers, themselves--indicates that more than half of the 
agricultural work force is undocumented. Responsible private estimates 
run as high 75 to 85 percent. Farmers are going out of business today 
because they cannot find legal workers at the times they are needed.
    With AgJOBS, we could begin immediately to improve our homeland 
security--and especially ensure the safety and security of our food 
supply--by knowing who is planting and harvesting our crops, where they 
came from, and where they are working.
    With AgJOBS, we do not need to wait to start putting an end to the 
inhumane risks and exploitation suffered by these most vulnerable of 
workers.
    AgJOBS takes the same long-term approach consistent with the 
President's framework and other bills--an improved guest worker 
program. It also addresses the need for a transition program in the 
immediate term, by allowing workers the earned adjustment to legal 
status. This is not amnesty. Conditioning the right to stay here on a 
worker's commitment to 3 to 6 more years of physically challenging 
agricultural work is not a reward--it is an opportunity for the worker 
to rehabilitate his or her status under the law and earn the right to 
stay.
    Mr. Chairman, I've just recently received a letter from Clayton 
Yeutter, former Secretary of Agriculture under the first President 
Bush, and former U.S. Trade Representative under President Reagan, in 
support of AgJOBS. I ask permission to make that letter part of the 
record.
    Secretary Yeutter points to the startling, official government 
statistic that, ``In the northeastern U.S.--far from the border . . . 
99 percent of new entrants into the farm labor force admit to lacking 
legal status.'' He also points out, correctly, ``Agricultural employers 
do not want to hire illegal immigrants. What they want is a stable, 
viable program with integrity that will meet their labor force needs in 
a timely, effective way.''
    I also ask to insert into the record some background and 
explanatory materials that discuss the bill in greater detail.
    Finally, our AgJOBS bill has something no other proposal has: A 
historic, nationwide, broad bipartisan coalition of grass roots 
support. I ask to insert into the record a letter of support that we 
recently received from more than 400 organizations--national, state, 
and local organizations--asking Congress to enact AgJOBS into law 
expeditiously.
    This letter is somewhat historic in its own right. In support of 
AgJOBS, it brings together employers and workers--from the American 
Farm Bureau to the United Farm Workers. Because of the promise of 
AgJOBS as a necessary pilot program, this support goes far beyond 
agriculture--from the U.S. Chamber of Commerce to the AFL-CIO. Its 
cosigners include the National Association of State Departments of 
Agriculture, worker and legal-service advocates, large and small 
employers, Latino groups, religious groups, social service 
organizations, and others.
    Thank you, Mr. Chairman and Members of the Committee.

    [Attachments.]

                                                    March 19, 2004.

The Honorable Larry Craig
United States Senate
Washington, D.C. 20510

    Dear Senator Craig:

    Continued tragic deaths of Mexican workers seeking illegal entry to 
the U.S. to pursue economic opportunity, and a worsening labor crisis 
in American agriculture, have raised once again the wisdom and 
feasibility of our immigration policies at the U.S.-Mexico border. This 
is an issue that many of us have tried to address over the years, but 
few have listened. In that regard, we are grateful that you are 
testifying at a hearing to look at the immigration issue and the U.S. 
and Mexican bilateral relationship. With your leadership, and with your 
bipartisan legislation now before Congress to begin to address this 
problem, perhaps our views can now be heard.
    Many of the workers entering the U.S. from Mexico are hoping for 
jobs on farms and ranches or in nurseries and dairies. Such jobs often 
await them as thousands of American farmers wonder every year whether 
they'll have dependable help at harvest time. This is especially 
critical for our fruit and vegetable industries, where the ``open 
window'' for harvest can be very short-lived. But similar concerns are 
now emerging in many other farm enterprises, ranging from dairy to 
poultry to greenhouse crops to beef to Christmas trees. This has become 
a national problem and a recurring nightmare for our agricultural 
employers nationwide.
    Growing evidence suggests that at least 50 percent and perhaps 70 
percent of the current agricultural workforce is not in this country 
legally. In the northeastern U.S.--far from the border--government 
statistics show that 99 percent of new entrants into the farm labor 
force admit to lacking legal status. The immediate reaction of some is 
to say that these workers have broken the law and should be deported, 
and that U. S. farmers and other employers have brought this problem on 
themselves by not doing a better job of detecting fraudulent documents.
    That 11easy'' answer ignores the reality that few Americans are 
drawn to highly seasonal and physically demanding work in agriculture. 
At chaotic harvest times, a stable, dependable workforce is essential. 
American farmers are in a ``damned if you do, damned if you don't'' 
situation where they're required by law to be policemen, immigration 
officials, and security experts while simultaneously trying to get 
their crops harvested before they spoil.
    Agricultural employers do not want to hire illegal immigrants. What 
they want is a stable, viable program with integrity that will meet 
their labor force needs in a timely, effective way. They do not want a 
program with major shortcomings, for which they will inevitably be 
blamed. Unfortunately, that is what our laws have imposed upon them.
    As a nation, we can and must do better--for agricultural employers 
and for immigrant workers. Last fall, a bipartisan bill was introduced 
by you, Ted Kennedy (D-MA) and a bipartisan group of colleagues that we 
see as a major step forward in the battle to provide a stable and legal 
agricultural work force without sacrificing border security or 
weakening immigration laws. The so-called AgJOBS bill now enjoys the 
bipartisan co-sponsorship of 53 Senators as well as from agricultural 
employer, business, conservative, religious, immigrant and labor 
organizations.
    As you know, Sen. Craig, this legislation would allow certain 
laborers who have worked in American agriculture on a regular basis and 
have lived here for years doing our toughest jobs a chance to earn the 
privilege of remaining here. It would also reform and modernize the 
fifty-year-old guest worker program for agriculture. It would assure 
that when there are domestic labor shortages in agriculture in the 
future, growers would have access to workers who would enter the 
country legally for temporary periods and then return to their home 
countries after their work here is completed.
    This legislation has the additional advantage of permitting our 
government to better focus its limited monitoring/enforcement 
resources, particularly where security may be a concern. Let's use 
entry/exit tracking, tamper proof documentation, biometric 
identification, etc. where it will truly pay security dividends, and 
let's stop painting all immigrants with the same brush.
    The limited, earned legalization for agriculture, a key component 
of this bill, is quite different from a traditional or blanket amnesty 
program. It would apply only to immigrants who are at work providing 
Americans with a safe, abundant, and affordable food supply. The 
opportunity is conditioned upon substantial future work and lawful 
behavior. These laborers are an important part of our nation's 
agricultural workforce. We need them! American agriculture and our 
border infrastructure also need time to transition to and build 
capacity for a much more widely used guest worker program.
    During my years of service in our government, I saw difficult 
policy issues that could only be resolved with broad bipartisan 
consensus. This is such an issue. There is another choice: if we cling 
to partisan solutions, or wait perhaps several more years for 
comprehensive immigration reform proposals to ripen, we will be 
presiding over the ``offshoring'' of key components of our agricultural 
productivity. Along with the loss of key agricultural industries, we 
will see job losses in the sectors that serve agriculture: equipment 
manufacturing, sales and service, transportation, processing, farm 
lending . . . these are jobs that are filled by our sons and daughters. 
Is this really in our national interest?
    This issue deserves immediate and serious consideration by the 
Congress, and Congress should be open to solving this enormous problem 
in incremental steps. Before us is a chance to start to test certain 
approaches, keeping in mind that the agricultural solution may differ 
in some respects from the right solution for comprehensive reform.
    The status quo is simply unacceptable. It puts both American 
employers and immigrant workers in an untenable situation--with a high 
cost in economic efficiency, respect for the law, and sometimes even in 
human life. The reforms now being proposed are a practical solution to 
a serious problem that is evolving into a national crisis. It is time, 
and in our great country's interest, to enact these reforms.

            Sincerely,
                                    Clayton Yeutter
                       Former U.S. Secretary of Agriculture
                                      and U.S. Trade Representative

                                 ______
                                 

                  The Need for AgJOBS Legislation--Now

                              February 2004

    Americans need and expect a stable, predictable, legal work force 
in American agriculture. Willing American workers deserve a system that 
puts them first in line for available jobs with fair, market wages. All 
workers deserve decent treatment and protection of basic rights under 
the law. Consumers deserve a safe, stable, domestic food supply. 
American citizens and taxpayers deserve secure borders, a safe 
homeland, and a government that works. Yet Americans are being 
threatened on all these fronts, because of a growing shortage of legal 
workers in agriculture.
    To address these challenges, a bipartisan group of Members of 
Congress, including Senators Larry Craig (ID) and Ted Kennedy (MA) and 
Representatives Chris Cannon (UT) and Howard Berman (CA), has 
introduced the Agricultural Job Opportunity, Benefits, and Security 
(AgJOBS) Act of 2003--S. 1645/H.R. 3142. This bipartisan effort builds 
upon years of discussion and suggestions among growers, farm worker 
advocates, Latino and immigration issue advocates, Members of both 
parties in both Houses of Congress, and others.
The Problems:
    Of the USA's 1.6 million agricultural work force, more than half is 
made up of workers not legally authorized to work here--according to a 
conservative estimate by the Department of Labor, based, astoundingly, 
on self-disclosure in worker surveys. Reasonable private sector 
estimates run as high as 75 %.
    With stepped up documentation enforcement by the Social Security 
Administration and the Bureau of Immigration and Customs Enforcement 
(the successor to the old INS), aliens here illegally are not leaving 
the country, but just being scattered. The work force is being 
constantly and increasingly disrupted. Ag employers want a legal work 
force and must have a stable work force to survive--but federal law 
actually punishes ``too much diligence'' in checking worker 
documentation. Some growers already have gone out of business, lacking 
workers to work their crops at critical times.
    Workers here illegally are among the most vulnerable persons in our 
country, and know they must live in hiding, not attract attention at 
work, and move furtively. They cannot claim the most basic legal rights 
and protections. They are vulnerable to predation and exploitation. 
Many have paid ``coyotes''--labor smugglers--thousands of dollars to be 
transported into and around this country, often under inhumane and 
perilous conditions. Reports continue to mount of horrible deaths 
suffered by workers smuggled in enclosed truck trailers.
    Meanwhile, the only program currently in place to respond to such 
needs, the H-2A legal guest worker program, is profoundly broken. The 
H-2A status quo is slow, bureaucratic, and inflexible. The program is 
complicated and legalistic. DOL's compliance manual alone is 325 pages. 
The current H-2A process is so expensive and hard to use, it places 
only about 40,000-50,000 legal guest workers a year--2% to 3% of the 
total ag work force. A General Accounting Office study found DOL 
missing statutory deadlines for processing employer applications to 
participate in H-2A more than 40% percent of the time.
The Solution--AgJOBS Reforms:
    AgJOBS legislation provides a two-step approach to a stable, legal, 
safe, ag work force: (1) Streamlining and expanding the H-2A legal, 
temporary, guest worker program, and making it more affordable and used 
more--the long-term solution, which will take time to implement; (2) 
Outside the H-2A program, a one-time adjustment to legal status for 
experienced farm workers, already working here, who currently lack 
legal documentation--the bridge to allow American agriculture to adjust 
to a changing economy.
    H-2A Reforms: Currently, when enough domestic farm workers are not 
available for upcoming work, growers are required to go through a 
lengthy, complicated, expensive, and uncertain process of demonstrating 
that fact to the satisfaction of the federal government. They are then 
allowed to arrange for the hiring of legal, temporary, non-immigrant 
guest workers. These guest workers are registered with the U.S. 
government to work with specific employers and return to their home 
countries when the work is done. Needed reforms would:

  <bullet> Replace the current quagmire for qualifying employers and 
        prospective workers with a streamlined ``attestation'' process 
        like the one now used for H-1B high-tech workers, speeding up 
        certification of H-2A employers and the hiring of legal guest 
        workers.

  <bullet> Participating employers would continue to provide for the 
        housing and transportation needs of H-2A workers. New 
        adjustments to the often-arbitrary Adverse Effect Wage Rate 
        would be suspended during a 3-year period pending extensive 
        study of its impact and alternatives. Other current H-2A labor 
        protections for both H-2A and domestic workers would be 
        continued. H-2A workers would have new rights to seek redress 
        through mediation and federal court enforcement of specific 
        rights. Growers would be protected from frivolous claims, 
        exorbitant damages, and duplicative contract claims in state 
        courts.
Adjustment of workers to legal status:
    Outside the H-2A program, reforms would create a new program in 
which farm workers already here, but working without legal 
authorization, could earn adjustment to legal status. To qualify, an 
incumbent worker must have worked in the United States in agriculture, 
before September 1, 2003, for at least 100 days in a 12-month period 
over the last 18 months prior to the bill's introduction. (The average 
migrant farm worker works 120 days a year.)
    This would not spur new immigration, because adjustment would be 
limited to incumbent farm workers with a significant work history in 
U.S. agriculture. The adjusting worker would have non-immigrant, but 
legal, status. Adjustment would not be complete until a worker 
completes a substantial work requirement in agriculture (at least 360 
days over the next 3-6 years, including 240 days in the first 3 years).
    Up to 500,000 workers would be eligible to apply. Their spouses and 
minor children would be given limited rights to stay in the U.S., 
protected from deportation. The worker would have to verify compliance 
with the law and continue to report his or her work history to the 
government. Upon completion of adjustment, the worker would be eligible 
for legal permanent resident status. Considering the time elapsed from 
when a worker first applies to enter the adjustment process, this gives 
adjusting workers no advantage over regular immigrants beginning the 
legal immigration process at the same time.
    AgJOBS would not create an amnesty program. Neither would it 
require anything onerous of workers. Eligible workers who are already 
in the United States could continue to work in agriculture, but now 
could do so legally, and prospectively earn adjustment to legal status. 
Adjusting workers may also work in another industry, as long as the 
agriculture work requirement is satisfied.
AgJOBS is a Win-Win-Win approach:
    Workers would be better off than under the status quo. Legal guest 
workers in the H-2A program need the assurance that government red tape 
won't eliminate their jobs. For workers not now in the H-2A program, 
every farmworker who gains legal status finally will be able to assert 
legal protection--which leads to higher wages, better working 
conditions, and safer travel. Growers and workers would get a stable, 
legal work force. Consumers would get better assurance of a safe, 
stable, American-grown, food supply--not an increased dependence on 
imported food. Law-abiding Americans want to make sure the legal right 
to stay in our country is earned, and that illegal behavior is not 
rewarded now or encouraged in the future. Border and homeland security 
would be improved by bringing workers out of the underground economy 
and registering them with the AgJOBS adjustment program. Overall, 
AgJOBS takes a balanced approach, and would work to benefit everyone.

                                 ______
                                 

    Agricultural Job Opportunity, Benefits, and Security Act of 2003
                           S. 1645/H.R. 3142

            Summary of Significant Provisions--February 2004

TITLE I--ADJUSTMENT OF AGRICULTURAL WORKERS TO TEMPORARY AND PERMANENT 
                            RESIDENT STATUS

    Title I establishes a program whereby agricultural workers in the 
United States who lack authorized immigration status but who can 
demonstrate that they have worked 100 or more days in a 12 consecutive 
month period during the 18-month period ending on August 31, 2003 can 
apply for adjustment of status. Eligible applicants would be granted 
temporary resident status. If the farmworker performs at least 360 work 
days of agricultural employment during the six year period ending on 
August 31, 2009, including at least 240 work days during the first 3 
years following adjustment, and at least 75 days of agricultural work 
during each of three 12-month periods in the six years following 
adjustment to temporary resident status, the farmworker may apply for 
permanent resident status.
    During the period of temporary resident status the farmworker is 
employment authorized, and can travel abroad and reenter the United 
States. Workers adjusting to temporary resident status may work in non-
agricultural occupations, as long as their agricultural work 
requirements are met. While in temporary resident status, workers may 
select their employers and may switch employers. During the period of 
temporary resident status, the farmworker's spouse and minor children 
who are residing in the United States may remain in the U.S., but are 
not employment authorized. The spouse and minor children may adjust to 
permanent resident status once the farmworker adjusts to permanent 
resident status. Unauthorized workers who do not apply or are not 
qualified for adjustment to temporary resident status are subject to 
removal. Temporary residents under this program who do not fulfill the 
agricultural work requirement or are inadmissible under immigration law 
or commit a felony or 3 or more misdemeanors as temporary residents are 
denied adjustment to permanent resident status and are subject to 
removal. The adjustment program is funded through application fees.

     TITLES II AND III--REFORM OF THE H-2A TEMPORARY AND SEASONAL 
                      AGRICULTURAL WORKER PROGRAM

    This section modifies the existing H-2A temporary and seasonal 
foreign agricultural worker program. Employers desiring to employ H-2A 
foreign workers in seasonal jobs (10 months or less) will file an 
application and a job offer with the Secretary of Labor. If the 
application and job offer meets the requirements of the program and 
there are no obvious deficiencies the Secretary must approve the 
application. Employers must seek to employ qualified U.S. workers prior 
to the arrival of H-2A foreign workers by filing a job order with a 
local job service office at least 28 days prior to date of need and 
also authorizing the posting of the job on an electronic job registry.
    All workers in job opportunities covered by an H-2A application 
must be provided with workers' compensation insurance, and no job may 
be filled by an H-2A worker that is vacant because the previous 
occupant is on strike or involved in a labor dispute. If the job is 
covered by a collective bargaining agreement, the employer must also 
notify the bargaining agent of the filing of the application. If the 
job opportunity is not covered by a collective bargaining agreement, 
the employer is required to provide additional benefits, as follows. 
The employer must provide housing at no cost, or a monetary housing 
allowance where the Governor of a State has determined that there is 
sufficient migrant housing available, to workers whose place of 
residence is beyond normal commuting distance. The employer must also 
reimburse inbound and return transportation costs to workers who meet 
employment requirements and who travel more than 100 miles to come to 
work for the employer. The employer must also guarantee employment for 
at least three quarters of the period of employment, and assure at 
least the highest of the applicable statutory minimum wage, the 
prevailing wage in the occupation and area of intended employment, or a 
reformed Adverse Effect Wage Rate (AEWR). If the AEWR applies, it will 
not be higher than that existing on 1/01/03 and if Congress fails to 
enact a new wage rate within 3 years, the AEWR will be indexed to the 
change in the consumer price index, capped at 4% per year beginning 
December 1, 2006. Employers must meet specific motor vehicle safety 
standards.
    H-2A foreign workers are admitted for the duration of the initial 
job, not to exceed 10 months, and may extend their stay if recruited 
for additional seasonal jobs, to a maximum continuous stay of 3 years, 
after which the H-2A foreign worker must depart the United States. H-2A 
foreign workers are authorized to be employed only in the job 
opportunity and by the employer for which they were admitted. Workers 
who abandon their employment or are terminated for cause must be 
reported by the employer, and are subject to removal. H-2A foreign 
workers are provided with a counterfeit resistant identity and 
employment authorization document.
    The Secretary of Labor is required to provide a process for filing, 
investigating and disposing of complaints, and may order back wages and 
civil money penalties for program violators. The Secretary of Homeland 
Security may order debarment of violators for up to 2 years. H2A 
workers are provided with a limited federal private right of action to 
enforce the requirements of housing, transportation, wages, the 
employment guarantee, motor vehicle safety, retaliation and any other 
written promises in the employer's job offer. Either party may request 
mediation after the filing of the complaint. State contract claims 
seeking to enforce terms of the H-2A program are preempted by the 
limited federal right of action. No other state law rights are 
preempted or restricted.
    The administration of the H-2A program is funded through a user fee 
paid by agricultural employers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Thank you very much, Senator Craig, for your 
testimony, and for your advocacy, and for the bill that you 
have introduced.
    The chair wants to intervene at this point. Senator Boxer 
will necessarily need to move to another hearing soon. She will 
not be able to stay for the hearing. I would like to recognize 
her at this point for comment or questions.
    Senator Boxer. Thank you. I will be very brief. I have a 
statement and I would ask it be put in the record and just take 
less than 5 minutes. First, to thank you, Mr. Chairman, and to 
thank Senator Hagel as well.
    For my State of California, this is obviously extremely 
important and I would like to associate myself with the 
comments of Senators Craig and McCain. I think Senator McCain 
put a human face on this issue. We need to do that. It is 
important.
    And I also think when Senator McCain said that one of the 
issues growing out of 9/11 is that we really did not make a 
priority of this relationship, I think that is just a fact of 
life. I have met with members of the Mexican Government. They 
certainly feel this way. So I think your doing this is a 
wonderful signal that we are ready to engage in this.
    So briefly let me just say that I am on the Craig-Kennedy 
bill, that it is not correct what Senator McCain said that the 
Hispanic organizations have not backed any bill. They all 
support the Craig-Kennedy. This is a bill that, frankly, I 
think we just ought to go to the floor and do it because it is 
dealing with the ag portion of the problem. Everyone supports 
it: the workers, the bosses, the Hispanic groups. There just 
seems to be, as far as I can tell, no opposition.
    The beauty of the bill, as Senator Craig says, is you are 
giving people hope. You are giving them an opportunity. You are 
giving them hope, if they play by the rules, they get their 
legal status.
    I am also proud to see Senator Durbin here. I am a proud 
cosponsor of the DREAM Act. Basically he will explain it, so I 
will not take time to do so. Again, it gives hope and help to 
children. The kids did not know that they were doing anything 
wrong when their parents brought them here. Their parents came 
here in an undocumented fashion. They are working hard at 
school and I think when you hear from Senator Durbin, that is 
another wonderful bill.
    Those two, along with the State criminal alien assistance 
program, which we will not be looking at, but which helps our 
States and localities bear the costs of incarcerating 
undocumented immigrants, taken together, we begin to move 
forward here.
    I would just quickly say, without going into it, that the 
President's proposal--and he did step forward with a proposal--
if you really look at it--and I do not know that we are going 
to do that later today--I think it makes matters worse because 
what it does is it sets up a 3-year program where people can 
come in and if they want to re-up for another 3 years they can. 
After 6 years, they need to leave the country and go back. If 
they are lucky enough to have a sponsor, they might get in line 
for legal status. So what this does is it just sets up a 
permanent class of very powerless workers.
    And that leads me to my last point I want to make. An AP 
reporter did an investigative story about what is happening to 
our Mexican workers in the American work place, and it is very 
shocking. One in 14 work place deaths are Mexicans as opposed 
to 1 in 24 workers of other nationalities. The reason AP found 
for these death rate disparities, Mexican immigrants are less 
likely to receive job training or safety equipment, and are 
more reluctant to complain. It seems certain that if we do not 
have a program like the Craig-Kennedy plan, people are going to 
stay in the shadows. They are going to be fearful. So, God 
knows, we do not want people to die excruciating deaths at the 
borders. We also do not want them to die in the work place.
    This is an issue we need to deal with in a very forthright 
fashion. I think our colleagues that are sitting before you 
have done that, and I think Senators Hagel and Daschle are also 
doing that as well. So I am really grateful to you for having 
this hearing and allowing me to speak out of turn at this point 
because I have to go to a hearing on rail safety. Thank you.
    [The prepared statement of Senator Boxer follows:]

              Prepared Statement of Senator Barbara Boxer

    Mr. Chairman, thank you for holding this hearing. I also want to 
thank my colleagues who are testifying today.
    I particularly want to welcome Senator Craig. I am pleased to be a 
supporter of his and Senator Kennedy's AgJOBS bill, which would give 
undocumented farmworkers the opportunity to earn citizenship after a 
period of years living by the rules.
    I am also a cosponsor of Senator Durbin's DREAM Act to give 
undocumented children the right to become legal permanent residents of 
the United States in order to pursue higher education. The way it works 
would be that to be eligible for legal residence status under the DREAM 
Act, a student must have been under age 16 at the time of entry into 
the U.S., have resided continuously here for at least 5 years, and have 
a high school diploma or have gained admission to an institution of 
higher education. These children did not come here of their own 
volition and limiting their potential hurts them and us.
    As a third key policy, I support the State Criminal Alien 
Assistance program (SCAAP) to help our states and localities bear the 
costs of incarcerating undocumented immigrants.
    Taken together, these policy proposals aim to maximize the benefits 
of immigration and share the costs it creates. These policies serve as 
good models for broader reform: let those who play by the rules earn 
citizenship and let the national government assist our key immigration 
states.
    The President has an alternative that I believe won't work and is 
unfair to both immigrants and American workers.
    The proposal allows a new class of temporary guestworkers, and it 
guarantees employers that they will have access to additional new 
guestworkers once the original guestworker's status is up. That design 
promises a permanent supply of low-skilled, low-wage workers rather 
than encouraging employers to invest in workers and retain them.
    It also means workers without a voice. That's because to be able to 
renew for a second three years of guestworker status, the workers in 
many ways will be forced to tow the line even if there is an abusive or 
hurtful environment.
    We know that already immigrant workers face unique challenges in 
the workplace. I wrote a letter last week to Labor Secretary Chao about 
an Associated Press story which found that while Mexicans now represent 
about 1 in 24 workers in the United States, they represent about 1 in 
14 workplace deaths. Among the reasons the AP found for these death-
rate disparities: Mexican immigrants are less likely to receive job 
training or safety equipment and are more reluctant to complain. It 
seems that would hold true for participants in the President's new 
guestworker proposal as well.
    My last point is that the President's proposal is unfair. It says 
that these immigrants are good enough to pick our fruit, raise our 
kids, and clean our houses but they are not good enough to become 
citizens. When the six year guestworker period is up, these worker are 
expected to go back to their home country. To come back to the United 
States they would have to go to the end of the family sponsor or 
employer sponsor lines for reentry.
    The President's proposal doesn't seem like a good deal for 
immigrants or American workers. We can do better.
    Immigration comes with serious costs for our cities and states and 
brings with it unique challenges. If we handle it right, we will treat 
people well and gain the value of their work and their contribution.
    I want to work with my colleagues here today and with you Mr. 
Chairman to tackle this challenge--and to strike a balance between 
combating illegal immigration and having a rational and fair 
immigration policy where everyone benefits. The Craig-Kennedy bill and 
the DREAM Act are the right place to start.

    The Chairman. Thank you very much, Senator Boxer.
    Senator Durbin.

STATEMENT OF HON. RICHARD J. DURBIN, U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Thank you very much, Mr. Chairman. My 
Senate colleagues and fellow immigrants, I want to thank you 
for giving me the opportunity to testify today about 
immigration reform. I believe this is a priority for America. 
It is a priority for Mexico, and it is important that we act 
this year.
    It is imperative that we address our deeply flawed 
immigration policy. It jeopardizes our national security and 
our economy. It often treats hardworking immigrants unfairly.
    In recent months, the discussion about immigration reform 
has been dominated by President Bush's guest worker proposal. 
Though I agree with Senator Boxer that I think there are some 
fundamental flaws with the President's proposal, let me go on 
record to commend the President. It took courage, political 
courage, for him to step out and say it is time for America to 
speak forthrightly about immigration. I think he opened the 
door and I think we have an obligation, as public servants who 
understand the gravity of this issue, to step through that door 
and make positive changes.
    To my knowledge, the President's proposal has not yet been 
introduced as a bill. It may be later this year. But we should 
not wait for that. I think we can move on immigration reform. 
We should pass the DREAM Act. It is the only immigration reform 
proposal reported favorably by the Judiciary Committee in this 
Congress. It will signal that we are serious about immigration 
policy reform.
    I have introduced this act with Senator Orin Hatch. What an 
unlikely political couple--Hatch and Durbin--who happen to 
agree, and 42 cosponsors have joined us. The bill was reported 
favorably by the Judiciary Committee on an overwhelming 16 to 3 
vote. It is narrowly tailored to provide immigration relief to 
a select group of students who have good moral character, have 
no evidence of wrongdoing in their background, and who are 
trying to pursue higher education and really give more back to 
America.
    Mr. Chairman, I note that you and eight other members of 
this committee are cosponsors of the DREAM Act. I think we have 
the wind at our back on this issue. The administration has not 
taken a position, and I hope that their witnesses today will 
tell us that the President supports the DREAM Act.
    I know several of my colleagues on the committee have met 
some of the inspiring young people who would benefit from the 
DREAM Act. Let me tell you just a couple of illustrations that 
tell the story.
    Diana, was born in Mexico, and raised in Chicago. Her 
parents brought her to this country at the age of 6. Her father 
works construction, for $25,000 a year income. Her mother 
manages a fast food restaurant and earns $15,000 a year. Last 
year Diana graduated from high school in Chicago in the top 5 
percent of her class with a GPA of 4.4 on a 4.0 scale. An 
aspiring architect, she is an Illinois State scholar and the 
first place winner of the national Annual Design and Drafting 
Contest. An active member of her Catholic parish, she was the 
recipient of the 2003 New Leadership Award from the U.S. 
Catholic Conference of Bishops.
    Because of her excellent grades and her great background, 
she was accepted at Northwestern University, a prestigious 
school, but due to her immigration status was unable to attend. 
Nonetheless, she became the first member of her family to 
attend another college when she enrolled in the Architecture 
School at the University of Illinois in Chicago.
    Let me tell you another story of a young person who is not 
Mexican. Teresa was raised in Chicago. Her Korean parents 
brought her to the United States when she was 2 years old. Her 
mother, the family's sole bread winner, earns $20,000 per year, 
working 12-hour days at a dry cleaners.
    Here is how I came to know Teresa. Her parents called my 
office and said Teresa is a musical prodigy. She has been 
accepted at the Julliard School of Music, but when she went to 
fill out her application to go to school there, they had a box 
that said ``what is your citizenship.'' She turned to her 
mother who said, ``Teresa, I am sorry. We never filed the 
papers. You are not documented in the United States.'' And she 
then came to learn that she could not get admitted to the 
Julliard School of Music. She came to our office and said, ``I 
have been here since I was 2 years old. What can I do''?
    We called the Immigration and Naturalization Service and 
they said, ``well, it is clear what she should do. She should 
return to Korea.'' This young girl had been in the United 
States for 16 or 17 years. She knows no other country.
    Well, thank goodness, she went ahead and went to a top 
music school, and she is a musical prodigy. She will be a 
person that we look up to and admire and probably buy her CD's 
in years to come.
    But the hardship on her and her family trying to achieve 
this dream is the reason that Senator Hatch and I have offered 
this bill.
    Mr. Chairman, the DREAM Act would provide immigration 
relief to these students. It will permit young people of good 
moral character who graduate from high school, attend college, 
or enlist in the military and are long-term U.S. residents to 
become permanent residents. The DREAM Act will also repeal a 
provision of the Federal law that makes it prohibitively 
expensive for States to grant in-State tuition rates to 
undocumented students.
    In the interest of time, I will not go through the details, 
but keep in mind the DREAM Act simply gives to States the 
option to decide their own tuition policies. We precluded that 
with legislation we passed years ago.
    Mr. Chairman, I cannot think of another bill that I have 
introduced that has created so much support and hope among 
people who are desperate. To have a young person come to me, as 
I am sure each of us can tell this story, and say, ``Senator, I 
am about to graduate from college, I have worked my way 
through, extra jobs, it has been extremely difficult.'' One 
young man said to me, ``I have degrees in biology and computer 
science. I want to go into medical research, but my 
undocumented status stops me from contributing back to the only 
country I know, the country that I love, the United States of 
America.''
    Mr. Chairman, at the end of this hearing, I hope that we do 
not just have a great committee report and little action. You 
are not that kind of chairman. You are looking for solutions, 
and I want to join you. And I hope by the end of this Congress, 
we will respond favorably and pass the DREAM Act. Thank you 
very much.
    The Chairman. Well, thank you very much, Senator Durbin, 
for your testimony today. I think the news you bring, that the 
Judiciary Committee has forwarded the DREAM Act to the Senate 
by a vote of 16 to 3 should be underlined. It may have been 
missed by many. One purpose of our hearing is to highlight 
constructive action that is occurring. This is one area in 
which we could take action, and I pray that we will. The 
Mexican Consul in Indiana feels that this is the most important 
way that we could make headway in the relationship in a 
legislative session. I appreciate your championship of the 
DREAM Act, as well as your testimony here today. We thank you 
for coming.
    Let me add that the entirety of Senator Boxer's statement 
will be made a part of the record. Likewise, the documents that 
Senator Craig offered to us will also be made a part of our 
record along with a statement submitted by Senator Cornyn.
    [The prepared statement of Senator Cornyn follows:]

               Prepared Statement of Senator John Cornyn

    I would like to thank Chairman Lugar for holding this very 
important hearing today on immigration policy as it relates to our 
relationship with Mexico. We have a responsibility to reform our 
immigration policy to ensure that the tragedies of human smuggling and 
exploitation of our Mexican neighbors come to an end. We also have a 
responsibility to ensure the safety of our borders by creating a system 
of orderly, legal migration.
    I introduced my comprehensive immigration reform bill in July. My 
bill acknowledges that millions of undocumented men and women go to 
work every day in America in violation of our immigration law, outside 
the protection of our labor law, and without any way of our government 
knowing who, or where they are. The program I propose would allow us to 
account for undocumented individuals, distinguishing those who pose a 
threat to America from those who do not.
    The principles for immigration reform courageously outlined by 
President Bush show his understanding that our nation has failed to 
solve our immigration crisis and show a strong resolve to end the 
status quo. It was encouraging to see that among the many important 
principles he outlined is a critical component of reform that largely 
mirrors an important element of my bill: a work and return policy.
    The current economic and demographic conditions in Mexico 
illustrate the need for such a policy, and the President wisely 
included incentives to encourage guest workers to return to their home 
country. In my recent visit with government leaders in Mexico City, and 
again during Foreign Minister Ernesto Derbez's visit to the United 
States, I was repeatedly told that they want their workers back; they 
want entrepreneurs to return with capital and skills. But our current 
immigration policy fails to encourage such a return. That must, and 
will, change.
    The key to economic recovery in Mexico--without which there will be 
no end to illegal immigration across our southern border--is to 
encourage the growth of small businesses and entrepreneurs. However, 
the bulk of Mexico's risk-takers and entrepreneurs are heading north--
and they've not been given a reason to return. Our border should not be 
a one-way street; temporary workers should be allowed to work, and then 
return home.
    The temporary worker plan I propose is neither amnesty, nor a 
guaranteed path to citizenship. Instead, it acknowledges the vital role 
hard-working immigrants play in our economy and creates a comprehensive 
program as an important step toward reestablishing respect for our laws 
and restoring safe working conditions for immigrants who work here. It 
will enhance America's homeland security, facilitate enforcement of our 
immigration and labor laws, and protect millions who labor today 
outside the protection of the law. I look forward to working with my 
colleagues as we move forward to address comprehensive immigration 
reform.

    The Chairman. I would like to call now upon Senator Hagel.

   STATEMENT OF HON. CHUCK HAGEL, U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you. I thank you and all 
of our colleagues on this committee for the attention this 
morning and focus on an issue that, as we have heard from our 
distinguished colleagues, is as important a priority as any 
priority we have in the Congress certainly this year. I too 
recognize our colleagues for their proposals and their 
leadership on these big issues that cannot continue to be 
deferred any longer not only in the national security 
interests, economic interests, geopolitical strategic interests 
of this country, but as Senator McCain said this morning, there 
is a human dynamic to this that often gets lost in the 
underbrush of the technicality of legislation and regulation.
    I might also say that, as you have noted, Mr. Chairman, the 
Craig-Kennedy proposal, the DREAM Act that Senator Durbin so 
concisely outlined and what it would do, I believe deserve 
consideration in the Congress this year and should be passed 
this year. I am a cosponsor of each of those bills. In fact, it 
would take us a long way toward a comprehensive immigration 
reform that we need.
    A strong bilateral relation, as you have noted in your 
opening comments, Mr. Chairman, is important to our national 
security interests as any bilateral relationship we have today. 
And with nearly 100 million people and a 2,000-mile border with 
the United States, strong relations with Mexico are critical to 
enhancing our national security, our political stability, our 
economic growth, and free trade throughout the Western 
Hemisphere.
    America's security and vitality depend on policies that are 
based on the strengths of America, not our insecurities. 
Adjusting to the global economy requires immigration policies 
that consider those seeking to live and work in the United 
States as assets to and not burdens on our national economy.
    Daniel Henninger recently wrote in The Wall Street Journal 
that: ``The global migration of human labor, on which there is 
little organized data, is perhaps the most powerful force on 
the globe today.''
    Many politicians and commentators have portrayed 
immigration as a threat to American workers. But immigration is 
a vital part of America's strength, and it always has been. As 
noted in his opening comments, Senator Durbin greeted us all as 
fellow immigrants.
    In January, Senator Daschle and I introduce S. 2010, the 
Immigration Reform Act of 2004. Our legislation is a 
bipartisan, comprehensive proposal that addresses the 
complicated and difficult issues related to U.S. immigration 
law.
    Briefly, Mr. Chairman, our bill would strengthen national 
security by identifying undocumented immigrants living in the 
U.S., tracking foreign workers entering our borders, and 
increasing funds for border security.
    Fix the current system for immigrants who follow the law by 
reducing visa processing backlogs, reunifying families, and 
remedying inequities under the current law.
    Improve economic stability by establishing an enforceable 
program to bring needed foreign workers into the U.S. for jobs 
that would otherwise go unfilled.
    And national security to track and identify immigrants 
living within these borders.
    The participants in the bill's worker program would be 
required to maintain counterfeit-resistant authorization cards 
issued by the Department of Homeland Security. Individuals who 
continue to break immigration laws would be barred from these 
programs. Fees associated with our bill would be designated for 
border security.
    Fixing the current system. Our legislation reduces the 
existing backlog of applications for family sponsored visas to 
ensure that immigrants will be allowed to reunite with their 
U.S. citizen and legal resident family members. The bill 
provides designated funding to implement these changes.
    To provide foreign workers for jobs that would otherwise go 
unfilled, our bill admits a limited number of workers through a 
willing worker program. Employers seeking to hire a foreign 
worker must first demonstrate that no qualified U.S. worker 
exists and that they will provide the same wage levels and 
working conditions as provided for U.S. workers.
    Workers will be admitted for a limited period of time and 
will be allowed to change employers. Visa renewals would be 
available on a conditional basis. Qualified workers and their 
families would be provided an opportunity to adjust their 
immigration status.
    Finally, our legislation provides an opportunity for 
undocumented workers and families currently living in the 
United States to become invested stakeholders in the country if 
they can demonstrate that they have met all the following 
requirements: one, passed national security and criminal 
background checks; two, resided in the U.S. for at least 5 
years preceding the date of introduction; three, worked a 
minimum of 4 years in the U.S., one of which must occur post-
enactment; five, paid all Federal taxes; six, demonstrated 
knowledge of English and American civics requirements; and 
seven, paid a $1,000 fine in addition to required application 
fees.
    Individuals who qualify for this program will submit an 
application to the Department of Homeland Security. Upon 
approval, DHS may adjust the immigration status of qualified 
applicants.
    Mr. Chairman, Senator Daschle and I and our cosponsors look 
forward to working with this committee, other appropriate 
relevant committees in the Congress, and the Bush 
administration and all of our colleagues on this important 
issue.
    Mr. Chairman, I too wish to offer my thanks for your 
attention to this issue and thank you for your leadership.
    [The prepared statement of Senator Hagel follows:]

               Prepared Statement of Senator Chuck Hagel

    Mr. Chairman, Senator Biden, and my colleagues on the Foreign 
Relations Committee, thank you for inviting me to testify on ``U.S. and 
Mexico: Immigration Policy and the Bilateral Relationship.''
    A strong bilateral relationship with Mexico is as important to our 
national security interests as any bilateral relationship we have 
today. And with nearly 100 million people and a 2,000-mile border with 
the United States, strong relations with Mexico are critical to 
enhancing our national security, political stability, economic growth, 
and free trade throughout the Western Hemisphere.
    America's security and vitality depend on policies that are based 
on the strengths of America, not its insecurities. Adjusting to the 
global economy requires immigration policies that consider those 
seeking to live and work in the United States as assets to, and not 
burdens on, our national economy.
    Daniel Henninger recently wrote in The Wall Street Journal that: 
``The global migration of human labor, on which there is little 
organized data, is perhaps the most powerful force on the globe 
today.''
    Many politicians and commentators have portrayed immigration as a 
threat to American workers. But immigration is a vital part of 
America's strength. In January, Senator Daschle and I introduced S. 
2010, the Immigration Reform Act of 2004. Our legislation is a bi-
partisan, comprehensive proposal that addresses the complicated and 
difficult issues related to U.S. immigration law. Our bill will:

  <bullet> Strengthen National Security by identifying undocumented 
        immigrants living in the U.S., tracking foreign workers 
        entering our borders, and increasing funds for border security;

  <bullet> Fix the Current System for immigrants who follow the law by 
        reducing visa processing backlogs, reunifying families, and 
        remedying current inequities under the law; and

  <bullet> Improve Economic Stability by establishing an enforceable 
        program to bring needed foreign workers into the U.S. for jobs 
        that would otherwise go unfilled.
National Security:
    To track and identify immigrants living within and entering U.S. 
borders for work, our bill requires immigrants to undergo criminal and 
national security background checks prior to authorization.
    Participants in the bill's worker program would be required to 
maintain counterfeit-resistant authorization cards issued by the 
Department of Homeland Security. Individuals who continue to break 
immigration laws would be barred from these programs. Fees associated 
with our bill would be designated for border security.
Fixing the Current System:
    Our legislation reduces the existing backlog of applications for 
family-sponsored visas to ensure that immigrants will be allowed to re-
unite with their U.S. citizen and legal resident family members. The 
bill provides designated funding to implement these changes.
Economic Stability:
    To provide foreign workers for jobs that would otherwise go 
unfilled, our bill admits a limited number of workers through a Willing 
Worker Program. Employers seeking to hire a foreign worker must first 
demonstrate that no qualified U.S. worker exists and that they will 
provide the same wage levels and working conditions as provided for 
U.S. workers.
    Workers will be admitted for a limited period of time and will be 
allowed to change employers. Visa renewals would be available on a 
conditional basis. Qualified workers and their families would be 
provided an opportunity to adjust their immigration status.
Opportunity to Become a Stakeholder:
    Finally, our legislation provides an opportunity for undocumented 
workers and families currently living in the U.S. to become invested 
stakeholders in the country if they can demonstrate that they have met 
all of the following requirements:

  <bullet> Passed national security and criminal background checks;

  <bullet> Resided in the U.S. for at least 5 years preceding the date 
        of introduction;

  <bullet> Worked a minimum of 4 years in the U.S., (one of which must 
        occur post-enactment);

  <bullet> Paid all federal taxes;

  <bullet> Demonstrated knowledge of English language and American 
        civics requirements; and

  <bullet> Paid a $1,000 fine, in addition to required application 
        fees.

    Individuals who qualify for this program will submit an application 
to the Department of Homeland Security (DHS). Upon approval, DHS may 
adjust the immigration status of qualified applicants.
    Senator Daschle and I look forward to working with this committee 
and the Bush administration on this important issue.

    The Chairman. Well, thank you very much, Senator Hagel, for 
the excellent legislation that you have offered and described 
today.
    Let me ask now whether members of the committee have any 
opening comments. You have a short statement, I understand, 
Senator Dodd.
    Senator Dodd. Well, Mr. Chairman, in the interest of time, 
let us move along. We have got a couple of panels of witnesses. 
I am very interested in hearing what they have to say. I do 
have an opening statement, but I will ask that it be included 
in the record.
    Let me just express my gratitude to you, Mr. Chairman, for 
putting the bilateral relationship of the United States and 
Mexico back on the front burner. As Senator Hagel has said--and 
I apologize that I missed the comments of our colleagues who 
were here earlier, but I suspect by their presence here, they 
shared the view that it is always dangerous to prioritize any 
bilateral relationship as the most important, but certainly one 
could never argue that if you had to list the four or five most 
important bilateral relationships, Mexico would have to be on 
that list at any given time. And I think the committee's 
assertion of the importance of this agenda item, particularly 
the issue of migration, is commendable. I commend Senator Hagel 
and others who have put together some very thoughtful pieces of 
legislation.
    This is a very complicated issue, one that is going to 
require a lot of attention and detail. But the fact that we 
have 8 million undocumented workers in this country needs to be 
addressed. Obviously, the border issues are critical, but it is 
also true that we have good people here. The overwhelming 
majority of the people who come here to work make a significant 
contribution to our country, and that should not be lost on us 
at any moment.
    So I thank you for doing this. I am anxious to hear our 
witnesses. Again, I apologize for missing the opening 
statements of others, but I commend you for holding this 
hearing.
    [The prepared statement of Senator Dodd follows:]

           Prepared Statement of Senator Christopher J. Dodd

    The Foreign Relations Committee has convened this morning to 
discuss a topic which has not been receiving the attention it deserves: 
the bilateral relationship between the United States and Mexico. I 
thank the Chairman for holding today's hearing. It is an opportunity to 
once again bring what I believe is an important relationship back to 
the forefront of the U.S. foreign policy agenda where it belongs. I 
would also like to welcome our distinguished witnesses here today, 
especially my colleagues, Senators Hagel, McCain, Craig, and Durbin. I 
appreciate your willingness to be here today to participate in this 
important discussion.
    Along with many, I have been disappointed over the past several 
years by the Bush administration's lack of engagement with our friend 
and neighbor to the south. There was every reason to be hopeful early 
on in the Bush administration that the strong personal bonds between 
Presidents Bush and Fox would translate into real progress on the U.S.-
Mexico agenda--an ambitious agenda which includes migration, border 
security, human rights protection, drugs, trade, investment, energy, 
and economic development.
    But the reality has turned out to be quite different. Rather than 
engagement, there has been indifference at best on the part of the Bush 
administration both with respect to Mexico and our hemisphere 
generally. The low point in the U.S.-Mexico relationship clearly 
surrounded the UN Security Council consideration of Iraq and Mexico's 
opposition to a UN resolution supporting multilateral force against the 
regime of Saddam Hussein. That disagreement frankly froze any possible 
progress on issues of interest to Mexico, most especially migration 
reform. Now, it appears that there is a thaw in that relationship. I 
certainly hope so, because the important issues facing our two 
countries have been in limbo for much too long.
    This has been a turbulent period in our area of the world. From as 
far away as Patagonia, Argentina, or closer to home in the Caribbean 
nation of Haiti, many of our friends have been struggling to create and 
ensure a safe and secure future for their people. That includes Mexico. 
And as neighbors, partners, and friends, many of Mexico's problems have 
and continue to affect the United States very directly.
    More recently there has been some very limited progress on the 
bilateral agenda. Although it was held a year-and-a-half after 
originally scheduled, I am pleased that during their recent meeting in 
Texas on March 5th-6th, Presidents Bush and Fox were able to come to an 
important agreement with respect to visa entry requirements for Mexican 
workers who travel across the border to work during the day in the U.S.
    I also commend U.S. and Mexican authorities for their close 
cooperation on controlling our shared border. Border protection is an 
integral component of ensuring our security and Mexico's. Indeed, the 
Department of Homeland Security recently launched a new program--the 
Arizona Border Control initiative, and I am hopeful that this 
initiative will contribute to strengthening our capabilities in this 
area.
    But as we move forward, we must continue to keep in mind that this 
is more than just an issue of protecting our borders. It is an issue of 
protecting human life. More than 200 migrants died last year trying to 
enter the United States, as increased capabilities of the U.S. border 
patrol are forcing them to cross in dangerous desert regions. Indeed, 
according to reports, Border Patrol agents in Arizona apprehended 
almost 200,000 people from October 2003 to March 2004.
    Moreover, human smuggling rings are allegedly to blame for a 
variety of human rights violations, including executions, torture, and 
kidnappings. And some smugglers--so called coyotes--are not just 
transporting adults looking for work. They are also transporting 
children--from Mexico and other Latin American nations--in exchange for 
exorbitant fees. Undocumented, desperate parents are often willing to 
pay these fees so that they can be reunited with their children.
    Together, the U.S. and Mexican governments must continue to address 
these and other issues of shared importance. Indeed, illegal border 
crossing is not the only aspect of migration that needs to be 
addressed--a serious and thoughtful review of U.S. migration policy is 
long overdue, as are fundamental reforms. Any effort at reform will 
have to address issues critical to all Americans, including legitimate 
security concerns related to our borders. And any immigration reform 
must, to the greatest extent possible, protect the job security of 
American citizens, while also ensuring in cases where Mexicans, 
Salvadorans or other non-U.S. citizens are being employed by U.S. 
employers, that these workers are not exploited or otherwise 
mistreated.
    We cannot get away from the reality that there are at least eight 
million undocumented workers who are currently living and working in 
the United States. Anything we do in the context of immigration reform 
will have to address that reality. Clearly our domestic security will 
be greatly enhanced if we know who is living and working within our 
borders. Many of these individuals are hard working people who 
contribute to their communities, however some are not. Comprehensive 
migration reform would better enable us to identify those individuals 
who truly are a threat to our domestic security. The issue of migration 
is always an extremely difficult and complex one for the Congress to 
address in the best of times. Without real leadership on the part of 
the President, no reform is going to get done this year or even next.
    Moreover, the migration issue will never be resolved in a vacuum. 
The announcement of the Partnership for Prosperity initiative in 2002 
by President's Bush and Fox was an important first step toward 
recognizing the roots of the problem. Alleviating the poverty and lack 
of regional investment and infrastructure that promote migration is a 
central goal of the Partnership for Prosperity initiative. But there is 
still a tremendous amount of work to do if we are to help people in 
less developed areas of Mexico realize their dreams of success at home. 
I urge the Bush Administration to work closely with the Mexican 
government to achieve the sustainable growth necessary to reach that 
goal.
    Making progress on the U.S.-Mexican bilateral agenda is important 
to both of our countries and to the hemisphere at large. And to make 
significant progress, we must have sustained engagement at the highest 
levels. Only with extensive engagement will we be able to successfully 
battle issues such as migration, economic development, corruption, drug 
trafficking, and terrorism--issues which both threaten the integrity of 
governments and undermine popular support for democratic institutions 
and values throughout the hemisphere. Given the tumultuous history of 
the past few years, I can only hope that today's hearing is the 
beginning of such an effort.

    The Chairman. Well, thank you very much, Senator Dodd, for 
your attendance today, as well as for your continued leadership 
in issues involving our hemisphere. Your statement will be made 
a part of the record.
    Senator Corzine, I want to recognize you, if you have any 
comments.
    Senator Corzine. Thank you, Mr. Chairman. I will be brief. 
I want to echo the sentiments that I have heard from my 
colleagues with regard to the importance of this bilateral 
relationship.
    But recognizing the tension that exists in our society with 
regard to the immigration issues I think requires it for our 
own purposes within our own borders. I think many of the 
initiatives that I have heard presented by my colleagues, 
several of which I am cosponsoring, I look forward to having 
them moved aggressively onto the agenda because this is 
something that not only is important, as Senator Hagel talked 
about, with regard to national security and economic realities 
in our own communities, but is one that I think we need to 
address the tension that actually exists in our society that 
surrounds the questions of immigration, and we ought to get the 
rules of the road established.
    So I thank you very much for the hearing and look forward 
to the witnesses' testimony.
    The Chairman. Thank you very much, Senator Corzine.
    Let me just indicate that the committee recognizes that 
other committees have jurisdiction over the bills that have 
been presented here today, in some cases primarily. We 
understand that. Action has already been taken on the DREAM Act 
in the Judiciary Committee. Judiciary has likewise had a 
hearing with regard to the immigration proposals of our 
President and of others, as I understand it.
    It is clearly not our intent to step on the toes of any of 
our colleagues, but rather, to emphasize that the overall 
relationship with Mexico today is important as a foreign 
policy, and as a national security, issue. These subsets of 
issues clearly are part of that. We have had, I think, a good 
understanding with the chairmen of the relevant committees, who 
have encouraged us to proceed with this hearing. We will try to 
pursue that diplomatically with our colleagues, as well as with 
all who are involved in testimony today.
    Let me now call our second panel of witnesses. These are 
witnesses representing our administration, including the 
Honorable Roger F. Noriega, Assistant Secretary, Bureau of 
Western Hemisphere Affairs, Department of State; the Honorable 
C. Stewart Verdery, Assistant Secretary, Office of Policy and 
Planning, Border and Transportation Security Directorate; and 
the Honorable Eduardo Aguirre, Director of the Bureau of 
Citizenship and Immigration Services.
    My understanding is that the witnesses have agreed upon an 
order of testimony, which would mean Secretary Noriega first, 
then Mr. Aguirre, and then Mr. Verdery, in that order. We will 
ask you to proceed, gentlemen. All of your statements will be 
made a part of the record in full. Perhaps you would wish to 
summarize, but our purpose is to hear you out and hear your 
information today.

  STATEMENT OF HON. ROGER F. NORIEGA, ASSISTANT SECRETARY OF 
STATE, BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Noriega. Thank you very much, Mr. Chairman, and 
Senators. It is a great pleasure for us to be here this 
morning. We thank you for the opportunity to discuss the U.S. 
relationship with Mexico. My comments, which I will summarize 
here, will provide some additional context for the discussion 
of the immigration issue.
    I agree with you, of course, Mr. Chairman, and the other 
Senators that this hearing is a good opportunity to generate 
understanding and support in our country and in our Congress on 
this important issue.
    As President Bush has said, and as has been echoed here 
this morning, the United States has no more important 
relationship than the one it enjoys with Mexico. Despite some 
disagreements and a history that has not been without some 
difficult episodes, the economies and societies of our two 
countries are interwoven, and both countries are definitely 
stronger for it.
    Mr. Chairman, I should note that each of the five 
principles that you outlined this morning are very much at work 
in our relationship with Mexico. I think President Bush and 
President Fox have converted this relationship in a short 
period of time into a win-win equation. We understand that when 
we work to secure our border for honest commerce, that we both 
benefit. When we accommodate legal migration and fight against 
illegal migration, we both benefit. When we encourage trade and 
economic development, both of our countries stand to benefit, 
and when we fight drugs and work together in the region and in 
the world, we both benefit. This is very much a partnership 
with Mexico, one of shared responsibilities in confronting and 
dealing with the issues between our two countries and in the 
world we share, and we do so in a very constructive way.
    That was underscored at the meeting between the two 
Presidents in Crawford at the President's ranch on March 5 and 
6, which was an excellent opportunity to discuss these 
bilateral relations in a very informal, personal, friendly 
setting. I was inspired by the commitment demonstrated in those 
meetings by the two Presidents to work together to enhance an 
already strong relationship in ways that will benefit our 
people. I would like to discuss very briefly some of those key 
bilateral issues.
    As my colleagues in the Department of Homeland Security can 
attest, Mexico has offered outstanding cooperation in improving 
border security and counter-terrorism efforts. During the 
recent threat to aviation security at the end of 2003, Mexico 
worked closely with the United States, canceling flights and 
increasing security and screening in Mexican airports as the 
situation required. Under the Border Partnership Accord, signed 
by both Presidents in March of 2002, we are increasing security 
for both countries and speeding the movement of legitimate 
goods and travelers across our border.
    During the last 3 years, U.S. and Mexican officials have 
developed an unprecedented level of cooperation on law 
enforcement, including information sharing and even joint 
investigations. The Mexican Government has achieved impressive 
records in capturing leaders of the major drug trafficking 
organizations that operate on both sides of our borders. The 
Mexican Attorney General's office and the Mexican military 
conduct extensive eradication operations. Narcotics-related 
violence in border communities, particularly in Ciudad Juarez, 
Nuevo Laredo, and Tijuana, remains a serious problem as does 
corruption among Mexican state and local law enforcement 
officials. However, President Fox has not backed away from his 
efforts to target drug traffickers and to eradicate these 
illicit crops. It is important that the U.S. Government 
continue to support Mexico in these efforts.
    On the specific issue of extradition, we have made 
considerable strides. As you know, Mexico does not extradite 
criminals facing the death penalty, and the Mexican Supreme 
Court ruling bans the extradition of fugitives facing life 
imprisonment without parole, and this has caused serious 
concerns in terms of getting people back to face justice. 
Differences in our legal systems also lead to problems with the 
quantity and type of evidence required by Mexican courts, but 
we are working to address these issues and we hope that the 
Mexican Supreme Court will revisit the issue of life 
imprisonment.
    President Fox has made noteworthy advances in the area of 
human rights in the passage of an unprecedented Freedom of 
Information Act, the creation of a new Federal professional 
criminal investigative body, and the appointment of a special 
prosecutor for human rights cases. Many human rights challenges 
remain, particularly at the state level, but we believe Mexico 
will continue to tackle these problems.
    We share the Mexican Government's concern over the murders 
of women in Ciudad Juarez. Secretary Powell has raised this 
issue in his exchanges with Mexican officials, as have I. The 
United States has provided assistance in the past and stands 
ready to provide further assistance in addressing these serious 
crimes.
    We are exploring with the Mexican Government ways where we 
can intensify our joint efforts to address the mutual problem 
of trafficking in persons across our borders.
    Our shared border with Mexico imposes upon us a joint 
responsibility for resource management of all kinds, and there 
is no resource more important for people on both sides of that 
border than water. The deficit in water deliveries from Mexico 
to the United States is an ongoing serious concern, one which 
we discuss on a regular basis. I can assure you this came up in 
Crawford, for example. There is a deficit. Mexico, under 
President Fox, has not added to that deficit. They have kept up 
regular annual payments of the water debt, and there has not 
been an addition to the deficit, but it is something that we 
need to address to ensure that our farmers can count on the 
water supplies that are necessary for their productive 
enterprises.
    In the area of trade, the North American Free Trade 
Agreement is a success for all three countries. Of course, 
there are disputes and we are trying to resolve those through 
the dispute resolution mechanisms of NAFTA and the WTO. But 
Mexico is an important ally in the efforts to reach a Free 
Trade Area of the Americas agreement. They understand that 
trade has benefited all of our countries, definitely all three 
countries involved in NAFTA.
    We are extremely pleased by the activity of the Partnership 
for Prosperity, a public-private alliance established in 2001 
by Presidents Bush and Fox, that seeks to spur growth and 
address the root causes of migration in those regions of Mexico 
from which a disproportionate number of persons emigrate to the 
United States illegally. We seek to engage through this 
exercise the energies of the private sector to address the 
problems of poverty and development, and we believe that we 
have already seen some meaningful progress in this area and 
this can become a model for us to use elsewhere in the 
Americas.
    President Fox recognizes the need for comprehensive 
economic and fiscal measures to make Mexico more competitive 
and to generate sufficient jobs for his own citizens. Toward 
this end, he has introduced legislation to reform Mexico's 
fiscal structure and energy sector, and he has worked very 
closely with the political class in Mexico to address these 
important fundamental issues.
    Finally, the relationship we share with Mexico also has a 
hemispheric and global dimension. The United States and Mexico 
have very active and productive engagement on regional and 
world affairs, more than ever before. We cooperate, for 
example, in helping the Government of Bolivia, in helping the 
people of Venezuela, and these are two areas where we are 
working together to advance our mutual interests in democracy.
    My colleagues from the Department of Homeland Security will 
describe in more detail President Bush's January 7 proposal on 
migration, where it currently stands, and what the President's 
vision is for safe, orderly, humane, and practical and market-
sensitive immigration measures. The President is speaking of a 
temporary worker program, not amnesty, which will match willing 
workers with willing employers. While it is not Mexico-
specific, it will definitely have a major impact on Mexico and 
an impact on those who are here or those who want to work here 
legally.
    President Fox understands the importance of the temporary 
worker program for his country and he voiced support for the 
proposal during his meeting with President Bush in Monterey in 
January and again in Crawford.
    In conclusion, the progress in the United States-Mexico 
relationship over the last 3 years has been extraordinary and 
we believe that progress will continue, again emphasizing that 
this is a win-win partnership.
    Thank you very much, Mr. Chairman. I will answer any 
questions you might have.
    [The prepared statement of Mr. Noriega follows:]

              Prepared Statement of Hon. Roger F. Noriega

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to discuss the U.S. relationship with 
Mexico. As President Bush has said, the United States has no more 
important relationship than that which it enjoys with Mexico. Despite 
some disagreements and a history that has not been without some 
difficult episodes, the economies and societies of our two countries 
are interwoven. Both nations are stronger for it. The strength of each 
country's democracy and economy is fundamental to the other's, and the 
relationship directly affects the lives of millions of United States 
and Mexican citizens every day. The meeting between President Bush and 
President Fox in Crawford March 5 and 6 reflects a strong bilateral 
relationship forged by shared geography and growing economic ties. 
Under Presidents Bush and Fox, relations between the United States and 
Mexico demonstrate the desire of both countries to address common 
challenges pragmatically and to collaborate in building a more 
prosperous future for both countries. Bilateral relations have been 
defined in recent years by law enforcement concerns such as border 
security and narcotics trafficking, burgeoning trade, and immigration, 
as well as by unprecedented levels of cooperation. I would like to take 
this opportunity to discuss some of the key bilateral issues in more 
detail.

        BORDER SECURITY. COUNTER-NARCOTICS, AND LAW ENFORCEMENT

    Mexico has offered outstanding cooperation in improving border 
security and counter-terrorism efforts. During the threat to aviation 
security at the end of 2003, Mexico worked closely with the U.S. 
Government, canceling some AeroMexico flights to Los Angeles and 
stepping-up passenger screening. Earlier last year, at the time of the 
war in Iraq, the Government of Mexico implemented a plan by which its 
military assumed a higher state of alert and afforded enhanced 
protection for potential targets of international terrorism, including 
key infrastructure sites and centers of tourism. Funding provided by 
the United States under the Border Partnership Accord, signed by 
Presidents Bush and Fox in March 2002, is improving infrastructure at 
ports of entry, expediting legitimate travel, and increasing security 
related to the movement of goods. The plan focuses on the use of 
technology to improve security while diminishing delays in the movement 
of goods and people. We are also implementing systems and developing 
training programs to identify individuals who pose a national security 
threat either before their arrival at airports in North America or at 
our common border.
    During the last three years, U.S. and Mexican officials have 
enjoyed unprecedented cooperation in the area of law enforcement. 
President Fox's anti-corruption efforts and institutional reforms have 
made it possible to expand information sharing and conduct successful 
joint investigations. In 2003, U.S. and Mexican officials developed a 
common targeting plan against major drug trafficking organizations in 
Mexico and the United States and developed secure mechanisms for two-
way sharing of sensitive intelligence data without compromise. Mexican 
authorities have achieved impressive results in capturing leaders of 
major drug trafficking organizations. In 2003, Mexican authorities 
arrested over 7,500 perions on drug-related charges. They seized over 
20 metric tons of cocaine and more than 2,000 metric tons of marijuana, 
165 kilograms of heroin, and 652 kilograms of methamphetamines in 2003. 
The Mexican Secretariat of National Defense reports that it deployed up 
to 30,000 troops to eradicate drug crops manually, while the attorney 
general's office employed helicopters to spray illicit crops. These 
efforts destroyed 90,000 acres of marijuana and over 49,000 acres of 
opium poppy in 2003. Nevertheless, Mexico remains a major drug 
producing and transit country, money-laundering venue, and base of 
operation for criminal organizations that operate in the United States. 
Narcotics-related violence in border communities, particularly Ciudad 
Juarez, Nuevo Laredo, and Tijuana, is a serious problem, exacerbated by 
rivalries among trafficking organizations in the wake of the arrests of 
first and second tier drug traffickers by federal police. Institutional 
underdevelopment and corruption of state and local law enforcement 
officials are serious challenges. However, President Fox has not backed 
away from his efforts to target drug traffickers. The border security, 
counter-narcotics, and law enforcement situation in Mexico is both a 
great challenge and a great opportunity, which offers more hope than at 
any time in many years. President Fox has radically strengthened law 
enforcement cooperation with the United States and with our support has 
begun the process of reforming and rebuilding law enforcement and 
counter-drug institutions. With International Narcotics and Law 
Enforcement funding, the Department of State will be able to continue 
robust support of Mexican efforts to improve the capacity of their law 
enforcement institutions and to enhance their operations.
    Extradition is an area where we have seen improvement but where 
significant challenges remain. Mexico extradited 31 fugitives to the 
United States in 2003, surpassing the 2002 record of 25. Moreover, 
Mexico deported or expelled an additional 88 fugitives to the United 
States for immigration violations in 2003. Mexico does not extradite 
suspects facing the death penalty, which is in accordance with our 
bilateral extradition treaty. However, a 2001 Mexican Supreme Court ban 
on the extradition of fugitives facing life imprisonment without 
parole, coupled with confusion in some lower courts that are applying 
the ban too broadly, is a serious concern. This has kept high-level 
drug traffickers and some of those alleged to have committed the, most 
heinous state crimes from being extradited. We have also voiced our 
concerns about the quantity and type of evidence required by the 
Mexican courts. Denial of extradition by courts asserting a ``lack of 
evidence' is in part due to differences between our two legal systems. 
We are working with the Mexican Government to address these issues and 
hope that the Mexican Supreme Court will have occasion to revisit the 
issue of life imprisonment.

                HUMAN RIGHTS AND TRAFFICKING IN PERSONS

    President Fox has made historic advances in the area of human 
rights with the passage of an unprecedented freedom of information act, 
the creation of a new federal professional criminal investigative body, 
and the appointment of a special prosecutor for historic human rights 
cases. President Fox's unparalleled decision to support the opening of 
an office of the United Nations High Commissioner for Human Rights 
(UNHCHR) in 2002 was an important sign of how far Mexico has come. One 
of the fruits of this cooperation was a study of the human rights 
situation in Mexico, which the representative of the UNHCHR presented 
to President Fox in December 2003. Certainly, as the Government of 
Mexico has recognized, challenges remain. Particularly at the state 
level, corruption, impunity, and the use of torture to extract 
confessions continue to be serious problems. To meet these continuing 
challenges, President Fox has promised to use the UNHCHR study to 
develop a national human rights program. Realistically, it is going to 
require years of sustained effort in Mexico to overcome many of these 
problems.
    A particularly tragic circumstance is the situation in Ciudad 
Juarez where, since 1993, some 300 women have been murdered, 
approximately 90 of them in circumstances suggesting the possibility of 
serial killing. We have followed this issue closely and have discussed 
the matter with officials of the Mexican Government, including in 
conversations between Secretary Powell and Foreign Secretary Derbez. We 
note that President Fox has ordered the attorney general to assist 
local authorities, recently naming a special prosecutor, and has 
appointed a commissioner to coordinate the Mexican Government's 
assistance. While the crimes are Mexico's to solve, the U.S. Government 
has provided training and technical assistance in the past and stands 
ready to provide further assistance.
    As President Bush said during President Fox's visit to Crawford, 
``Mexican and American officials are working together to arrest 
dangerous criminals, including drug smugglers and those who traffic in 
human beings.'' Trafficking in persons--the buying, selling, and 
transport of human beings, mostly women and children, for sexual 
slavery or labor exploitation--is a worldwide curse, and one that 
neither the United States nor Mexico is prepared to tolerate. Our 
2,000-mile border and extensive ties of commerce and tourism make it 
imperative that we work together to combat this heinous international 
crime. We are therefore exploring with the Mexican Government ways in 
which we can intensify joint efforts to address this mutual problem.

                                 WATER

    Texas farmers in the border region depend heavily on water provided 
from Mexico under the 1944 Waters Treaty. When the Fox Administration 
came to office, it inherited a deficit of well over one million acre 
feet in water owed to the United States. The current government pledged 
not to permit any further increase in the water debt, and it has kept 
that pledge. However, it has not significantly reduced the deficit, 
which now stands at over 1.3 million acre-feet. We are pleased that 
Mexico not only met but exceeded the minimum annual average water 
delivery under the treaty by mid-January of this year. Our farmers need 
this kind of certainty in order to make planting decisions. 
Nevertheless, we also need a significant effort to reduce the deficit. 
Mexico has greater volumes of water in storage now than at any time in 
the past ten years. This is a point we continually emphasize in our 
bilateral discussions, and we hope for progress in water talks we are 
seeking to schedule in April.

                         TRADE AND DEVELOPMENT

    Our economic relationship with Mexico is healthy and thriving. The 
North American Free Trade Agreement (NAFTA) is clearly working for all 
three countries. Trade between the United States and Mexico almost 
tripled from $81 billion in 1993 to $236 billion in 2003. Canada and 
Mexico together receive 37 percent of all U.S. exports and supply 30 
percent of all U.S. imports. Mexico remains our second largest trading 
partner after Canada.
    While most trade crosses the border without difficulties, we do 
have some problems, including disputes over telecommunications, 
sweeteners, apples, beef, poultry, rice, stone fruit, and pork. These 
issues are being managed through ongoing negotiations and via NAFTA and 
World Trade Organization trade dispute resolution mechanisms.
    We are extremely pleased by the activity of the Partnership for 
Prosperity or P4P. Presidents Bush and Fox established P4P in 2001 to 
build on the bonds between our countries and to promote economic growth 
and higher standards of living for the citizens of both nations. P4P is 
a public-private alliance that seeks to spur growth and address the 
root causes of migration in those regions of Mexico from which a 
disproportionate number of persons emigrate to the United States 
illegally. P4P initiatives include projects to reduce the cost of 
remittances, expand Mexico's housing pool, extend credit to small and 
medium sized enterprises, establish university linkages, expand 
opportunities for indigenous handicrafts and promote good corporate 
citizenship. A 2003 workshop brought together 800 business and 
government representatives. A second P4P workshop in Guadalajara in 
June will focus on financial services, housing, information technology, 
human capital, and competitiveness.
    President Fox recognizes the need for comprehensive economic and 
fiscal measures to make Mexico more competitive and to generate jobs 
sufficient for his citizens. Toward this end, he has introduced 
legislation to reform Mexico's fiscal structure and energy sector.

                          REGIONAL COOPERATION

    The United States and Mexico enjoy more active and productive 
engagement on regional and world affairs today than ever before. We 
have a common interest in promoting democracy and prosperity in the 
hemisphere. Mexico has hosted a number of important multilateral 
conferences, including the recent Special Summit of the Americas and 
the Hemispheric Security Conference and serves as the venue for the 
ongoing talks on the Free Trade Area of the Americas. The Mexican 
Government has voted in favor of United Nations Commission on Human 
Rights resolutions addressing the problems in Cuba the last two years, 
and we hope it will do so again this year. Underlining its policy of 
engagement in support of democracy in this hemisphere, Mexico has co-
chaired with us a Bolivia support group and has been an active 
participant in the Friends of Venezuela group.

                         BINATIONAL COMMISSION

    As befits a unique relationship, the United States and Mexico 
maintain a unique bilateral forum. The annual meetings of the 
Binational Commission (BNC), initiated in 1981, provide a cabinet-level 
review of our joint activities. The BNC, which last met in November 
2003, is comprised of 14 working groups, cochaired by U.S. and Mexican 
cabinet officials, addressing topics such as: migration and consular 
affairs, law enforcement, security and border coordination, foreign 
policy, trade and economics, science and technical cooperation, and 
energy. The next meeting of the BNC will likely be in Mexico City in 
late November.

                              IMMIGRATION

    The well being of the Mexican community in the United States--
including those who reside here legally and those who have entered 
illegally--represents the most important foreign policy issue on 
Mexico's agenda with us. Remittances from Mexicans in the United States 
totaled $13.3 billion in 2003, accounted for 2.4% of GDP, and surpassed 
foreign direct investment flows and income from tourism; only crude oil 
revenue was higher. A full 23 percent of Mexicans indicate they receive 
remittances of some kind. With approximately 22 million people of 
Mexican ancestry living in the United States, many of whom are dual 
nationals, immigration reform affects not only Mexico's economic 
picture but also directly affects family unity, circularity, travel 
across the border, as well as educational and cultural ties. Therefore, 
the Government of Mexico has a very immediate and real interest in our 
immigration policy.
    My colleagues from the Department of Homeland Security will 
describe in more detail the President's January 7 proposal on 
immigration, where it currently stands, and the steps this 
Administration is taking to develop the vision of safe, orderly, 
humane, practical, and market-sensitive immigration. President Bush has 
proposed a temporary work program, not an amnesty program, that will 
offer legal, temporary worker status to undocumented persons who were 
employed in the United States at the time of his announcement. Under 
the President's program, America will also welcome workers from foreign 
countries who have been offered jobs for which American employers have 
been unable to find American employees. Thus, the President's program 
will match willing foreign workers with willing employers. The program 
would also permit these temporary workers to seek existing paths to 
permanent residency in the United States if they qualify, but they will 
take their place at the end of the line so as not to disadvantage those 
who have obeyed the law and have waited in line to achieve permanent 
residence and American citizenship.
    This new temporary worker program is nationality neutral (i.e., it 
would apply to immigrants from all countries, not just Mexico). But 
since Mexican illegal immigrants represent the single largest 
nationality group among the undocumented population, the effect of the 
proposed reform of our immigration regime would have a profound impact 
on Mexicans and Mexico. The new program represents an opportunity to 
strengthen both the American and Mexican economies. The United States 
will benefit from the labor of hard-working immigrants. Mexico will 
benefit as productive citizens are able to return home with money to 
invest and spend in their nation's economy. This system will be more 
humane to foreign workers who will be less reluctant to assert their 
rights to the protections provided to all workers in America. Moreover, 
as the illegal workers emerge from the shadows and register themselves, 
our homeland security interests will also benefit.
    President Fox and the Government of Mexico welcomed the President's 
initiative and recognize the importance of the announcement. Needless 
to say, Mexico looks forward to an efficient, humane temporary worker 
program. While the United States and Mexico continue our dialogue on 
issues concerning immigration and consular matters, there is also an 
understanding that achieving immigration reform is very much a U.S. 
domestic policy matter.

                               CONCLUSION

    The progress in the United States-Mexico relationship over the last 
three years has been extraordinary and will continue, to the benefit of 
both countries. To be sure, difficulties exist. They always do between 
friends. Over the past year, we have worked through some hard issues. 
In each case we have been able to keep the dialogue open and ultimately 
move forward constructively. And that is what we expect from friends: 
to be able to discuss our differences frankly and seek constructive 
solutions to difficult problems in a spirit of mutual respect.

    The Chairman. Thank you very much, Secretary Noriega. It is 
a pleasure to have you before the committee again today. We 
thank you for that testimony.
    Director Aguirre.

  STATEMENT OF HON. EDUARDO AGUIRRE, JR., DIRECTOR, BUREAU OF 
   CITIZENSHIP AND IMMIGRATION SERVICES, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Aguirre. Good morning, Mr. Chairman. Thank you very 
much, Senators Dodd, Hagel, members of the committee.
    My name is Eduardo Aguirre and I have the honor of serving 
President Bush's administration and our great Nation as the 
first Director of U.S. Citizenship and Immigration Services 
[USCIS], within the Department of Homeland Security.
    I am pleased to appear before you today to testify on the 
bilateral relationship between the United States and Mexico in 
light of the President's recent proposal for immigration 
reform.
    First, a little background on USCIS. With the creation of 
USCIS, just a little over a year ago, my team of 15,000 and I 
embraced a simple but imperative mission: making certain that 
the right applicant receives the right benefit in the right 
amount of time and preventing the wrong applicants from 
accessing America's immigration benefits.
    We established three priorities: eliminating the 
immigration benefits backlog, improving customer service, and 
at the same time enhancing national security.
    Accomplishing these priorities will have an impact on 
Mexico, as many of our customers are Mexican nationals.
    On January 7, as you know, President Bush courageously 
confronted a broken immigration system, one that had been 
ignored too long. From the East Room of the White House, he 
called for Congress to deliver true reform and a new temporary 
worker program that facilitates economic growth, enhances 
national security, and promotes compassion. The President made 
clear his principles for reform which are to protect the 
homeland and control our borders, match a willing foreign 
worker with a willing employer, when no American can be found 
to fill that job, promote compassion, provide incentives to 
return to the home country, and protect the rights of legal 
immigrants.
    This is not an amnesty program, as has been said before, 
which would otherwise join the illegal track with the legal one 
by facilitating green card status and potential naturalization. 
Rather, the President proposes a one-time regulated opportunity 
for undocumented workers already here as of the date of the 
President's announcement to legitimize their presence and 
participate more fully in our economy for a finite period 
before returning home. And it creates an ongoing opportunity 
for individuals abroad to apply to come temporarily to the 
United States to legally fill jobs that American workers will 
not fill. This proposal presents long-term, viable alternatives 
to the many risks associated with illegal immigration.
    For the committee's consideration, I would like to raise 
five points to complement my reflections on the process.
    First, enforcement is paramount to the temporary worker 
program. While Assistant Secretary Verdery will elaborate on 
some of the enforcement aspects of the temporary worker 
program, for United States Citizenship and Immigration 
Services, security and fraud prevention are synonymous with 
enforcement and must be a priority.
    Second, the American worker comes first. The President has 
made it clear that this program would match a willing foreign 
worker with a willing employer when no American can be found to 
fill the job.
    Third, the success of this program will require incentives, 
incentives to take advantage of the temporary worker program 
and incentives to return to the home country. Beyond the 
obvious economic and social opportunities, it is important that 
the temporary worker be able to travel to his or her country of 
origin to maintain important ties for his or her eventual 
return.
    Many of the individuals already in the United States who 
would apply to participate in the President's temporary worker 
program would have accrued sufficient unlawful presence to be 
subject to the 3- and 10-year bars for reentry. Thus any such 
legislation would necessarily need to supersede those bars for 
individuals who register.
    Fourth, the program should be fair and not come at the 
expense of legal immigrants who have respected our laws and 
earned their place in line. It is the President's belief that 
if the worker decides to pursue and is qualified to adjust to 
permanent status, it should be through the current process and 
should take a spot at the back of the line. Recognizing, 
however, that the current annual limitations may be 
insufficient, the President calls for a reasonable annual 
increase in legal immigrants.
    Fifth, the program should be simple and user friendly, thus 
one that can be effectively administered by our bureau. As you 
know, the temporary worker program proposal that we are 
discussing today is of extraordinary importance to Mexico. 
President Fox, while recognizing the important role of the U.S. 
Congress in discussing and legislating a temporary worker 
program has voiced his support of President Bush's proposal. 
The United States, for its part, is quite cognizant of both the 
economic and cultural benefits that result from Mexicans coming 
to work and living in our country. The challenge before us is 
to ensure that the migration of Mexicans, as well as nationals 
from other nations, is legal, safe, and orderly.
    Our relationship with the Government of Mexico continues to 
be of great importance to both of our nations. President Bush, 
Secretary Ridge, and I are committed to frank, frequent, and 
open exchanges with our Mexican counterparts at all levels of 
government. As I am sure you know, President Bush and President 
Fox met on March 5 and 6 at President Bush's ranch in Texas. 
Last month I traveled with Secretary Ridge to Mexico to engage 
in meetings with Interior Secretary Creel and other members of 
the Government of Mexico. In addition, I have had several 
meetings with various Mexican Government officials both here 
and in Mexico. In all of our interactions with Mexico, our 
administration recognizes that migration issues are a key 
element in our bilateral relationship.
    Beyond the temporary worker program, we have been working 
with the Government of Mexico on a variety of immigration-
related issues. In concert with the Department of State and 
Labor, we have eliminated the numerical limits and the 
associated requirements of a petition and corresponding labor 
condition application for Mexican professionals, as provided by 
NAFTA.
    Additionally, the United States and the Government of 
Mexico have been exchanging information on our respective 
asylum programs and processes. These are just a few examples of 
what is a robust, important, and open relationship with the 
Government of Mexico. The temporary worker program will only 
enhance this close relationship.
    Mr. Chairman, this concludes my remarks. Thank you for the 
invitation to testify, and I look forward to the opportunity to 
exchange ideas.
    [The prepared statement of Mr. Aguirre follows:]

            Prepared Statement of Hon. Eduardo Aguirre, Jr.

    Good morning, Chairman Lugar, Ranking Member Biden, Members of the 
Committee. My name is Eduardo Aguirre and I have the honor of serving 
this Administration and our great nation as the first Director of U.S. 
Citizenship and Immigration Services, within the Department of Homeland 
Security.
    This is my first opportunity to appear before this committee and it 
is my privilege to testify on the bilateral relationship between the 
United States and Mexico in light of the President's recent proposal 
for immigration reform.
    With the creation of the Department of Homeland Security, America's 
legal immigration system was put back on the right track, overnight. 
What remained were the many details and, as I prefer to say--God is in 
the details.
    My team of 15,000 and I embraced a simple but imperative mission; 
making certain that the right applicant receives the right benefit in 
the right amount of time, and preventing the wrong applicant from 
accessing America's immigration benefits.
    We established three priorities: eliminating the immigration 
benefits backlog and improving customer service while enhancing 
national security.
    These priorities dictate every facet of our business, consisting of 
family-based petitions; employment-based petitions; asylum and refugee 
processing; naturalization and citizenship services; special status 
programs; and document issuance and renewals.
    On March 1, we celebrated the one-year anniversary of our 
existence. I am particularly pleased with the progress we have made and 
the professionalism exhibited by our employees, day-in and day-out, 
while mitigating security threats that we know to be real and 
relentless.
    In the area of customer service, we have:

  <bullet> Initiated on-line features that allow customers to file and 
        pay for a number of our commonly used applications, as well as 
        offering individual case status updates;

  <bullet> Established the Office of Citizenship to develop and 
        implement public outreach and educational initiatives that 
        better prepare immigrants for their rights and 
        responsibilities;

  <bullet> Improved access to information by establishing a toll-free, 
        bilingual National Customer Service Center help line (800-375-
        5283); and

  <bullet> Reduced the lines at a number of offices with the highest 
        customer volume, such as New York, Miami and Los Angeles.

    In the area of backlog reduction, we have:

  <bullet> Created a Backlog Reduction Team to identify immediate 
        changes to speed up adjudication processes as well as to revise 
        implementation plans;

  <bullet> Eliminated the backlog of applications for Certificate of 
        Citizenship on Behalf of an Adopted Child with a program that 
        proactively provides parents the certificate without 
        application.

    We take national security very seriously. We conduct background 
checks on the front and back end of nearly every application for an 
immigration benefit. That meant 35 million Interagency Border 
Inspection System checks last year.
    In the vast majority of cases (97%), the checks take only minutes. 
In the event of a ``hit'', however, we will move cautiously until the 
issue at hand is resolved, even if that means a delay and contributing 
to the backlog. Last fiscal year, we processed about six million 
applications for an immigration benefit. Approximately 7% of the 
applications processed resulted in an initial security hit, and after 
further scrutiny, 2% resulted in confirmed security or criminal threat 
matches.
    We make no apologies for our commitment to the integrity of the 
immigration system and we will not cut a single corner, if it means 
compromising security, to process an application more quickly.
    Our intra-government coordination demonstrates that our approach 
realizes intended results. By way of example, our background check 
procedures identified individuals wanted for murder in Portland and 
sexual assault in Miami. We are making America safer against security 
and criminal threats, one background check at a time.
    But, that is just part of a typical day's work at USCIS. Today, we 
will:

  <bullet> Process 140,000 national security background checks;

  <bullet> Receive 100,000 web hits;

  <bullet> Take 50,000 calls at our Customer Service Centers;

  <bullet> Adjudicate 30,000 applications for an immigration benefit;

  <bullet> See 25,000 visitors at 92 field offices;

  <bullet> Issue 20,000 green cards; and

  <bullet> Capture 8,000 sets of fingerprints and digital photos at 130 
        Application Support Centers.

    Although our customers tell us that they are pleased with our new 
e-filing opportunities and online status checks, they and we are 
displeased with the length of time it takes to process benefit 
applications. We know that the dedication that led to effective 
background check processes must now be applied to backlog elimination 
efforts.
    We will not declare victory in backlog reduction until we achieve 
the President's objective of universal six-month processing by the end 
of fiscal year 2006.
    We will not declare victory in customer service until every legal 
immigrant is greeted with open arms and not endless lines.
    And, we will not stop until we have restored public confidence in 
the integrity of America's immigration system.
    That loss of confidence is an unfortunate yet legitimate obstacle 
and it can be attributed to the second track in our immigration system, 
the illegal track.
    On January 7th President Bush courageously confronted a broken 
system, one that has been ignored for too long. From the East Room of 
the White House, he called for Congress to deliver true reform and a 
new temporary worker program that facilitates economic growth, enhances 
national security and promotes compassion.
    The President made clear his principles for reform, which are to 
protect the Homeland and control our borders; match a willing foreign 
worker with a willing employer, when no American can be found to fill 
that job; promote compassion; provide incentives for return to the home 
country; and protect the rights of legal immigrants.
    This is not an amnesty program, which joins the illegal track with 
the legal one by facilitating green card status and potential 
naturalization. Rather, the President proposes a one-time regulated 
opportunity for undocumented workers, already here as of the date of 
the President's announcement, to legitimize their presence and 
participate more fully in our economy, for a finite period, before 
returning home. And, it creates ongoing opportunity for individuals 
abroad to apply to come temporarily to the United States and legally 
fill jobs that American workers will not fill, thereby presenting long-
term, viable alternatives to the risks associated with illegal 
immigration.
    The President feels strongly that the Temporary Worker Program 
should be simple and user friendly. We have the wisdom born of 
experience, the reliability of modern technology and human expertise 
and ingenuity to realize the President's vision.
    Simply put, I believe it is achievable, and I raise five points 
that complement my reflections on process for the committee's 
consideration.
    First, enforcement is paramount to the Temporary Worker Program. At 
present, we go to great lengths to inform the public abroad that 
America's immigration laws have not changed and enforcement and 
interdiction procedures continue. Additionally, we inform community 
based organizations at the grass-roots level that illegal immigrants, 
already here, should be mindful of their status and recognize that they 
are in violation of our laws and susceptible to detention and removal.
    I add that security and fraud prevention are synonymous with 
enforcement, and must be a priority. Identifying and enrolling the 
undocumented population will minimize threats and maximize security. 
The temporary worker program would introduce effective measures to 
prevent fraud, by the employer and worker, and would be integrated with 
programs such as USVISIT.
    Second, the American worker comes first. The President has made it 
clear that this program would match a willing foreign worker with a 
willing employer, when no American can be found to fill the job. We 
know that employers in many sectors continue to experience difficulty 
filling jobs.
    We also know that more than 14% of America's labor force is 
foreign-born and we anticipate that a high percentage of the estimated 
8 million undocumented aliens in this country work. The fact that they 
are here, in the workforce, is evidence of a market demand for their 
labor.
    We know that many pay taxes, but, because of their undocumented 
status, they may be reluctant to assert their right to protections that 
American workers have, such wage and hour, and health and safety 
protections. As President Bush pointed out, this is not the American 
way.
    Third, the success of this program will require incentives, 
incentives to take advantage of the normalization program and 
incentives to return to the home country. One obvious incentive is 
economic and social opportunity.
    The President's Temporary Worker Program will offer portability of 
investments. This will be instrumental in expanding individual 
participation in the increasingly interlinked worldwide economy, 
encouraging savings or even capitalization in a business, house or land 
in the home country.
    The United States has bilateral totalization agreements with some 
20 countries around the world, which will allow workers from either 
country to combine earned Social Security credits and receive benefits 
in their home country. The Administration will work with our 
international partners to encourage their recognition of the temporary 
worker's contributions made in both countries.
    The temporary worker will also benefit from skills learned and 
education attained during their work experience in America. This 
training will contribute to the temporary worker's marketability upon 
his or her return home.
    An additional incentive is circularity. The temporary worker should 
be able to travel, knowing that he or she can go and return freely to 
the country of origin for celebrations, funerals or vacation, and 
maintaining important ties that will aid the worker in his or her 
eventual return. Since many of the individuals already present in the 
United States who would apply to participate in the President's 
Temporary Worker Program would have accrued sufficient unlawful 
presence to be subject to the 3 and 10-year bars for re-entry, any 
legislation to create this program would necessarily need to supercede 
those bars for individuals who register. It is terribly important to 
maintain the ties between these individuals and their homes abroad as 
an incentive for their eventual return.
    Similar to other non-immigrant categories, the President believes 
that provisions should be made for family, to remain in the United 
States or travel to the United States with the temporary worker, 
providing that the temporary worker can demonstrate an ability to 
financially support his or her family, and assuming that members of the 
worker's immediate family present no criminal or security risks. I 
encourage the Committee to review the structure established by the H 
non-immigrant category, for best practices regarding eligibility of 
dependents. In addition, to truly meet the needs of the labor market 
and economy, the program should be non-sector specific.
    Finally, eliminating the fear of deportation will be an incentive. 
Undocumented aliens will tell you that they often have trouble sleeping 
at night, and leaving for work each day, not knowing if they will make 
it home at the end of the day. They realize that a simple traffic 
violation, automobile accident or other everyday misstep could result 
in bringing them to the attention of federal authorities and their 
subsequent deportation.
    Fourth, the program should be fair and not come at the expense of 
legal immigrants, who have respected our laws and earned their place in 
line.
    The President's plan calls for an initial three-year term that is 
renewable. We need to consider the number of renewals that the worker 
should be permitted to have prior to his or her mandatory return home. 
Standards, or thresholds, for renewal should include a job offer and 
confirmation that the worker does not present any type of criminal or 
security threat. It is the President's belief that if the worker 
decides to pursue and is qualified to adjust to permanent status it 
should be through the current process and should take a spot at the 
back of the line. Recognizing, however, that current annual limitations 
may be insufficient, the President calls for a reasonable annual 
increase in legal immigrants.
    Fifth, the program should be simple and user friendly--thus one 
that can be effectively administered. The President's proposal calls 
for aliens present in the United States as of January 7, 2004, to pay a 
fee upon enrollment in the program. In addition, USCIS would anticipate 
recovering the cost of processing the applications through collection 
of a processing fee as is done currently with all immigration 
applications. The processing fee would be set based on full cost 
recovery. This is important given USCIS is almost an entirely fee-based 
agency in the Federal government. On February 2nd, the President 
requested $1.711 billion in the FY 2005 budget for USCIS, $1.57 billion 
of which is mandatory spending, or fee revenues for immigration 
benefits. We will need to consider how to handle applications for 
aliens who are outside the United States but wish to enter to take up 
employment under the program.
    America has not seen immigration reform of this depth since 
enactment of the Immigration Act of 1990. While this program would be 
very different, for the purposes before us, I tasked my team to share 
with me lessons learned from that experience--that we can apply toward 
the President's Temporary Worker Program. Given our structure within 
DHS, USCIS will exceed the President's expectations.
    I respectfully submit the following features:

  <bullet> A one-time fee to be assessed upon the undocumented alien's 
        registration separate from the application processing;

  <bullet> A web-based mechanism for applying for program 
        participation;

  <bullet> A labor market driven program where an American workers must 
        first be sought--therefore there are no artificial numerical 
        limitations;

  <bullet> A retroactive effective date, requiring proof of employment, 
        to prevent an increase in illegal border crossings; and

  <bullet> Authority to terminate status when the worker fails to meet 
        his or her responsibilities, or in the interests of national 
        security or public safety.

    As you know, the Temporary Worker Program proposal that we are 
discussing today is of extraordinary importance to Mexico. President 
Fox, while recognizing the important role of the U.S. Congress in 
discussing and legislating a temporary worker program, has voiced his 
support of President Bush's proposal. The United States, for its part, 
is quite cognizant of both the economic and cultural benefits that 
result from Mexicans coming to work and live in our country. The 
challenge before us is to ensure that the migration of Mexicans, as 
well as nationals of other nations, is legal, safe, and orderly.
    Our relationship with the Government of Mexico continues to be of 
great importance to both of our nations. President Bush, Secretary 
Ridge, and I all are committed to frank, frequent, and open exchanges 
with our Mexican counterparts at all levels of government. As I am sure 
you know, President Bush and President Fox met on March 5 and 6 at Mr. 
Bush's ranch in Texas. Last month I traveled with Secretary Ridge to 
Mexico to engage in meetings with Interior Secretary Creel and other 
members of the Government of Mexico. In addition, I have had several 
meetings with various Mexican Government officials both here and in 
Mexico. In all of our interactions with Mexico, this administration 
recognizes that migration issues are a key element of our bi-lateral 
relationship.
    Beyond the temporary worker proposal, we have been working with the 
Government of Mexico on a variety of immigration-related issues. In 
concert with the Departments of State and Labor, we have, as of January 
1st of this year, eliminated the numerical limits and the associated 
requirement of a petition and corresponding labor condition application 
for Mexican professionals as provided by NAFTA. These changes eliminate 
the time and expense associated with filing a petition with USCIS, 
thereby streamlining the movement of Mexican professionals traveling 
between our two countries.
    Additionally, the United States and the Government of Mexico have 
been exchanging information on our respective asylum programs and 
processes. In 2002, the former INS hosted a delegation from Mexico to 
introduce them to the U.S. asylum process and discuss the procedural 
safeguards invested in the program. Last year, a USCIS team visited the 
Mexican Commission for Refugee Assistance in Mexico City to be 
introduced to the Mexican asylum process.
    Also, our Community Liaison Officers around the country have been 
working closely with Mexican consulates throughout the United States on 
issues of outreach and public information. These cooperative efforts 
enable us to effectively exchange relevant information and to provide 
guidance on immigration services and initiatives.
    These are just a few examples of what is a robust, important, and 
open relationship with the Government of Mexico. The Temporary Worker 
Program will only enhance this close relationship.
    This concludes my prepared remarks. I thank you for the invitation 
to testify before this committee and I would be happy to answer any 
questions.

    The Chairman. Well, thank you very much, Director Aguirre.
    Secretary Verdery.

 STATEMENT OF HON. C. STEWART VERDERY, ASSISTANT SECRETARY FOR 
    POLICY AND PLANNING, BORDER AND TRANSPORTATION SECURITY 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Verdery. Chairman Lugar and members of the committee, 
thank you for the opportunity to be here today to testify about 
the Department of Homeland Security's participation in our very 
important U.S.-Mexico bilateral relationship.
    As you mentioned, I am Stewart Verdery, Assistant Secretary 
for Policy in the Department's Border and Transportation 
Security [BTS] Directorate.
    As my written testimony details, a sensible immigration 
policy begins with security at our nation's borders and 
enforcement of our laws. Our homeland will be more secure when 
we can better account for those in our country instead of the 
current situation in which millions of people are unknown. 
Reforming our immigration laws to strengthen our economy, while 
bringing integrity to our immigration system, is a worthwhile 
goal consistent with our homeland security needs.
    However, following on the comments of my fellow panelists, 
I would like to concentrate my brief oral remarks today on 
several important initiatives DHS and particularly our BTS 
directorate are developing that impact our relationship with 
Mexico.
    The U.S. and Mexico signed a border partnership plan nearly 
2 years ago, and to facilitate progress under that accord, last 
month Secretary Ridge led a team from DHS to Mexico City, which 
included Director Aguirre. At that meeting, Secretaries Ridge 
and Creel signed two important companion agreements: a 
memorandum of understanding on the repatriation of Mexican 
nationals and a 2004 border plan of action. These agreements 
provide a framework for ensuring a secure, safe, and orderly 
border, especially during the upcoming summer months when 
dangers to migrants are most acute. We have agreed with Mexico 
to focus our efforts on the Arizona-Sonora corridor with a 
combination of resources, equipment, training, and law 
enforcement cooperation.
    Last Tuesday, on March 16, Under Secretary Asa Hutchinson 
announced the Arizona Border Control initiative, or the ABC, a 
first of its kind integrated operation aimed at saving migrant 
lives, enhancing border security, disrupting smuggling 
operations, and reducing violence in border communities. The 
announcement launching ABC alerted the community and those who 
would seek to exploit our borders that we are beginning to 
build our operational capacity to deal with the unprecedented 
flow of aliens through this dangerous terrain.
    Together with our Mexican counterparts, we are 
strengthening joint public safety campaigns and intensifying 
remote surveillance along high-risk routes into the United 
States. We have provided search, rescue, and lifesaving 
training to DHS and Mexican officers to respond to migrants who 
are lost or stranded by smugglers in the dangerous terrain.
    ABC integrates not only law enforcement at all levels, but 
integrates efforts along the border, at our ports of entry and 
in Arizona communities away from the border. Between our POE's 
we will deploy 200 additional and experienced border patrol 
agents, bringing the Tucson sector to over 2,000. At our POE's, 
we will strengthen the anti-terrorism contraband teams and the 
use of non-intrusive inspection equipment, and we will also 
intensify the presence of DHS at inland transportation 
terminals and airports.
    The ABC will also dovetail with Operation Ice Storm, an 
initiative of the Bureau of Immigration and Customs 
Enforcement, in which we were already disrupting and 
dismantling smuggling operations, uncovering drop houses, and 
targeting human smuggling infrastructure in Arizona's largest 
cities and communities. We trust that this initiative will help 
respond to the concerns raised by Senator McCain and others 
about the horrific conditions in that area.
    Returning to the broader U.S.-Mexico border partnership 
plan, we have outlined 22 concrete actions our countries are 
taking to confront the common threat of terrorism against the 
American and Mexican people. Among the many accomplishments 
under the plan is the SENTRI program, one of several programs 
designed to facilitate cross-border travel of prescreened, low-
risk travelers to enable DHS officers to focus resources on 
unknown and higher-risk travelers who seek admission to the 
country. Currently we operate SENTRI lanes in Otay Mesa, San 
Ysidro, and El Paso, and eight additional lanes are planned 
with a target date of the end of this year. As part of the 
enrollment process, applicants and their vehicles undergo a 
security check, and the names of enrolled participants are 
checked regularly against watch lists.
    We have also opened the first FAST, or Free and Secure 
Trade, lane in El Paso for commercial traffic and qualifying 
truck drivers in September and a second one last month in 
Laredo. Like SENTRI, participants in FAST are prescreened to 
determine low-risk and suitability for the program.
    Also, we have expanded the Customs-Trade Partnership 
against Terrorism program to Mexico to strengthen supply chain 
security and now have 51 importers in Mexico certified for that 
program.
    We are screening rail cargo moving in both directions 
across the border with the Vehicle and Cargo Inspection System, 
the VACIS. When a rail VACIS system is deployed at the last of 
the eight rail crossings this year, we will have reached 100 
percent screening.
    We have assisted Mexico with the development of the 
advanced passenger information system and are finalizing 
arrangements for the exchange of this crucial airline 
information.
    I would also like to highlight the recent announcement 
following President Fox's meeting with President Bush in Texas 
that the Department is committed to developing a solution for 
Mexican border crossing cardholders, the BCC holders, to 
satisfy requirements under the U.S.-VISIT program, our new 
entry-exit border program. As background, the biometrically 
enhanced BCC is both a crossing card and a visa. The BCC is 
valid for entry to the U.S. within 25 miles of the southwestern 
border zone for 72 hours or less. Since 1999, this zone has 
been expanded for 75 miles for the Arizona region only.
    The Biometric Verification System, the BVS, was created to 
fulfill our statutory mandate to incorporate a biometric 
identifier into the BCC. We are integrating the BVS with other 
systems within our Department to create an inspection booth 
capability that will be compatible with U.S.-VISIT 
requirements. Mexican nationals who use the travel documents 
only as a BCC will not initially be subject to U.S.-VISIT 
processing during primary inspection. This decision is an 
interim solution for our land border while the Department 
explores long-term solutions to record the entry and exit of 
individuals crossing our land ports of entry. Of course, if a 
Mexican national uses a BCC as a B1/B2 visa for longer travel 
outside the border zone or is required to obtain a regular 
visa, he or she will be subject to U.S.-VISIT requirements.
    In just 2 months, U.S.-VISIT has successfully and 
officially recorded the entry of over 2 million passengers 
without causing delays at ports of entry or hindering trade. 
The program has resulted in 187 watch list hits, including 
serious criminals, solely because of the biometric collection 
from nonimmigrant visa holders.
    To conclude, any temporary worker initiative plan that 
Congress enacts should be matched with the important and 
successful programs we are developing with our colleagues in 
Mexico such as repatriation and U.S.-VISIT. The Department 
looks forward to working with this committee and the Congress 
to do so. Thank you again for the opportunity to be here today. 
I look forward to your questions.
    [The prepared statement of Mr. Verdery follows:]

             Prepared Statement of Hon. C. Stewart Verdery

    Chairman Lugar, Ranking Member Biden, and Members of the Committee, 
thank you for the opportunity to testify about the Department of 
Homeland Security's participation in our important U.S.-Mexico 
bilateral relationship.
    The U.S. has a close, cooperative relationship with our neighbor 
that accordingly generates many initiatives, agreements, and plans 
between our governments. DHS is a key player in several of these U.S.-
Mexico activities. While it must be noted at the outset that when the 
President announced his proposed Temporary Worker Program on January 7, 
he did not announce the temporary worker program just for Mexican 
nationals, however, it is anticipated that many Mexicans would benefit 
as they do under existing legal immigration programs.

         I. PROTECTING THE HOMELAND BY CONTROLLING OUR BORDERS

    The first principle of the President's proposal for a temporary 
worker program is ``Protecting the Homeland by Controlling our 
Borders'' and the facts illustrate why controlling our common border 
with Mexico is as important a homeland security relationship as we have 
with any other country.

  <bullet> Sixty percent of the 500 million aliens who DHS admits to 
        the United States each year do so across our shared border.

  <bullet> In addition, 90 million cars and 4.3 million trucks cross 
        into the United States from Mexico each year--all part of $638 
        million in trade conducted at our border every single day.

    For more than a century, the story of our nations has been one that 
transcends just being neighbors. As Secretary Ridge recalls from an 
early visit to Mexico, Secretary of the Interior Santiago Creel 
underscored this fact when he quoted from letters that were exchanged 
between Abraham Lincoln and Benito Juarez during the darkest days of 
our Civil War.
    The mission of our Department of Homeland Security is to prevent 
terrorist attacks against the United States. In doing so, we are 
protecting the inalienable rights of life, liberty and pursuit of 
happiness that our nation established as its foundation in our 
Declaration of Independence.
    Of course, we do not hold these principles as ours alone. In the 
Declaration that accompanied the Border Partnership Plan signed nearly 
two years ago, we stated that ``The United States and Mexico are joined 
by common values, shared interests, and geography in ways that create 
unprecedented opportunities to work together to strengthen our peoples' 
physical safety and economic prosperity.'' It goes on ``The terrorist 
attacks of September 11 were an assault on our common commitment to 
democracy, the rule of law, and a free and open economy--conditions 
upon which our nations' well-being depends.'' Since that time, we have 
participated in implementing an integrated inter-agency strategy with 
the Departments of State, Justice and Transportation, state and local 
partners, as well as an equally broad array of Mexican counterparts. 
This coordinated approach to collaboration with Mexico enables us to 
facilitate legitimate trade and travel and simultaneously improve 
interdiction and investigation of illicit movements of drugs, people, 
weapons, cash or materials which could potentially be utilized by 
terrorists to attack our country.
    We have accomplished a lot in the border partnership plan as with 
many other facets of our bilateral relationship with our southern 
neighbor. In fact, just one month ago, Secretary Ridge, Undersecretary 
Hutchinson, and many other senior officials traveled to Mexico City to 
meet with their counterparts as the most recent in a series of regular 
meetings to monitor progress under that accord. At that meeting, 
Secretaries Ridge and Creel signed two important companion agreements, 
a Memorandum of Understanding on the repatriation of Mexican nationals 
and a 2004 Border Plan of Action. These agreements provide a framework 
for ensuring a secure, safe, and orderly border, especially during the 
upcoming summer months when dangers to migrants are the most acute. We 
have agreed with Mexico to focus efforts on the Arizona-Sonora corridor 
with a combination of resources, equipment, training, and law 
enforcement cooperation.

A. ABC Initiative
    Last Tuesday, Undersecretary Hutchinson announced the Arizona 
Border Control (``ABC'') Initiative--a first of its kind integrated 
operation aimed at saving migrant lives, enhancing border security, 
disrupting smuggling operations, and reducing violence in border 
communities. Congressman Kolbe joined in the ceremony to launch ABC and 
alert the community that we are beginning to build up our operational 
capacity to deal with the unprecedented flow of undocumented migrants 
through this dangerous terrain. The Border Patrol (in the Tucson 
Sector) has apprehended more than 116,000 undocumented migrants since 
January of this year--an increase of 34,000 apprehensions over the same 
period last year.
    This surge in the flow of migrants in the Arizona-Sonora corridor 
underscores the urgency for additional measures to warn would-be 
migrants of the perils posed by the desert and smugglers who value 
profits more than human life.
    Together with our Mexican counterparts we are strengthening joint 
public safety campaigns and intensifying remote surveillance along 
high-risk routes into the United States. We have provided search, 
rescue, and lifesaving training to DHS and Mexican officers to respond 
to migrants who are lost or stranded by smugglers in the dangerous 
terrain or exposed to the harsh climactic conditions.
    Additional personnel, technology, detention and removal capacity, 
and aviation assets will be available on the ground to DHS and its many 
law enforcement partners from state and local agencies, the Tohono 
O'Odham Nation, and the U.S. Attorney's Office.
    ABC integrates not only law enforcement at all levels, but 
integrates efforts along the border, at our ports-of-entry (POE), and 
in Arizona communities away from the border. Between our POEs, we will 
deploy 200 additional, experienced Border Patrol Agents bringing the 
Tucson Sector to over 2,000 strong. At our POEs we will strengthen the 
Anti-Terrorism Contraband Teams and increase use of Non-Intrusive 
Inspection Equipment. We will intensify the presence of DHS authorities 
at inland transportation terminals and airports.
    ABC and similar enforcement improvements are consistent with the 
goals of the President's proposed temporary worker program. The 
President's proposal would provide participants with lawful 
documentation. This would permit temporary workers to travel legally 
and freely through our ports of entry, resulting in more efficient 
management of our borders, and decrease the number of aliens who will 
desperately attempt to cross our border through desert land in 
dangerous conditions, thereby saving lives.
    Through Operation Ice Storm--an initiative of Immigration and 
Customs Enforcement (ICE)--we are already disrupting and dismantling 
smuggling operations, uncovering drop houses, and targeting human 
smuggling infrastructure in Arizona's largest cities and communities. 
Through unprecedented cooperation and coordination with Mexican law 
enforcement, we are exchanging intelligence about smuggling loads 
moving toward our borders and taking actions to seek prosecution of 
ringleaders on both sides of the border.
    To ensure the coordination essential for the success of these 
multiple law enforcement partnerships and integrated operations, there 
will be a Departmental ``integrator'' reporting directly to Under 
Secretary Hutchinson. Chief Patrol Agent David Aguilar will serve in 
this assignment.
    In addition, the President's request for the FY 2005 Department of 
Homeland Security budget includes $2.7 billion for border security 
inspections and trade facilitation at ports of entry and $1.8 billion 
for border security and control between ports of entry. This includes 
$10 million for Unmanned Aerial Vehicles testing and $64 million for 
border enforcement technology, such as sensors and cameras.

B. U.S.-Mexico Border Partnership Plan
    The Border Partnership Plan outlines 22 concrete actions our 
countries are taking jointly to confront terrorism, drug trafficking, 
crime, and other threats against the American and Mexican people. Three 
major pillars support the plan--often called our Smart Border Plan: (1) 
Secure Infrastructure; (2) Secure Movement of People; and (3) Secure 
Movement of Goods. The guiding spirit is to facilitate legal and low-
risk trade and travel while increasing capacity to stop illicit and 
dangerous flows. Of course, the secure exchange of information 
transcends the entire plan, making possible the effective management of 
the border.
    To cite but a few of the many accomplishments under the plan that 
fit into our strategy of securing the border:

  <bullet> SENTRI is one of several programs designed to facilitate the 
        cross-border travel of prescreened, low-risk travelers thereby 
        enabling DHS officers to focus resources on unknown, higher-
        risk travelers who seek admission to our country. Currently, we 
        operate SENTRI lanes in Otay Mesa, San Ysidro, and El Paso. 
        Eight additional SENTRI vehicle lanes are planned for as early 
        as the end of 2004. We had nearly 70,000 travelers enrolled in 
        SENTRI as of the end of January. Of these, approximately 61% 
        are U.S. enrollees and 37% are Mexican. As part of the 
        enrollment process, applicants and their vehicles undergo a 
        security check. The names of enrolled participants are 
        regularly checked against watch lists. We increased the period 
        of enrollment from one to two years for pre-screened 
        participants who qualify for the program. At no cost to SENTRI 
        participants, we are also switching over to the higher 
        technology that we currently use in the NEXUS system on our 
        northern border.

  <bullet> We opened the first FAST (Free and Secure Trade) lane in El 
        Paso for commercial traffic and qualifying truck drivers in 
        September and a second one last month in Laredo. Like SENTRI, 
        participants in FAST are pre-screened to determine low-risk and 
        suitability for the program. Allowing FAST participants to move 
        quickly through POEs has the twin goal of freeing Government 
        resources to inspect unknown, higher risk commercial traffic 
        while providing faster access to known, lower risk travelers.

  <bullet> We launched the Customs-Trade Partnership Against Terrorism 
        in Mexico to secure every link in the supply chain. We now have 
        51 importers certified for the program and another nine pending 
        certification.

  <bullet> We are screening rail cargo moving in both directions across 
        the U.S.-Mexico border with Vehicle and Cargo Inspection System 
        (VACIS). The Rail VACIS systems are deployed in 7 of the 8 rail 
        crossings. The final location will be installed during the 
        calendar year 2004. Once this is complete, all crossings will 
        receive 100 percent screening for rail traffic arriving into 
        the United States from Mexico.

  <bullet> We assisted Mexico with the development of its Advanced 
        Passenger Information System and together, we are finalizing 
        arrangements for exchange of this critical information on who 
        is entering North America by commercial airline.

  <bullet> CBP Border Patrol has trained and equipped close to 800 
        Mexican law enforcement and rescue personnel in search and 
        rescue, basic medical training and swift water rescue. 
        Additionally, Border Patrol has worked cooperatively with 
        Mexico to develop a bilateral media campaign with a single 
        message regarding border safety.

    Each of these initiatives includes working with other U.S. agencies 
to help Mexico increase its capacities to participate fully and 
successfully in the programs.

C. U.S.-VISIT on the Land Border
    During the recent visit of President Fox to Crawford, TX, President 
Bush was pleased to announce that the Department is committed to 
developing a solution for Mexican Border Crossing Card (BCC) holders to 
satisfy requirements under U.S.-VISIT--our new entry-exit border 
technology that assesses the security risk of those who seek admission 
at our POEs.
    The Biometric Verification System (BVS) was created to fulfill the 
statutory requirement to incorporate a biometric verifier into the 
Mexican Border Crossing Card and to match the verifier to the applicant 
on each application for entry. State Department consular posts in 
Mexico issue a combined Border Crossing Card and B1/B2 visa called a 
BCC and known colloquially as a ``laser visa.''
    The biometric the system reads is a fingerprint. (The BCC also 
includes another biometric, the photograph.) The BVS is being 
integrated, with other systems in DHS to create an inspection booth 
capability that will be compatible with U.S.-VISIT requirements. Site 
surveys are underway to prepare the ports for deployment by the end of 
June.
    The BCC is both a crossing card and a visa. The BCC is valid for 
entry to the United States within 25 miles of the Southwestern border 
for 72 hours or less (the ``border zone''). Since 1999, the zone is 75 
miles in Arizona only. No other document is needed for entry.
    Mexican nationals who use the travel document only as a BCC will 
not initially be subject to U.S.-VISIT processing during primary 
inspection inasmuch as the holder's biometric information was captured 
at the time the document was issued. This is an interim solution for 
our land border while the Department explores the long term solution to 
record the entry and exit of such individuals crossing our land POEs.
    However, if used as a B1 /B2 visa for travel outside the border 
zone or for a longer period, the traveler is issued the I-94 entry 
document by a Customs and Border Protection inspector and will be 
subject to U.S.-VISIT requirements. Similarly, Mexican nationals 
require nonimmigrant visas if they seek admission for a purpose other 
than a visit for business or pleasure. For instance, Mexican nationals 
require student or temporary worker visas and they, too, will be 
subject to U.S.-VISIT requirements.
    The President's request for the FY'05 Department of Homeland 
Security budget asks for $340 million for U.S.-VISIT, a proposed 
increase of $12 million over the FY 2004 funding. Only two months old, 
U.S.-VISIT has successfully and efficiently recorded the entry of 
2,253,382 passengers and the exit of 7,810 travelers without causing 
delays at ports of entry or hindering trade. The program has resulted 
in 187 watch list hits, including serious criminals, because of the 
biometric collection from nonimmigrant visa holders. Aliens who have 
repeatedly entered the U.S. illegally and used multiple aliases are now 
being detected. U.S.-VISIT will play a key role in the President's 
temporary worker program by validating that aliens are complying with 
the terms of the worker program as they enter and exit through ports of 
entry, making it easier to enforce the program.

D. Customs and Border Protection
    We believe the President's proposed temporary worker program should 
link efforts to control our border through agreements with countries 
whose nationals participate in, and benefit from, the program. 
Cooperation from the Mexican government will be especially critical, 
including possibly greater Mexican efforts to control the flow of 
Mexican migrants not qualified under the temporary worker program to 
the U.S. border. U.S. Customs and Border Protection (CBP) will continue 
its Integrated Border Enforcement Team (IBET) operations on the 
Canadian border and continue its cooperative efforts with both the 
governments of Canada and Mexico.
    For a temporary worker program to work effectively, border 
enforcement will be critical. It is important to recognize that DHS has 
set the stage for an effective program. Since September 11, 2001, the 
Border Patrol has increased the number of agents from 9,788 to 11,141 
as of March 6, 2004. Between the ports of entry on the northern border, 
the size of the Border Patrol has tripled to more than 1,000 agents. In 
addition, the Border Patrol is continuing installation of monitoring 
devices along the borders to detect illegal activity. Moreover, since 
March 1, 2003, all CBP officers have received antiterrorism training. 
The CBP Office of Training and Development is currently developing 
additional antiterrorism training for all CBP officers.
    The Border Patrol is also adding sensors and other technology that 
assist in detecting illegal crossings along both our northern and 
southern borders, including Remote Video Surveillance (RVS) systems. 
These RVS systems are real-time remotely controlled force enhancement 
camera systems, which provide coverage along the northern and southern 
land borders of the United States, 24 hours per day, 7 days a week. The 
RVS system significantly enhances the Border Patrol's ability to 
detect, identify, and respond to border intrusions, and it has a 
deterrent value as well. There are currently 269 completed Remote Video 
Surveillance (RVS) sites in operation; 200 along the southwest border 
and 69 along the northern border. An additional 216 installations are 
in progress.
    CBP pursues many initiatives in the ongoing effort to ensure a 
balance of two critical DHS objectives: (1) increasing security; and 
(2) facilitating legitimate trade and travel. These initiatives include 
the use of advance information, risk management, and technology, and 
partnering with other nations, other agencies, state and local 
authorities, and with the private sector. Using these principles, CBP 
understands that security and facilitation are not mutually exclusive. 
Since 9/11, we have developed strategies and initiatives that make our 
borders more secure while simultaneously ensuring a more efficient flow 
of legitimate trade and travel.
    In improving our nation's homeland security, CBP has created ``One 
Face at the Border.'' This includes designating one Port Director at 
each port of entry and instituting a single, unified chain of command 
for all CBP Officers at all of our ports of entry and all our 
inspectors--whether they be legacy customs, immigration, or agriculture 
employees. CBP has also developed specialized immigration and customs 
antiterrorism response teams and consolidated its passenger analytical 
targeting units. These units coordinate with CBP's National Targeting 
Center, which serves as the interagency focal point for obtaining 
manifests and passenger information for flights of concern.
    A Temporary Worker Program will enhance CBP's ability to carry out 
its continuing mission. Unauthorized entry into the United States will 
still be illegal, and CBP will continue to improve our homeland 
security by gaining greater control over our borders and more 
effectively and efficiently inspecting and screening arriving 
passengers, vehicles, and conveyances. For this reason, as reflected in 
the President's 2005 budget request, it will be more important than 
ever to ensure that the Border Patrol has adequate funding for the 
personnel, infrastructure, equipment and technology to continue to 
adopt its tactics and deploy its resources to meet its priority 
antiterrorism mission.

          II. PROVIDING INCENTIVES FOR RETURN TO HOME COUNTRY

    The second immigration enforcement principle that the President set 
out in his proposal is to provide incentives for return to the 
participant's home country. This includes the requirement that 
participants in the program return to their home country after their 
period of work has concluded. As proposed by the President, the legal 
status granted by this program would last three years, be renewable, 
and would have an end. Returning home is made more desirable because 
during the temporary work period, workers would be permitted to come 
and go across the U.S. borders so the workers can maintain roots in 
their home country. This has proven particularly important to Mexican 
nationals.
    In addition, the Temporary Worker Program would offer additional 
incentives for these workers to return home, including portability of 
investments and the skills learned and education attained during their 
work experience in America. With respect to Mexican participants in the 
program, we would certainly work with Congress and the Mexican 
Government to identify incentives for Mexican nationals to return home 
where they could then help improve the Mexican economy.

             III. WORKPLACE ENFORCEMENT OF IMMIGRATION LAWS

    The third immigration enforcement principle in the President's 
proposal is workplace enforcement of our immigration laws. The FY 2005 
President's budget request includes an increase of $23 million for 
worksite enforcement. This request to more than double funds for 
worksite enforcement illustrates the President's commitment to serious 
immigration enforcement and the rule of law as part of a temporary 
worker program.
    The worksite enforcement mission is now located in Immigration and 
Customs Enforcement's (ICE) National Security Division. The goal is to 
maintain integrity in the employment procedures and requirements set 
forth under our immigration laws. The Critical Infrastructure 
Protection Unit within the ICE National Security Division is the unit 
responsible for coordinating enforcement of our employment requirements 
under the Immigration and Nationality Act. ICE will continue to 
coordinate its employer sanctions and worksite enforcement activities 
with agencies having relevant jurisdiction, such as the Department of 
Labor and the Department of Justice's Office of Special Counsel for 
Immigration-Related Unfair Employment Practices, where there are 
indications of worker abuse based on illegal status or intentional 
abuses of salary requirements and laws on account of an alien's illegal 
status. Further, monitoring will occur in situations such as criminal 
and administrative investigations of employers, in conjunction with 
ongoing alien smuggling and trafficking investigations, and in 
industries where intelligence and ICE auditing indicates widespread 
disregard of employment verification requirements.
    Since 9/11, DHS has audited 3,640 businesses, examined 259,037 
employee records, arrested 1,030 unauthorized workers, and participated 
in the criminal indictment of 774 individuals. Post-9/11 enforcement 
operations targeting unauthorized workers at critical infrastructure 
facilities identified over 5,000 unauthorized workers who obtained 
employment at airports, nuclear plants, sporting arenas, military 
bases, and federal buildings by presenting counterfeit documents to 
their employers and providing false information to security officials. 
DHS' challenge is to enhance public safety to ensure that individuals 
intending to do us harm are not providing access to controlled areas.
    Temporary workers will be able to establish their identities by 
obtaining legal documents under a worker program. It is critically 
important to create a system that prevents fraud as it was so prevalent 
under the 1986 Immigration Reform and Control Act (IRCA) worker and 
legalization programs. It is essential that a new temporary worker 
program provide uniform documentation for participants that is tamper-
proof and as fraud-proof as possible. While this proposed program is a 
generous and compassionate one, we do not wish to reward those who 
abuse the program through fraud. Fraud prevention should be a component 
in creating this temporary worker program. Immigration fraud poses a 
severe threat to national security and public safety because it enables 
terrorists, criminals, and illegal aliens to gain entry and remain in 
the United States. ICE's goal, in conjunction with CIS and CBP, is to 
detect, combat, and deter immigration fraud through aggressive, 
focused, and comprehensive investigations and prosecutions. If 
approved, the $25 million FY 2005 budget request will provide stable 
funding to ICE's benefits fraud program by replacing funding previously 
provided through the Examinations Fee Account.
    Detention and removal of illegal aliens present in the United 
States is critical to the enforcement of our immigration laws. A 
requested increase of $108 million in FY 2005 will expand ongoing 
fugitive apprehension efforts and the removal from the United States of 
jailed offenders, and support additional detention and removal 
capacity. Adequate detention space has long been considered a necessary 
tool to ensure effective removal operations. An increase in bed space 
to accommodate a higher volume of apprehended criminal aliens results 
in a significantly higher appearance rate at immigration proceedings. 
When final orders of removal are issued, this will result in a greater 
number of removals and fewer absconders. With the $5 million request, 
ICE will enhance its ability to remove illegal aliens from the United 
States.
    As part of its overall immigration enforcement strategy, ICE will 
continue to analyze data generated through the Student and Exchange 
Visitor Information System (SEWS) and U.S.-VISIT program to detect 
individuals who are in violation of the nation's immigration laws and 
pose a threat to homeland security. If approved, the President's 
request for the FY 2005 budget of $16 million will increase the funding 
for ICE's SEVIS and U.S.-VISIT compliance efforts by over 150 percent.
    I want to highlight another key aspect to the President's Temporary 
Worker Program proposal--ensuring that past illegal behavior is not 
rewarded. This proposal does not provide an automatic path to 
citizenship. The program has a finite period of time and requires 
workers to return home. Those who have broken the law and remain 
illegally in our country should not receive an unfair advantage over 
those who have followed the law. We recognize that some temporary 
workers will want to remain in the U.S. and pursue citizenship. They 
will be able to apply for green card status through the existing 
process behind those already in line.
    A sensible immigration policy begins with security at our nation's 
borders. The President's proposed Temporary Worker Program is a bold 
step, aimed at reforming our immigration laws, matching willing workers 
with willing employers, and securing our Homeland. The President's 
proposal holds the promise of strengthening our control over U.S. 
borders and, in turn, improving homeland security.
    Illegal entry across our borders makes more difficult the urgent 
task of securing the homeland. Our homeland will be more secure when we 
can better account for those who enter our country, instead of the 
current situation in which millions of people are unknown. With a 
temporary worker program in place, law enforcement will face fewer 
problems with unlawful workers and will be better able to focus on 
other threats to our nation from criminals and terrorists.
    Passing a Temporary Worker Program that works to benefit the 
American economy while bringing integrity to our immigration system is 
a reasonable goal for all of us. The Administration is ready to work 
with the Congress to move forward in achieving this important goal.

    The Chairman. Well, thank you very much, Secretary Verdery.
    The chair would suggest a 7-minute question period, to be 
followed by another round, if that will be required, for 
Senators to raise their questions.
    I will begin the question period by observing that in 
December the Aspen Institute, under our former colleague, 
Senator Dick Clark, conducted a very good meeting in Mexico. 
Twenty Members of Congress met with officials of the Mexican 
Government, people from think tanks, and others who were 
involved in the U.S.-Mexico relationship. Specifically, the new 
Foreign Minister of Mexico was a participant. That was very 
valuable, in terms of both the formal sessions and the informal 
ones.
    Some of the points that have been made by Senators and by 
witnesses of the administration today were clearly a part of 
that meeting in December. There was a feeling that although the 
relationship between President Bush and President Fox started 
with an excellent meeting before 9/11, unfortunately, 
subsequently to that, the dialog between the countries, or at 
least its public manifestation underwent a change that was not 
for the good.
    The question before the Members of Congress was, how can we 
work with the administration to make certain that the 
relationship improves? We recognize how important our 
friendship with this vital neighbor is. Mexico is a member with 
us in the NAFTA treaty. This has resulted in extraordinary 
changes for the good in my judgment. Clearly this subject, the 
fallout of NAFTA, would merit another debate all by itself. A 
lot has happened since then.
    I am one who appreciates the fact that the President of the 
United States has addressed the immigration issue. Even more 
importantly, he has met with President Fox at Crawford.
    Having said that, in this hearing I want to try out some 
ideas that require much more exploration. One idea that arose 
from the December conference, from the Mexican side, 
informally--and I do not attribute this to the Foreign Minister 
or to anyone--was this thought, that in terms of our energy 
cooperation, PEMEX needs capital. In the past, this issue has 
been difficult, simply because of the nationalization of the 
oil industry. One of the problems for Mexico is that the amount 
of revenue coming from PEMEX to the government--and that is a 
major source of income for the stability of that government--is 
severely limited by lack of capital improvements, or whatever 
the infrastructure might require.
    In the December conference, forward-thinking Mexicans, 
hopefully interacting with forward-thinking Americans were 
saying, what if somehow Mexico was prepared to reach out? They 
proposed that there be a capital infusion by the United States, 
by either public or private investors, so that the capacity of 
PEMEX to pump oil would be increased by maybe 100 percent, with 
the thought that this 100 percent increase would be primarily 
dedicated to the United States market. In essence, at a time of 
great energy difficulties for us, with ups and downs even in 
our own hemisphere with regard to oil supply, quite apart from 
the Middle East, why not begin to forge a strategic economic 
partnership based upon supplies that are very ample but an 
infrastructure with PEMEX which is not very ample in bringing 
this about?
    My understanding is that a serious discussion of this sort 
will occur in the equivalent of the Mexico Council on Foreign 
Relations in Mexico City, and maybe other fora as well, so that 
people in political life will become sensitized to these 
considerations, just as we were being sensitized to them in the 
December meeting.
    Secretary Noriega, I have not prepared you for this line of 
inquiry, but what are the possibilities of a more strategic 
relationship on energy, a subject that is tremendously 
important in the foreign policies and in the economies of our 
countries? We have talked today about a jump start for things 
we might do to help the Mexican economy. That means, we are 
thinking about revenues for their government, as well as for 
our own. Here lies a fairly large resource, even if it may be a 
large political and historical problem. Is this something that 
perhaps we ought to pursue?
    Mr. Noriega. Senator, I believe that is a very essential 
issue that we have to deal with. Estimates are that Mexico will 
need in the energy sector about $180 billion in additional 
investment. We certainly encourage private sector investment in 
the energy sector. Mexico is a key supplier, our fourth 
supplier of crude, and it is important also to note that as 
that economy grows, its demand for energy is increased. So here 
you have a country with vast resources that is actually having 
to import electricity from other countries.
    I think President Fox and many in Mexico recognize that 
they must take steps to open up that part of the economy to 
cooperation and to investment, to joint ventures. But it has, 
of course, been a neuralgic issue, and a question of 
sovereignty of the husbanding of that national resource.
    It is going to require a dialog in Mexico, and we can 
support this effort by being transparent in our interests 
showing that we are interested in mutually-beneficial 
arrangements and putting it perhaps in a North American 
context. Certainly the energy relationship we have with Canada 
is also critical. They are our chief supplier of foreign 
energy. So if we can put it in the context of North American 
integration, I think that we can make important strides on that 
front. It is really essential that we do so.
    The Chairman. I appreciate that comment, because I agree 
with it. The North American integration idea is a good way to 
place it.
    What I am hoping for is that we move outside the box, and 
we begin to get a much broader agenda. This is notwithstanding 
the extreme importance of the immigration issue that we are 
talking about today, including the specific humane 
considerations, whether it be safety for Mexicans or the DREAM 
Act. These are things that we may be able to deal with in the 
short run.
    But I am trying to think, of a much broader agenda in which 
we begin to take the relationship seriously, across the board 
in macroeconomic terms, and in which we try to think through 
the various ramifications, if not in a bilateral way, perhaps 
with Canada, then perhaps as we integrate, hopefully, the 
Central American Free Trade Agreement, thereby attaining 
cooperation with even more of the hemisphere as we get into 
South America. One purpose of this hearing is to send some 
signals of this variety. My friends in Mexico say, why are you 
not raising these issues? Why are we not discussing Mexico 
more? That is an important question. We need to do that, and we 
need to say that we take it seriously.
    Mr. Noriega. Yes, Senator, and if I can add just very 
briefly. We are fleshing out some proposals in the North 
American context across the board to make us all more 
competitive and emphasize these mutually-beneficial economic 
arrangements. Energy has to be a part of that. It is also 
related to the migration question because for Mexico to 
generate sufficient jobs at home for their growing population, 
they are going to have to do some things, retooling their 
economy to make themselves more competitive, and energy of 
course is a part of that equation. We are looking at it in a 
comprehensive way and I can send that positive signal and would 
look forward to being a little more specific with you about the 
ideas that we have in mind for North American integration.
    The Chairman. I have exceeded my time, but I would just add 
that I know that the committee will welcome those ideas. We 
would like to be a forum for you not only to express them, but 
also to provide some wind at your back in pushing them on.
    Senator Dodd.
    Senator Dodd. Well, thank you very much, Mr. Chairman. I 
would suggest your question goes right to the heart of what 
this hearing is about. Ultimately, if we are really going to 
deal with immigration issues--and, Secretary Noriega, let me 
say you and I have talked about this in the past. I am less 
benign when it comes to the issue of whether or not we have 
been engaged in this bilateral relationship in the hemisphere. 
As you know, I feel strongly. I understand, obviously, since 9/
11 there have been other matters of a higher priority in our 
mind, but it has been a source of significant disappointment to 
this Senator that we have neglected in my view this region to a 
large extent.
    I am pleased to see that we have begun again in March to 
address some of these questions. There have been some 
initiatives. I applaud that, but I have been terribly 
disappointed that we have had very little to say to the 
leadership of this hemisphere, including arguably one of the 
two most important bilateral relationships, that of U.S.-
Mexico.
    Let me, if I can--because I want to get to Mexico, but I do 
not often get a chance to have you in front of the committee, 
so I want to ask you quickly about Haiti, if I can.
    There were statements made over the weekend by this new 
Prime Minister declaring these thugs to be freedom fighters. I 
know how you described them and I applaud your description of 
those people. You testified at the hearing we had on Haiti. Has 
there been any change in our administration's viewpoint of who 
these people are? And to what extent have we communicated to 
this new Prime Minister our objections to his description of 
these people?
    He was being ferried around in Black Hawk helicopters and 
French Chinook helicopters and no disarmament on the part of 
these people. They were going to lay down their arms. They did 
not do it. Has anything changed here that we ought to be aware 
of? And what comments does the administration have about this 
new Prime Minister's description of these death squad leaders 
as freedom fighters?
    Mr. Noriega. Our position has not changed on that. I 
understand there was some disarmament by these groups, but 
clearly it is insufficient. I communicated yesterday morning, 
if not the night before, with Ambassador Foley to tell him that 
we regarded these statements as appalling and to get some sort 
of explanation and see if the new Prime Minister understands 
fully the way we see this problem. The fundamental view on our 
part is that leaders of these criminal gangs should not benefit 
in any way from the change in government.
    Senator Dodd. Well, I appreciate it. That is a public 
comment you are making here. I think any of the public 
statements might be helpful because there was a sort of silence 
after this. I realize it is a brief amount of time, but 
nonetheless, it seems to me public statements being made as 
well about how we view those kind of comments would be helpful.
    Second and very quickly, the upcoming elections in the 
Dominican Republic. The NDI and others have asked to go down--
since 1994, they have gone down and participated in the 
oversight of these elections. I am very worried about how 
elections are proceeding in the Dominican Republic. I served in 
the Peace Corps there many years ago. I have a strong interest 
in the country, as you know. I gather there has been a request 
made. The Department has turned down the request. I wonder if 
you might just reexamine that request. I would be very 
interested and would participate myself. I know others might be 
interested in going. John Sununu participated with President 
Carter the last time and had a very effective observation team. 
And I would like to renew that request to you today. I do not 
expect an answer at this moment from you, but I would like to 
see if that NDI request could be reconsidered. It is a very 
good NGO on the ground that is highly respected in terms of 
election observations, and it might be helpful if we can get 
some additional resources to go down and have the NDI there.
    Mr. Noriega. Senator, I did not, frankly, know that NDI was 
interested in going down, but we had decided to put our 
resources behind an OAS observation effort.
    Senator Dodd. I know that.
    Mr. Noriega. Having said that, I can give you a clear 
indication that we will look into this.
    Senator Dodd. I appreciate that. It's about $225,000 for 
the OAS. It is estimated it would need probably another 
$400,000 or $500,000 at least to really do it right. That is 
what I am told. I do not claim to be an expert in these areas. 
Nonetheless, would you take a look at this?
    Mr. Noriega. Absolutely, sir.
    [The following information was subsequently provided.]

    The United States Government provides substantial assistance to the 
local Dominican NGO Participacion Ciudadana for a variety of programs, 
totaling $1.2 million this year, including the training and preparation 
of more than 6,000 local observers for the presidential election. Over 
the past year we have urged the Dominican electoral authorities to 
invite international observers to participate to ensure an open and 
fair election. On January 30 the Dominicans. extended invitations to 
several organizations, including the Organization of American States 
(OAS). In response to a request from the OAS' Unit for the Promotion of 
Democracy, the U.S. Department of State and USAID contributed $325,000.
    Canada has provided funding for the electoral observation mission 
in the amount of $48,750 and the European Union has promised an 
additional $200,000. We are pleased that the OAS invited the National 
Democratic Institute to coordinate with its mission and we understand 
that they will be part of the OAS observer mission. A private effort by 
the Dominican-American community in the United States has raised a 
significant amount of money to support additional participation by 
qualified non-governmental organizations in the election observation 
process, including a team of 26 observers from IFES chaired by Andres 
Pastrana, former president of Colombia. The diplomatic community in 
Santo Domingo responded enthusiastically to our Ambassador's call for 
volunteers to be observers on election day. More than 50 have 
volunteered from the U.S. Embassy alone and will be duly accredited 
through the OAS mission. We believe that between the local and 
international observers, the election will be properly overseen.

    Senator Dodd. Let me jump to the issue at hand. I again 
want to applaud the chairman for raising the issue. I have got 
some very specific questions about the timing of legislation. 
Let me just express by my calculation we have got about 36, 
maybe 40, legislative days left in this Congress. If you assume 
the fact we do not do much here on Monday and we usually leave 
by Friday, so we have got Tuesdays, Wednesdays, and Thursdays. 
If you take that, exclude the weeks we are not in session, the 
math is not terribly complicated. This is a complicated 
proposal.
    When are we going to see a legislative proposal from the 
White House? Or are we? Maybe they have decided not to, and if 
you have decided not to, are you embracing the Hagel 
legislation or other bills that have been proposed? Mr. Aguirre 
if you would please.
    Mr. Aguirre. Well, thank you, Senator. As you know, I am 
only 3 years in government, but I understand that the 
legislative process really begins on your side of the 
government. From the administration's standpoint, the 
perception that I have is that the President has framed quite 
effectively the issue and some of the parameters that would be 
appealing to the administration, in terms of dealing with this 
issue. But I think we are expecting and finding that the 
Congress is bringing forth several proposals that in one way or 
another meet with the President's proposal.
    I think, of course, it is not so much the devil is in the 
details, but God is in the details in this particular case. I 
find that some of these proposals are so much or not so much 
with the President's initiative.
    Senator Dodd. Well, we do not have a lot of time. So we are 
trying to get this done.
    Mr. Aguirre. Yes, sir.
    Senator Dodd. I respect the fact you are not terribly 
familiar. It is not uncommon for an administration to submit 
legislative ideas, proposals to the Congress. They do not have 
to do that, but it seems to me we ought to have a lot more 
specificity. Senator Hagel can raise questions about his own 
bill himself, but I would be curious as to whether or not any 
of these specific proposals, if you are not going to submit a 
proposal, have the administration's support.
    Mr. Aguirre. Well, Senator, the administration is prepared 
to engage with the Congress, both sides of Congress, on the 
details of these proposals. I do not think any one of these 
proposals meets exactly the President's initiative, but I think 
they are close enough that we are happy to engage and to find 
common points of convergence.
    Senator Dodd. You have certainly been around long enough to 
appreciate the fact that with 36 days and a bill like this bill 
that is being proposed, knowing the hostility you are getting 
from the more conservative elements of the Republican Party who 
have expressed strong opposition to this proposal, what 
likelihood is there? Based on what you are telling me, I see 
little or no likelihood you are going to get this bill adopted 
this year. Do you agree with that?
    Mr. Aguirre. Well, Senator, I think when the President 
called on the Congress on January 7 to act, I certainly expect 
that action will be taken. I think we see in these type of 
hearings action. Whether or not it is going to pass the Senate 
and the House, I will leave it to you. I am really not that 
much of an expert on the legislative side.
    Senator Dodd. Thank you.
    I want to come back, if I can, Mr. Chairman. I want to pick 
up on your point. The Mexico-United States Partnership for 
Prosperity was, I think, a very healthy concept and idea, and I 
want to pursue where that is going because it goes right to the 
point you are making about encouraging investment in the areas 
of Mexico that historically have had the highest levels of 
emigration. It does not seem to me we have done enough to 
really discourage through economic growth, assuming that most 
people emigrate or do these things because they lack the 
opportunities in their own areas, and to the extent we can 
really promote that is something I want to come back and talk 
about. Thank you.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, thank you for appearing before us this morning.
    To pick up on a point that Senator Dodd made--and I assume 
I will stay in the channel that Senator Dodd was in with you, 
Mr. Aguirre. I think we all understand the immensity of 
immigration reform is going to require Presidential leadership. 
There is no other way to do that. We have 535 of us up here. We 
are disciplined by--one reference Senator Dodd made--party 
structure, by committee structure, by institutional structure. 
But this is an immense task before us, to try to get 
comprehensive immigration reform. It is going to require 
intense Presidential leadership not only because of the narrow 
window we have, as Senator Dodd mentioned.
    And so my question would be, what is the administration 
doing? What will the administration do to push this issue, 
since you do not have your own proposal up here? You have a set 
of principles, which are very important and we appreciate that 
and the President deserves credit for stepping forward. And I 
have said so many times publicly. But that only takes us about 
5 percent of the way. So what are we going to see from the 
administration to be up here? Who is going to be up here? Who 
is going to be pushing it? Give us some sense of that.
    Mr. Aguirre. Well, Senator, I do not have the exact count, 
but I believe since January 7, the President has mentioned this 
particular proposal in varying parts perhaps well over a dozen 
times. I know it was mentioned during the State of the Union. 
So I think the President is serious about the issue, and I 
think the President is looking to the Congress to frame 
legislation that can be brought to the administration.
    The debate that I have seen taking place since January 7 
has been much more intense than in earlier years. So I think we 
are seeing quite a bit of interest here.
    You said it very well. The issue of immigration reform is 
incredibly complicated. In fact, the Immigration and 
Nationality Act is perhaps the most complex set of laws in the 
Nation. So I am looking for the Congress to come up with some 
legislation that we can work with.
    Senator Hagel. Well, in all due respect, I have not seen 
the same intensity of debate up here that you have. We have 
had, on the Senate side, one subcommittee hearing in the 
Judiciary Committee. This is the second committee structure 
hearing that I am aware of, the only full committee hearing. As 
Chairman Lugar said, we do not have jurisdiction over this. So, 
again, I am at a loss to see where your intensity of debate is 
up here.
    But that aside, what I am trying to get at is has Secretary 
Ridge been up here. Has Secretary Powell? Has the Vice 
President? Has anyone, senior members of the administration who 
can speak for the President meeting with the leadership, Mr. 
Frist, Mr. Daschle, saying we need this? This is what we need. 
Can you enlighten this panel as to what has happened in that 
regard? Mentioning it is good, but that does not move the ball.
    Mr. Aguirre. Well, Senator, I know that Secretary Ridge has 
been here to the Senate and the House numerous times. I am not 
really keeping track of exactly the issues that he is talking 
about. I suspect this has come up, but I would be less than 
exact by indicating that he has.
    Senator Hagel. If any of the other panelists would want to 
join in on this, I would be very pleased to hear from them.
    Mr. Verdery. Well, Senator Hagel, I know Under Secretary 
Hutchinson has been up here I believe three or four times 
testifying on the budget and the appropriations. This has been 
a topic that has come up in almost all of those sessions as to 
how the President's proposal would mesh with our enforcement 
efforts that are in the budget, ongoing programs and proposed 
new ones and the like.
    I also would like to offer, obviously, a lot of this issue 
falls within our bailiwick on the enforcement side both with 
Customs and Border Protection at the ports of entry, and 
Immigration and Customs Enforcement on the investigative side, 
to offer our help working with your staffs and the like because 
these issues are really, really tricky. And as we sort through 
drilling down on the proposals, we would like to work with you 
all on that.
    Senator Hagel. Well, certainly there are budget 
implications and ramifications of any legislation, but this is 
not, quite frankly, gentlemen, a budget issue. It is a lot more 
than a budget issue.
    Let me ask you, Mr. Secretary, have you been instructed by 
the administration to come up here and deal with leadership and 
committee chairmen, Judiciary Committee, moving this thing? Is 
this a priority that you have been given by the White House to 
come up here and engage? When are we going to have hearings? 
When are we going to get this through? The President wants to 
get this done. Has that happened?
    Mr. Verdery. It is clear this is an administration 
priority. We are working very closely with the White House on 
fleshing out some of the more technical details behind the 
principles that were outlined. We are available and have been 
up here talking to staff. I think I am testifying in a couple 
of weeks before Senate Judiciary in another hearing. So we want 
to make ourselves available whether it is at the Under 
Secretary level, my level, or staff levels to come up and flesh 
out these details. Of course, we have been asked and, of 
course, would want to provide any information, any kind of 
insight that would be requested.
    Senator Hagel. Thank you.
    Mr. Aguirre. Senator, if I could just offer that I would be 
happy to offer consultation with the leadership on this issue 
at any time.
    Senator Hagel. Thank you.
    Mr. Verdery, would you assess the improvements made to 
security on the southern border since September 11, and in your 
assessment of that, would you give this panel some sense of 
requirements for resources? Are you getting what you need? Do 
you need more? Do you need less? You got enough? But quickly 
round that out. What kind of progress have we made? How has 
that progress been made? What kind of resources are required 
now and into the future?
    Mr. Verdery. Well, there has been a tremendous amount of 
achievement in the last 2\1/2\ years or so, and especially 
since our Department was stood up just over a year ago. We have 
had a major increase in border patrol numbers both on the 
personnel side and in the use of advance technology, sensors, 
and these types. In the ABC initiative I mentioned in my oral 
remarks, we will be using unmanned aerial vehicles for the 
first time on the southern border. We have reformed our ports 
of entry. We have now the One Face of the Border initiative, 
cross-training of immigration and customs officials to do their 
jobs better and more efficiently. We will be installing U.S.-
VISIT, as I mentioned, at the land border at the end of this 
year per the congressional mandate. We have reformed the cargo 
side of things, as I mentioned, in terms of trying to screen 
high-risk cargo and separate out low-risk cargo while giving 
the radiation screening we need for everything. So I see the 
time is up, but those are just a few of the things that we have 
been able to accomplish in the past year.
    In terms of resources, the President's budget has requested 
more resources over the last few years, has gotten those from 
the Congress. The 2005 budget has additional requests which are 
obviously under consideration now.
    Senator Hagel. Thank you.
    The Chairman. Well, thank you very much, Senator Hagel.
    I will just make one comment and then yield to Senator 
Dodd. We want to give ample time to our next panel, which is 
important, too.
    Gentlemen, I would just observe that the President, when he 
made his immigration proposal on January 7, exercised a great 
deal of political courage. I and others had encouraged the 
President to do such a thing, describing, as I have again 
today, our conference with the Mexicans in December. The 
President, in a very high profile way, indicated his own 
interest, as well as that of his administration. He has framed 
these issues.
    Now, frankly, the President's proposal was met with all 
sorts of criticism, from all over the political spectrum, for 
its inadequacy, or its lack of focus on one factor or another, 
to the point that one could say that the President fell back. 
As you have mentioned, Director Aguirre, the President has 
mentioned this in the State of the Union and several times 
subsequently. But by the time we got back into session in late 
January it was already clear that there was great conflict 
within the Congress with regard to all of this.
    I suggested then, because of personal interest in this, aa 
well as the feeling of the members of our committee, that we 
might have a hearing. That was not initially discouraged by the 
administration, but people indicated that, after all, the 
Judiciary Committee has jurisdiction on these topics. Perhaps 
they ought to hold the hearing first. I understood that. They 
have now held a subcommittee hearing on this topic.
    The purpose of this hearing, quite frankly, is to try to 
begin to elevate the whole issue again in our own modest way. 
We cannot do it all by ourselves. However, we would like to 
offer a forum for you to give very good testimony, which you 
have done today. We would also like to invite you to say more, 
or to come forward with proposals that are outside the box on 
the economy, as well as on immigration, thereby broadening this 
agenda and sending some signals to Mexican friends that we 
care, and that we are actually talking about the relationship. 
Perhaps we might take this to our Canadian friends in a North 
American context, as you suggested.
    I am hopeful that we are achieving this goal, at least 
partially, by having this dialog this morning in the form of 
this committee hearing. We are prepared to do a lot more. I 
think that we all need some guidance as to the priorities that 
the White House, and/or the State Department, or Homeland 
Security, or what have you, have on these issues. They are very 
technical. As Senator Dodd has said, there are not many days 
left in this year's legislative calendar. The topic would 
require intense scrutiny.
    If in fact, the thought is that this legislative effort 
really is too much for this year, and that the proposals are a 
warmup for the 2005 agenda, at least the three of us will all 
be around in 2005. We will still be talking about it.
    Senator Dodd. If that was an endorsement, I deeply 
appreciate it.
    The Chairman. It is a suggestion of what we might achieve 
in 2004, I would say to my distinguished colleague. I hope that 
will be the case.
    I yield to him for his sage advice.
    Senator Dodd. Thank you very much. I could not miss the 
opportunity.
    Just a couple of points. Again, the chairman has said it so 
well, I am being redundant by repeating the notion. Look, I 
could spend what little time we have here and bemoan the fact 
that--I recall that wonderful first meeting that President Bush 
had with President Fox. I think it was the first--in fact, it 
was the first--head of state, and the symbolic gesture of that 
is not lost on anyone. With all the people he could meet with, 
the very first one was President Fox.
    I remember being at President Fox's inaugural in Mexico. 
There was a tremendous sense of excitement about change, what 
was going to happen. The No. 1 issue was this issue. From day 
one in 2000, the one issue that he has begged the United States 
to engage on is the immigration issue. As someone who has 
participated for 24 years, I think without exception, in the 
interparliamentary meetings with Mexico of the last quarter of 
a century, every meeting we had was about this issue of 
immigration. So I am not going to do that.
    I will take good news. We begin here now in January. We 
have got an issue on the table. I want to underscore what the 
chairman has said here.
    There are those of us who might look at this and say, look, 
this is great politics to talk about this right now, but let us 
be more candid with people. With 36 or 40 days to go and with 
all due respect, Mr. Secretary, I have been around long enough 
to know I know when the administration really wants something, 
any administration, and when they are kind of luke warm. I am 
being polite by calling it luke warm at this point. I do not 
get any sense at all about real energy behind this, and even if 
there were, I am not sure you could get it done. Even if you 
were intensely interested in getting this done, I think it is 
very difficult. Senator Hagel is being polite and the chairman 
is being polite, and I want to be polite. I do not get any 
sense there is any movement on this at all other than a good 
meeting, a good message, but little or no likelihood this is 
going to change.
    Now, prove me wrong in the next few days. You are waiting a 
couple of weeks for another hearing. Another couple of weeks up 
here, you know, time is flying by here to get this done. So let 
me put that aside.
    Let me come back to something because I think there are 
some things ongoing that can be important. Again, I want to 
underscore what the chairman raised earlier about PEMEX in a 
very excellent idea. Maybe, Secretary Noriega, you might bring 
this to councils and talk about it, but the Partnership for 
Prosperity is a 2-year program and the program--just to 
reacquaint people with it--was a public/private initiative to 
promote domestic and foreign investment in less developed areas 
of Mexico at high immigration rates. After 2 years of 
operation, there were some ideas that were raised. One was the 
introduction of new low cost service to transfer funds from the 
United States to rural communities in Mexico, expiration of a 
Peace Corps program in Mexico to work on science and 
development projects, and the signing for the first time of an 
agreement for the U.S. Overseas Private Investment Corporation, 
OPIC, to offer financial and risk insurance to U.S. firms 
operating in Mexico in these areas.
    Can you give us any sense what has happened with this?
    Mr. Noriega. Yes, we have made meaningful strides on this, 
Senator, in terms of entrepreneurship, in terms of lowering the 
cost of remittances, in terms of university linkages, the 
establishment of the Peace Corps program in Mexico for the 
first time. All of these things have been done and are underway 
too. We are continuing to work on all of these issues.
    In Guadalajara, in June we will have a second meeting. The 
last meeting brought together 800 Mexican and U.S. 
entrepreneurs to look at opportunities on both sides of the 
border, but in these areas of Mexico that are----
    Senator Dodd. How is that going? Tell me how that is going? 
That seems to be a very important idea.
    Mr. Noriega. It has generated some joint ventures, some 
investment. It has encouraged universities to establish 
linkages between universities on both sides of the border, and 
I can get you some examples on that.
    Senator Dodd. OK.
    Mr. Noriega. We believe that it is a meaningful exercise. 
But the simple fact is that we have been able to work together 
and lower the cost of sending remittances back, I believe, at 
least by half. That is meaningful because that is money that, 
instead of going into a financial transaction, is going back to 
families. When you talk about a base number of about $13 
billion, $14 billion annually, that is a lot of money going 
into households in Mexico.
    Senator Dodd. Are you familiar with the effort by George 
Soros that he has done to establish a housing mortgage market 
for the first time in Mexico under the Partnership for 
Prosperity? Are you familiar with that?
    Mr. Noriega. I am not particularly familiar with his 
effort, but I am aware that it----
    Senator Dodd. What I would like to ask is maybe we can have 
a private meeting--not that it has to be private, but just 
rather than take the time here. But I would be very interested 
in fleshing out more where these ideas are going, including the 
PEMEX idea the chairman has raised. These are the kind of 
bigger ideas. Getting remittances back is a great idea. I 
understand that. But it seems to me we ought to be trying to 
get beyond the notion of remittances, and improving the 
economic opportunities in Mexico goes to the heart of this 
issue.
    Mr. Noriega. Senator, may I comment on that very briefly? 
We are consciously going to use all of the mechanisms that we 
have in our bilateral relationship. For example, we have the 
Binational Commission, 14 working groups bringing together 
ministers in both of our governments. It meets annually. We 
are, for the first time, looking to program that agenda from 
the top proactively saying, that there are the things that 
President Bush and President Fox want these working groups to 
work on. I have actually communicated with Mexican Congressmen 
about taking some issues to the interparliamentary group that 
you participate in. In the North American context, we are 
looking at making some initiatives there too. So across the 
board, we are working systematically on big vision issues as 
well as the smaller issues.
    Senator Dodd. Let us arrange that so we can hear what is 
going on. I would just point, as I mentioned earlier, I know 
that Speaker Hastert, for instance, has indicated there is 
little or no likelihood this immigration bill is going anywhere 
in this Congress. I hope the administration will challenge that 
comment if in fact you are as committed to this proposal as you 
claim you are today.
    I did not go, Mr. Chairman, into some of the detailed 
questions on the proposals, things for instance, of requiring 
that fines be paid by the undocumented workers if they 
register. I see no corollary requirement that the employers who 
hired them pay a fine as well, for instance. There are a lot of 
very specific questions I would have about some of these 
proposals and how we get people to sign up, in fact, for this, 
the cost of registration and so forth, all of the obvious 
questions people would raise. I might submit some detailed 
questions to you, Secretary Aguirre, so that you could respond 
to some of these things, at least based on the outlines that 
you proposed here.
    And if you are serious about this--I hope you will utilize 
the hearing that the chairman has provided--prove me wrong. I 
would love to be proven wrong on this. I would love to have you 
come back up here, starting tomorrow--and I think tomorrow may 
be late, but to come back up with a proposal on the table and 
really pursue this. You will find a lot of people up here are 
very aggressively wanting to help you, if that is the case.
    If it is not the case, then I think it is very important to 
say that and to say, look, we need to come back to this next 
year. Let us use these next few months to try and flesh out 
details, and whether it is the Bush administration or a Kerry 
administration, here are some ideas that we put on the table 
for you to take forward. That, I think, could be a tremendous 
positive step forward on this issue.
    So I would encourage some real candor about this proposal. 
There is nothing worse than raising expectations here, getting 
people all excited about a proposal that no one is really 
taking very seriously.
    Thank you, Mr. Chairman.
    Mr. Aguirre. Senator, I look forward to your written 
questions, and of course, I will respond. I know the White 
House has met with the Judiciary Committee, but I will be happy 
to engage with you at all granularity that you like.
    Senator Dodd. Thanks.
    The Chairman. Let me just say, Senator Dodd, your questions 
will all be made a part of the record. Hopefully responses will 
come promptly. Likewise, I make that request for Senator 
Coleman, who has also left questions. The record of the hearing 
will be left open today, in case other members who have not 
been present, but are interested in the subject, would like to 
be a part of this.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, one of the continuing, festering 
frustrations over NAFTA was the side agreement reached with 
regard to tomatoes, and Mexico did not keep its part on that 
side agreement on tomatoes. As a result, we have on winter 
vegetable crops lost a great deal of the share of the market. 
What is the latest on this?
    Mr. Noriega. Senator, I will have to get you an answer in 
writing on the details of that. I know that we have been 
addressing these disputes through the dispute resolution 
mechanisms of NAFTA, but I do not have the details. I will have 
to get you a detailed answer to that.
    [The following information was subsequently provided.]

    The current suspension agreement with Mexico on tomatoes was signed 
in December 2002 and will be subject to a sunset review in five years. 
The U.S. Government continues to monitor trade in tomatoes between 
Mexico and the United States and regularly consults on the matter with 
U.S. industry representatives. Most recently, following the March 23 
hearing, Department of Agriculture staff spoke with a leading 
representative of the Florida tomato industry and was advised that 
there were, from the industry's perspective, no specific problems 
associated with the operation of the agreement at the present time.

    Senator Nelson. OK, I would appreciate that.
    Now, one of the areas that we have heard some 
dissatisfaction is about the Mexican Government's failure to 
live up to its obligations regarding the NAFTA dispute panels. 
How have the trade disputes affected our bilateral 
relationship?
    Mr. Noriega. We have important issues on tomatoes, tuna, 
trucking, beef, high fructose corn syrup, chicken that, for 
various reasons, whether it is sanitary requirements or others, 
are important issues across the board in our relationship. It 
is an important relationship where trade between our two 
countries has tripled in the period of NAFTA, but we do have 
these unresolved issues for which we use the trade dispute 
resolution mechanisms. We have just, for example, on the corn 
syrup issue, asked for a panel in WTO or NAFTA.
    So clearly we have these mechanisms to deal with these 
issues, and if we are not getting satisfaction on the tomato 
issue or on any other issues, I will try to get you a specific 
answer about measures that we can take, concrete steps that we 
can take to push for some sort of satisfaction for U.S. 
producers.
    Senator Nelson. Have these disputes harmed our bilateral 
relationship?
    Mr. Noriega. They do not do the relationship any good. But 
we understand that on both sides there are going to be 
disagreements. What we have resolved to do with our trade 
agreements is to channel these disputes to particular 
mechanisms for resolving them in a transparent, technical way. 
But clearly, when we have disagreements that affect our 
producers or consumers--and they would feel the same way on the 
Mexican side--this does have an impact on the relationship.
    Senator Nelson. It appears that President Fox has taken a 
more activist role in bolstering ties with his Latin American 
neighbors, including the MERCOSUR countries. How can we, as the 
U.S. Government, best convince him and his government to use 
its relationship with Cuba to criticize the crackdown on human 
rights as evidence that we just passed through the one-year 
anniversary of Castro putting dissident journalists, dissidents 
who dared to set up libraries, who dared to sign the Varella 
petition, and he threw them in jail a year ago? How can we use 
our relationship to convince President Fox that he needs to 
stand up and criticize Cuba for this kind of activity that has 
been condemned by previous friends of Cuba who were shocked 
when Castro threw all those folks in jail?
    Mr. Noriega. President Fox has criticized, during his 
period of time in office, Castro for human rights violations. 
Mexico usually votes, for example, for a resolution in Geneva 
that would criticize or take note of the continuing violations 
of human rights by Castro's regime.
    I know that in the last several weeks we have discussed 
this Cuba issue with Mexico and we have indicated our interest 
and they have indicated their interest to work with us, quite 
frankly, to find ways to encourage a transition and then to 
respond in an agile and decisive way to a transition, once one 
is underway, to make sure that the sorts of political and 
economic reforms we get in Cuba are deep enough to wash away 
the vestiges of the regime.
    But we will be counting on Mexico to play a leadership 
role, frankly, in this vote in Geneva. We hope that they will 
work with us to encourage Latin American countries to cosponsor 
and support that resolution.
    Senator Nelson. Do you think Mexico will say something 
publicly about throwing dissidents in jail?
    Mr. Noriega. I will get you an answer for the record on 
what they have said to date, sir, because I do not want to 
suggest that they have not said anything. I just do not have 
anything in mind. I will get you a specific answer on what they 
are able to do and what they are able to do working with us on 
the Geneva process which will specifically, we hope, make 
reference to the crackdown.
    [The following information was subsequently provided.]

    In April, at the United Nations Commission on Human Rights in 
Geneva, Mexico joined 21 other countries, including the United States, 
in voting in favor of a resolution concerning the deteriorating human 
rights situation in Cuba. That resolution was adopted. This is the 
third year in a row that Mexico has voted in favor of a resolution 
addressing the lack of respect for human rights in Cuba. In May, Mexico 
withdrew its ambassador to Cuba and asked the Cuban Ambassador to leave 
Mexico after Castro publicly criticized Mexico for its vote in Geneva. 
We note that when President Fox visited Cuba in 2002, he made a point 
of meeting with dissidents there.

    Senator Nelson. Do you think we can get Mexico involved in 
Haiti, in the rebuilding of that country?
    Mr. Noriega. The Mexicans have indicated an interest to 
provide some sort of humanitarian and diplomatic support for 
our efforts. They have some sensitive issues in terms of 
deploying security forces. So that may not be possible. But we 
have worked with Mexico in the OAS on Haiti and we hope that 
will continue.
    The Chairman. Thank you very much, Senator Nelson. I thank 
each of you again for coming with your testimony and your 
forthcoming responses. Obviously, you have a group here in our 
committee that would encourage you to press on. We look forward 
to hearing much more from you. Thank you for coming.
    Mr. Aguirre. Thank you, Mr. Chairman.
    The Chairman. The chair would like to recognize now a 
distinguished panel composed of Dr. Stephen E. Flynn, the Jeane 
J. Kirkpatrick Senior Fellow in National Security Studies, the 
Council on Foreign Relations; Dr. Demetrios G. Papademetriou, 
President of the Migration Policy Institute; and Dr. Arturo A. 
Valenzuela, Director of the Center for Latin American Studies 
at Georgetown University.
    Gentlemen, we welcome you to the committee meeting today. 
We thank you for your patience in waiting for this point in the 
hearing. We look forward to your statements. Let me say at the 
outset that the statements that you have prepared will be put 
in the record in full, so you need not ask for additional 
permission with regard to that. We will ask you to summarize or 
to present your statements as fully as you think is important. 
We are eager to hear your ideas. That is the purpose of our 
hearing, and that is why we have invited these independent 
voices outside of the Senate and the administration.
    I will ask you to testify in the order in which I 
introduced you, and that would mean that we would ask you, Dr. 
Flynn, to lead off.

STATEMENT OF DR. STEPHEN E. FLYNN, JEANE J. KIRKPATRICK SENIOR 
    FELLOW IN NATIONAL SECURITY STUDIES, COUNCIL ON FOREIGN 
                           RELATIONS

    Dr. Flynn. Thank you very much, Mr. Chairman. I am honored 
to be here today. I am Stephen Flynn, Senior Fellow of the 
Council on Foreign Relations but also a former Coast Guard 
officer retired after 20 years and recently had the opportunity 
to direct our task force on homeland security at the council 
that was co-led by your former colleagues, Senators Gary Hart 
and Warren Rudman.
    I would like to sort of start by raising I think rather a 
sad irony of the reality of the U.S.-Mexican relationship post 
9/11 because interestingly, of course, a recognition of the 
losing of steam with that relationship has been couched in 
terms of that because of the security imperatives of the post-
9/11 world, we had to slow it down. I would suggest in my 
testimony that our failure to address this issue has, in fact, 
confounded our security situation, not the opposite. So it is 
indeed a bit of irony.
    To put this thing into context, I think we really need to 
step back and be mindful of that, which is why I was delighted 
to hear that your committee was convening this hearing to bring 
breadth to this issue versus a narrow law enforcement or purely 
judiciary question. It really is one that is grounded in the 
depth of our relationship, not with just U.S. and Mexico, but 
within the broader hemisphere and certainly within the 
continental context, U.S.-Canada, U.S.-Mexico.
    One of the clear realities of 9/11 that we are still having 
a great deal of difficulty with as a nation coming to grips 
with is that this new form of warfare is the use of 
catastrophic terrorism directed at the non-military elements of 
our power. When you are a nation that spends more than the next 
30 nations combined on the conventional military capability, 
which is what our nation will do this year, that really only 
means another possibility for the future of warfare, that our 
future adversaries must go asymmetric. And the asymmetric 
reality is to exploit these open global networks of which our 
trade and travel network is one of the more prominent or target 
those networks in the goal of creating mass economic and 
societal disruption.
    The irony here is that many of our efforts to deal with 
this problem within terms of a narrow homeland context, 
particularly a focus on the border, has had the effect of 
making our border regions more chaotic and in that context 
creates more of a fertile ground for potentially terrorists and 
certainly criminals to exploit.
    There is something which I call the hardened border 
paradox. The hardened border paradox is, as we make efforts to 
secure this line in the sand, what we end up doing, because 
there are needs, obviously, for that border to be permeated for 
legitimate purposes for trade and travel and so forth, we end 
up in the case of immigration specifically creating essentially 
a demand for a very sophisticated, organized criminal network 
that helps to evade those controls. Because we are not dealing 
with the broader issues of immigration within this overarching 
context--we are dealing with it primarily at the border--we 
have created the ``coyote'' trade which has become an 
enormously lucrative business, where there are a lot of assets 
to spread corruption along the border.
    Because we hardened the border in terms of the extent to 
which we manage often the inspection regime without integrating 
within how our infrastructure has been developed and operated 
there, we have created things like the drayage industry in 
Laredo, which is the most fertile place for organized crime to 
operate. It operates that way because it makes no sense for a 
long-haul truck to connect with a long-haul truck anywhere near 
the border because of the chaos of the border. So we end up 
with these mom-and-pop trucks with truck drivers with 300 
percent turnover rates that are paid $7.50 a load regardless of 
the time of their journey. This environment is obviously a very 
difficult one to police, but the hardened border paradox, as we 
look at the narrow chaos at the border, we put more controls in 
place as in the aftermath and the result ends up that we end up 
fueling the conspiracy to get around this and creating what 
again is a real problem in the post-9/11 world, the opportunity 
for very serious characters in the form of al-Qaeda kinds of 
networks to exploit these very networks to bring their ultimate 
threat to our Nation.
    The terrorists are clearly positioned to exploit this 
environment, as we know, but there is also, I guess, another 
issue that I would raise here which is in the public health 
side. Another very daunting challenge we know in the homeland 
security issue is the risk of a bio-threat. One of the 
presumptions of our public health community is that when 
somebody gets sick, they will come and ask for help. That is 
basically the guts of our warning system to deal with that 
problem. However, when you have 8 million to 10 million 
undocumented folks who are often in the places, in our urban 
areas, not just our rural areas, where these folks may be 
infected, and when they are afraid to essentially come in 
contact with our public institutions, I would suggest that this 
is another factor that is going to potentially haunt us down 
the road to the extent that that bioterrorist threat persists.
    The reality is, of course, we often use the term of art in 
the national security world. We talk about draining the swamp. 
A lot of this has been directed toward the elicit organizations 
that are out there in terms of their money trails, as well as 
the kinds of environments in which they operate.
    But there is another part of that swamp that makes it 
possible for elicit players to hide in, and it is an entirely 
disconnected, nonsensical immigration policy that makes it 
virtually impossible to police. And to the extent to which we 
are very concerned about the asymmetric threat, that terrorists 
will exploit our trade and travel lanes in order to cause the 
kind of horror we saw on 9/11, we should be coming four square 
in front of this immigration issue. We should embrace it as a 
first priority from a security perspective, and in so doing 
though, we need to recognize that ultimately the resolution is 
not at the border, though the border will always play a role. 
It has to be ultimately grounded in a broader effort within 
both our continental context and within the global network.
    So how do we manage these networks in such a way to 
continue to facilitate the good while improving on a means to 
manage the bad? That must be done in a layered, systematic way 
throughout the networks, not a narrow, myopic focus at the 
border or narrowly within our homeland.
    Thank you very much, Mr. Chairman. I look forward hopefully 
to answering your questions.
    [The prepared statement of Dr. Flynn follows:]

               Prepared Statement of Dr. Stephen E. Flynn

 rethinking the role of the u.s.-mexico border in the post-9/11 world *
---------------------------------------------------------------------------
    * This testimony draws on material found in my book chapter ``The 
False Conundrum: Continental Integration vs. Homeland Security'' in The 
Rebordering of North America: Integration and Exclusion in a New 
Security Context by Peter Andreas (Editor), Thomas J. Bierstecker 
(Editor), (New York: Routledge, 2003).
---------------------------------------------------------------------------
    Chairman Lugar, Senator Biden, and distinguished members of the 
Senate Foreign Relations Committee. I am the Jeane J. Kirkpatrick 
Senior Fellow in National Security Studies at the Council on Foreign 
Relations where I recently directed the Independent Task Force on 
Homeland Security, co-chaired by former Senators Warren Rudman and Gary 
Hart. In June 2002, I retired as a Commander in the U.S. Coast Guard 
after 20 years of active duty service. I am honored to be appearing 
before you this morning to discuss the issue of border control as an 
element of the bilateral relationship between the United States and 
Mexico.
    North America finds itself in paradoxical times. On the one hand, 
the hemisphere's economic prosperity depends on an open continental 
system that facilitates the free movement of people and goods. On the 
other, worries over America's exposure to catastrophic terrorist 
attacks have transformed homeland security into one of Washington's 
leading preoccupations. The result is that while the NAFTA imperative 
of a more open border was gathering steam prior to 9/11, since that 
fateful day, controlling the southwest border in an effort to prevent 
illegal immigration and smuggling has been advanced as essential to 
combating the terrorist threat against the United States. Security has 
trumped cross-border facilitation as our abiding interest. This is a 
mistake since it wrongly presumes that there is an automatic tradeoff 
between advancing greater degrees of openness to support the movement 
of legitimate people and goods and the need for more rigorous border 
controls.
    The experience over the past decade of stepped-up enforcement along 
the Mexican border suggests that U.S. efforts aimed at hardening its 
borders can have the unintended consequence of creating precisely the 
kind of an environment that is conducive to terrorists and criminals. 
Draconian measures to police the border invariably provide incentives 
for informal arrangements and criminal conspiracies to overcome cross-
border barriers to commerce and labor movements. In addition, 
unilateral measures pursued on one side of the border create political 
impediments for enforcement cooperation on the other. The result is 
that the border region becomes more chaotic which makes it ideal for 
exploitation by criminals and terrorists.
    Terrorists and the tools of terrorism do not spring up at the 
border. Instead, they arrive via hemispheric and international trade 
and travel networks. Advancing a continental approach to deterring, 
detecting, and intercepting illicit actors seeking to exploit those 
networks would accomplish two things. First, it would provide some 
strategic depth for responding to a threat before it arrived at a 
critical and congested border crossing. Second, it would allow the 
ability to segment risk so that the cross-border movements of people 
and cargo deemed to present a low-risk could be facilitated. Then 
limited enforcement resources could be targeted more effectively at 
those that present a high risk.
    The shared risks of loss of life and massive economic disruption 
presented by the catastrophic terrorist threat should provide the basis 
for greater levels of bilateral cooperation that can remove many 
longstanding barriers to continental commerce precisely because those 
barriers themselves can elevate security risks. For example, the 
longstanding neglect of the border in terms of limited infrastructure 
investment and tepid efforts at customs and immigration modernization 
and harmonization made no sense in purely economic terms. But the 
resultant inefficiencies that carry substantial commercial costs also 
create opportunities that thugs and terrorists can exploit. Thus, there 
is a national security rationale to redress those inefficiencies. The 
agendas for both promoting security and greater continental commerce 
can be and must be mutual reinforcing.

                      THE HARDENED BORDER PARADOX

    Great powers have been building great walls throughout history. The 
Great Wall of China, the Maginot Line, and the Berlin Wall went up at 
considerable expense in sweat and treasure and all ultimately failed to 
block or contain the forces that prompted their construction. The 
recent efforts by the United States to ``protect'' the southwest border 
including installing a 26-mile long fence between San Diego and 
Tijuana, has had a similar fate.
    Take the case of illegal migration. Stepped-up patrolling and 
policing of the border may raise the costs of getting to the United 
States, but it also creates a demand for those who are in the business 
of arranging the illegal crossings. Migrants who once simply strolled 
across the border to seek work on the other side, now need 
``professional'' help. That help is provided by guides known as 
``coyotes'' who take migrants to remote border locations or put 
together increasingly sophisticated smuggling operations at the land 
border entries. As the coyote business becomes more lucrative, criminal 
gangs are better positioned to invest in pay-offs of front-line 
agents.\1\ The prevalence of corruption, in turn, undermines 
information sharing and operational coordination between U.S. 
authorities and their Mexican counterparts.
    Enforcement driven-delays at the border also ironically contribute 
to creating opportunities for smuggling narcotics as well. In Laredo, 
Texas for instance, truck crossings were at 2.8 million in 1999, up 
from 1.3 million in 1993.\2\ Many of these trucks operating at the 
border are old and poorly maintained and owned by small mom-and-pop 
trucking companies. The turnover-rate among drivers is extremely high. 
These conditions are prevalent because waiting hours at a border 
crossing in order to make a 20-mile round trip, with an empty trailer 
on the return, is not a lucrative business. Moving intercontinental 
freight is, so the trucks and drivers who make long-haul journeys tend 
to be of a higher quality. Since it is uneconomical to run a state-of-
the-art rig near the border, trailers are usually offloaded at depots 
near the border. In the case of south-bound traffic, a short-haul truck 
is then contracted to move the freight to a customs broker who will 
then order another short-haul truck to transport the freight to another 
depot across the border. A long-haul truck will then pick up the load 
and carry it into the interior. The drivers of these short-haul rigs 
tend to be younger, less skilled, and are paid only nominal wages--as 
little as $7 to $10 per trip. As a result, the potential payoff for 
carrying contraband through a congested border crossing is all the more 
tempting.\3\
    The White House Office of National Drug Control Policy estimates 
that more than half of the cocaine that arrives in the United States 
comes via the southwest border.\4\ Even with the rise in the number of 
inspectors and investigators assigned to the 28 border-entry points in 
Texas, New Mexico, Arizona, and California, given both the volume and 
the nature of the trucking sector that services the border, the U.S. 
government clearly is facing ``needle-in-a-haystack'' odds as it 
strives to detect and intercept illicit drugs. The pure cocaine to feed 
America's annual coke habit could be transported in just fifteen of the 
more than 20 million 40-foot containers that arrived at America's land 
and sea borders each year. And in addition to looking for drugs, the 
U.S. Bureau of Customs and Border Protection is charged with monitoring 
compliance with more than 400 laws and 34 international treaties, 
statutes, agreements, and conventions on behalf of 40 federal 
agencies.\5\
    So while the prevalence of migrant and narcotics smuggling seems to 
provide a compelling rationale for tightening up controls along U.S. 
borders, aggressive border inspections in turn, confront improbable 
odds while fostering the kinds of conditions that generate ample time 
and opportunity within a Mexican and U.S. border city for these illicit 
transfers to occur. Hardened borders also transform the cost-reward 
structure so amateur crooks are replaced by sophisticated criminal 
enterprises and corruption issues become more pronounced. In short, the 
experience of the southwest border suggests that aggressive border 
security measures end up contributing to problems that inspired them in 
the first place.

                        THE OPEN BORDER PARADOX

    The United States has enjoyed the remarkable good fortune of having 
the oft-heralded ``longest undefended border in the world'' with it 
Canadian neighbor to the north. For much of the two nation's history, 
to the extent that there was a government presence along the 49th 
parallel, it was only to collect customs duties. As a result, the 5,525 
mile border can be summed up as a national boundary with no fences and 
a few toll gates.
    In recent years, those toll gates have come under increasing 
pressure as cross border trade has flourished. Take the automotive 
industry, for example. General Motors, Ford, and DaimlerChrysler 
manufacture many of the parts to build their cars and trucks from 
plants in the Canadian province of Ontario. Several times each day 
these parts are delivered to the assembly plants in the United States. 
Delivery trucks are loaded so that parts meant for specific vehicles 
can be unloaded and placed directly on the appropriate chassis as it 
moves down the assembly line. This ``just-in-time'' delivery system has 
given the Big Three a more cost-effective and efficient production 
process.
    It has also generated a great deal of truck traffic. For example, 
up to 9000 trucks a day transit the Ambassador Bridge between Detroit, 
Michigan, and Windsor, Ontario. At these rates, U.S. Customs and Border 
Protection officials must clear one truck every 18 seconds. If they 
fall behind, the parking lot can accommodate only 90 tractor-trailers 
at a time. Once the parking lot fills, trucks back up onto the bridge. 
The resulting pileup virtually closes the border, generating roadway 
chaos throughout metropolitan Windsor and Detroit, and costs the 
average automotive assembly plant an average of $1 million per hour in 
lost production.
    Over the past two decades, the episodic attention directed at the 
northern border was primarily centered around efforts to minimize any 
source of administrative friction that added to cost and delay of 
legitimate commerce. The notion of the 49th parallel as a security 
issue is a recent phenomenon that burst into the limelight just prior 
to the millennium. The catalyst was the December 1999 arrest of an 
Algerian terrorist with ties to Osama bin Laden in Port Angeles, 
Washington. Ahmed Ressam had arrived onboard a ferry from Vancouver in 
a passenger car with a trunk full of bomb-making materials. Only a U.S. 
Customs Service official's unease with the way Ressam answered her 
questions prevented him from driving onto American soil. The jitters 
surrounding the Ressam arrest turned into near panic immediately 
following the September 11 attacks. Worries about the possibility of 
additional attacks led to the effective sealing of the border as every 
truck, car, driver, and passenger came under close examination. Within 
a day there was a 16-hour queue at the major border crossings in 
Michigan and New York.\6\ By September 13, DamlierChrysler announced 
they would have to close an assembling plant on the following day 
because their supplies were stuck on the north side of the border.\7\ 
On September 14, Ford announced they would be closing 5 plants the 
following week.\8\ Washington quickly reconsidered its initial response 
and within a week, the border inspection wait times returned close to 
normal.
    On its face, the open and very limited controls exercised at the 
U.S.-Canada border would suggest that it was ripe for exploitation by 
criminals and terrorists. The reality is that the imperative to manage 
cross-border threats without disrupting trade that amounts to more than 
$1 billion a day and the travel of 220 million people each year, has 
led to an extraordinary degree of cross-border cooperation. On the 
Vermont-Quebec border, for instance, Canadian and U.S. law enforcement 
officers at the federal, state, provincial, and local levels have been 
meeting for 18 years to discuss their criminal cases without any formal 
charter. The relationships are such that participants sit together and 
share information in much the same way they might at a roll call if 
they all belonged to the same police precinct.\9\ The resultant 
collegiality spills over into their daily police work. In fact, local 
agents in Vermont or New Hampshire who are frustrated on occasion by 
bureaucratic obstacles to getting information or assistance from U.S. 
federal agencies have found a successful end-run to be to seek out 
their Canadian counterparts and ask them to serve as intermediaries for 
their requests!
    In Washington state and British Colombia, U.S. and Canadian police, 
immigration and customs officials, stood up a bi-national team in 1996 
to work on cross-border crimes with local, state, and provincial 
enforcement agencies. The team was called the ``Integrated Border 
Enforcement Team (IBET)'' and initially focused on drug smuggling, but 
the portfolio later expanded to include terrorism. Following the 
September 11 attacks, Washington and Ottawa agreed to establish a total 
of 8 of these IBETs along the border.\10\
    The movement towards emphasizing a broader framework of bi-national 
cooperation versus focusing on the physical borderline gained impetus 
in 1999 when Prime Minister Jean Chretien and President Bill Clinton 
formed a process of consultation labeled the ``Canada-U.S. Partnership 
(CUSP).'' The process had as its objective the reinvention of border 
management to support the seamless passage of legitimate flows of 
people and goods between the two countries. \11\ Progress towards this 
end was somewhat halting until after September 11. With 40 percent of 
its GDP tied to trade with the United States,\12\ the post-9-11 closing 
of the border transformed the CUSP agenda into Ottawa's top priority. 
The then Canadian foreign minister, John Manley, was dispatched to 
Washington to meet with the new White House Director of Homeland 
Security, Tom Ridge. Manley found a sympathetic audience in Ridge who 
had just stepped down as Governor of Pennsylvania (Canada was that 
state's number 1 trade partner.) Together they hammered out a 30 point 
``Smart Border Action Plan'' which they announced on December 10, 2001. 
The preamble of the declaration declared:

          Public Security and economic security are mutually 
        reinforcing. By working together to develop a zone of 
        confidence against terrorist activity, we create a unique 
        opportunity to build a smart border for the 21st century; a 
        border that securely facilitates the free flow of people and 
        commerce; a border that reflects the largest trading 
        relationship in the world.\13\

    In short, in dramatic contrast to the approach the United States 
had pursued on its southern border throughout the 1990s, with respect 
to its northern border Washington has concluded that its security is 
optimized by striving to keep the border as open as possible, while 
working to improve cooperative bi-national arrangements. Indeed, 
efforts to harden the border along the 49th parallel have been assessed 
to be self-defeating not just in economic terms, but in security terms. 
Closing the border in the wake of a terrorist attack only reinforces 
the military value of engaging in such attacks. This is because it 
means the U.S. government ends up doing something to itself that no 
other world power could aspire to accomplish--it imposes a blockade on 
its own economy. The result is to convert a small investment in terror 
into massive disruption of daily life that has a clear and adverse 
effect on the U.S. and overall global economy. America's adversaries 
would undoubtedly take solace in this and recognize that the potential 
benefits of this kind of warfare warrants consideration.

                         BEYOND BORDER CONTROL

    Embracing openness and advancing homeland security need not be an 
``either-or'' proposition if Washington is willing to apply the lessons 
it has drawn from its northern border to Mexico and the broader global 
community. The end game must not be about defending a line on a map, 
but advancing greater bilateral integration while managing important 
safety, security, and other public policy interests. This balancing act 
can be accomplished by: (1) developing the means to validate in advance 
the overwhelming majority of the people and goods that cross the border 
as law abiding and low risk; and (2) enhancing the means of federal 
agents to target and intercept inbound high risk people and goods. 
Accomplishing the first is key to succeeding at the second since there 
will always be limits on the time and resources available for agents to 
conduct investigations and inspections. The goal must be to limit the 
size of the haystack in which there are most likely to be illicit 
needles.
    Verifying legitimate cross border flows as truly legitimate is not 
as fearsome task as it might first appear. This is because aggregate 
border crossing numbers are somewhat misleading since so many of the 
vehicles, drivers, and people are regular customers. For instance, 
while there were 4.2 million recorded southwest border truck crossings 
in 1999, these crossings were made by roughly 80,000 trucks.\14\ If we 
are willing to make the investment, the technologies are certainly 
available to identify frequent travelers as such. After undergoing a 
pre-screening application and inspection process, vehicles can be 
equipped with an electronic transponder and the driver can be provided 
with a NAFTA transportation identity card with encoded biometric 
information to confirm that they are in fact who they profess to be. 
Quickly clearing these vehicles and their drivers allows inspectors to 
focus more of their time and energy on examining unfamiliar or 
suspicious traffic.
    Similarly, the vast majority of the daily pedestrian border 
crossings are made by day laborers who return to their homes south of 
the border each evening. These individuals can be recognized as such by 
inspectors who are assigned to the border. Well-designed border 
crossings that are adequately staffed with inspectors who are well-
trained in behavior pattern recognition can be more effective than 
reliance on high-technology when dealing with this foot traffic. An 
inspector does not need a machine to tell her if she is looking at a 
face she has never seen before. And a biometric devise is useless in 
detecting behaviors such as excessive anxiety that should arouse 
suspicion. There is no substitute for human judgment when making these 
kinds of calls.
    Manufacturers, carriers, shippers, importers or exporters could be 
encouraged to adopt stringent internal security practices that reduce 
their exposure to internal criminal conspiracies and which deter 
criminal elements from targeting their vehicles and goods once they 
leave a factory, warehouse, or transshipment facility. They should also 
be encouraged to invest in information and tracking technologies to 
maintain near real-time accountability of their drivers, vehicles, and 
cargo from the point of origin through the final destination. Finally, 
they should transmit in advance, the electronic information border 
agents need to assess their compliance with the applicable laws and 
regulations.
    Theft-resistant transportation networks are more difficult for 
criminals and terrorists to compromise. Should there be advance 
intelligence of such a compromise, these information systems will make 
it easier to locate and interdict shipments that might contain illegal 
migrants or contraband before it enters a crowded port or land border 
inspection facility; alternatively, authorities can put together a 
``controlled-delivery'' sting operation, where the contraband is 
allowed to reach the intended recipient so that the appropriate arrests 
can be made.
    Given the value this has for security, the U.S. government should 
work to create every incentive for expanding participation in these 
frequent-traveler programs including providing adequate staff to 
quickly process applications and eliminating or substantially reducing 
or waiving of the fees for receiving these biometric cards and 
transponders. Since these programs advance our national security, 
making an appropriate investment in federal resources to them is 
appropriate.
    Still, bringing about the kind of transformation that makes the 
private sector a willing and able partner in supporting a reinvented 
border control mission requires strong market incentives. Happily such 
incentives exists if the U.S. government is thoughtful about how new 
investments in transportation infrastructure are made at and near the 
border. Specifically, the Transportation Equity Act for the 21st 
Century has targeted substantial funding for major roadway improvements 
under the Coordinated Border Infrastructure Program.\15\ As development 
and management plans for such projects as the ``Ports-to-Plain'' 
Corridor and the I-69 NAFTA highway are drawn-up, the development of a 
``dedicated trade lane'' should be incorporated. That is, like commuter 
``High Occupancy Vehicle'' (HOV) lanes found around many metropolitan 
areas, access to a dedicated trade lane would be restricted to only 
those vehicles and drivers and that cargo that participates in the new 
border management regime.
    An additional incentive could come by moving many of the border 
entry inspection processes away from the physical border itself and 
instead consolidate them into a single trilateral ``NAFTA inspection 
facility'' and locate it on a dedicated traffic lane that leads to the 
border. For instance there is an 18-mile new toll road leading from I-
39 to the Mexican state of Nueva Leon via the recently constructed 
Colombia Bridge on the outskirts of Laredo, Texas. Why not have the 
United States, Mexico, and Canada agree to grant extraterritorial legal 
authority within a NAFTA inspection facility placed at the start of 
that toll road where trucks, drivers, and cargo could be examined by 
inspectors from all three countries and where each agency is allowed to 
enforce their respective national laws and regulations for goods and 
conveyances bound for their jurisdiction. Statutes governing the 
development of border crossing facilities and infrastructure should be 
examined to identify legal barriers which prevent or slow the 
investment of federal monies in these projects. Specifically, there 
should be a fast track for completing environmental impact studies that 
can delay border infrastructure projects up to ten years.
    The Bureau of Customs and Border Protection has already embraced 
this approach in sea ports under a program Commissioner Robert Bonner 
has called the ``Container Security Initiative.'' An important element 
of that initiative is stationing U.S. Customs inspectors overseas in 
loading and transshipment ports to inspect suspicious cargo before it 
is even loaded on a ship. Nations who agree to participate are given 
reciprocal privileges in U.S. ports.\16\ In the North American context, 
the end-state, ideally, should be to develop a single zone conducting 
``one-stop'' arrival and departure inspections. In the case of 
northbound trucks from Mexico City and Monterey and southbound trucks 
bound for the Mexican interior, operators would have to stop just once 
at a location where there is plenty of space to conduct inspections so 
there is no risk of hours-long backups that now routinely plague the 
bridges. Once the trucks are cleared, the flow of traffic could be 
closely monitored by use of ``intelligent transportation systems'' 
(ITS) radio frequency or GPS technologies.
    But simply relocating where inspections take place is not enough. 
Border control agencies need to fundamentally change the way they are 
doing business as well. The days of random, tedious, administrative and 
labor-intensive border inspection systems--the bane of every legitimate 
international traveler and business--must be numbered. The manpower 
constraints inherent in traditional border-control practices guarantee 
their continuing inability to adequately police the surge in 
continental and global commerce. What is the alternative? The answer 
lies in placing greater emphasis on developing the means to enhance 
``domain awareness'' and the capacity to perform ``anomaly detection.''
    In the computer industry, ``anomaly detection'' represents the most 
promising means for detecting hackers intent on stealing data or 
transmitting computer viruses.\17\ The process involves monitoring the 
cascading flows of computer traffic with an eye towards discerning what 
is ``normal'' traffic; i.e., that which moves by way of the most 
technologically rational route. Once this baseline is established, 
software is written to detect that which is aberrant. A good computer 
hacker will try to look as close as possible to a legitimate user. But, 
since he is not, he inevitably must do some things differently and good 
cyber-security software will detect that variation, and deny access. 
For those hackers who manage to get through, their breach is identified 
and shared so that this abnormal behavior can be removed from the 
guidance of what is ``normal'' and acceptable.
    In much the same way, the overwhelming majority of the vehicles, 
people, and cargo that move across the U.S. borders move in predictable 
patterns. If inspectors have the means to analyze and keep track of 
these flows, they will have the means to detect ``aberrant'' behavior. 
In short, ``anomaly detection'' of cross-border flows is possible, if 
the regulatory and enforcement agencies whose daily tasks is to police 
those flows: (1) are given access to intelligence about real or 
suspected threats, and (2) are provided the means to gather, share, and 
mine private sector data that provides a comprehensive picture of 
``normal'' cross border traffic so as to enhance their odds of 
detecting threats when they materialize.
    If the public sector undertakes these changes, the private-sector 
must also change its attitude about engaging in self-policing and 
sharing anything but the minimum amounts of relevant data with 
government agencies. Border control agencies have important and 
legitimate jobs to perform. The general public wants restrictions on 
the flows of contraband such as weapons, drugs, and child pornography. 
Immigration policies require that who enters and who leaves their 
jurisdictions be monitored and controlled. Many public-health 
strategies aimed at managing the spread of disease require the 
identification and isolation of people, livestock, and agricultural 
products that could place the general population at risk. Safety and 
environmental threats connected with unsafe shipping and trucking 
mandate that the transportation sector be monitored. And trade rules 
must be enforced for trade agreements to be sustainable.

                    BARRIERS TO CONTINENTAL PROGRESS

    The approach to border management outlined above has started to 
gain some currency with respect to the U.S.-Canada border. Just prior 
to the first anniversary of the tragic attacks on New York and 
Washington, President George W. Bush and Prime Minister Jean Chretien 
met on the Detroit-side of the Ambassador Bridge to launch an 
initiative dubbed ``the Free and Secure Trade (FAST)'' program whose 
purpose is to move pre-approved goods across the border quickly. The 
two leaders also announced the expansion of program designed to speed 
the flow of pre-screened ``low-risk'' travelers across the border known 
as NEXUS along with a number of actions they are taking in support of 
the Ridge-Manley Smart Border agreement.\18\ Against the backdrop of 
the world's busiest commercial border crossing, President Bush 
declared:

          With these two initiatives, we'll ensure faster movement of 
        legal, low-risk goods, and faster travel for people cross our 
        borders, and we'll be able to better enhance security. Our 
        inspectors will spend less time inspecting law-abiding citizens 
        and more time inspecting those who may harm us.\19\

    For his part, the former Prime Minister Chretien asserted:

          We recognized that we could create a ``smart border''--one 
        that was not only more secure, but more efficient for trade, to 
        permit our businesses to get back to business, to allow our 
        nurses, engineers and computer technicians to provide their 
        services, and our students to attend classes. To let our 
        communities continue planning a shared future together, secure 
        in the knowledge that the border welcomes legitimate trade and 
        travelers.\20\

    While ample challenges remain with regard to adequate staffing, 
infrastructure, data management, and intelligence issues to make this 
``risk management'' approach more capable and credible, there is 
clearly a consensus that measures that would have the net effect of 
hardening the border between Canada and the United States would be 
counterproductive. Meanwhile, the situation on U.S.-Mexican border 
stands in marked contrast. This is not for the want of any willingness 
on Mexico's part. President Vincente Fox has repeatedly offered to have 
a no-holds bar conversation on the future of its shared border with the 
United States. But, there has been little enthusiasm in the post 9-11 
Washington to reciprocate.
    While the new homeland security imperative is cited as the 
rationale for change to the north, to the south it is being proffered 
up to explain why the U.S.-Mexican border reform agenda has moved from 
the political fast track to the breakdown lane. The persistent 
incidence of crime, narcotics and migrant trafficking, and corruption 
are rallying points for advocates of ``tightening-up'' border 
enforcement. The generally unchallenged assumption is that, now more 
than ever, the United States needs to be committed to vigilance along 
the southern border.
    But, the case for fundamental reform should be even more 
compelling. Presumably, the combination of the new high security stakes 
and the acknowledgement in the Ridge-Manley agreement that hardening 
the 49tb parallel is self-defeating, should create fertile ground for a 
thoughtful reexamination of the prevailing approach to managing the 
southern border. So why hasn't this logic been the prevailing one? The 
answer lies with the fact that the southern border is imprisoned in a 
legacy of immigration and drug enforcement efforts. Despite two decades 
of evidence to the contrary, Washington continues to see interdiction 
at the border as the key to successfully combating the northbound flow 
of illicit drugs and migrants.
    To adopt the ``smart border'' agenda throughout North America will 
require that Washington countenance an alternative approach to dealing 
with the issues of illicit drugs and immigration. It will require the 
federal agencies for whom border enforcement has been a growth business 
to acknowledge the unintended consequence of their collective effort 
has been to actually make the border region more difficult to police 
and secure. And it will require those within the U.S. Congress who 
oppose NAFTA to stop exploiting America's newfound homeland security 
imperative as a means for advancing their protectionist agenda.

                               CONCLUSION

    The most important reason to get border management right is to 
satisfy what is arguably the most critical homeland security imperative 
of our time: to reduce the risk that hemispheric and global trade lanes 
will be exploited to smuggle a weapons of mass destruction into the 
United States. Without a committed effort to advance a bilateral 
approach to border management, terrorists will continue to have ample 
opportunity to bring their battles to American streets. It is in the 
collective interest of the United States and Mexico to work together to 
mitigate that risk.
    But the impetus for challenging conventional notions of border 
control owes it source not just to a transformed post-9/11 threat 
environment. It is also a long overdue response to the evolution of 
commercial and social patterns of interaction throughout North America 
that have made continental relationships more dynamic, organic, and 
integrated. As such, the case against traditional border management 
practices such as those pursued along the southwest border had been 
already made by the close of the last century for anyone willing to 
look objectively at the yawning gap between enforcement rhetoric and 
reality. Stepped-up efforts to harden the border are a flawed, even 
counterproductive, approach to advancing important security and public 
policy interests.
    By contrast, the kind of ``smart border'' initiatives being 
embraced on the northern border hold out real promise. The outline for 
transformed border management is clear. It requires a risk management 
approach to policing cross-border flows which includes the close 
collaboration of the major beneficiaries of an increasingly open North 
American continent--the United States--neighbors to the North and the 
South, and the private sector. The stakes of getting this right are 
also clear. Transforming how the border is managed is an essential step 
towards assuring the long-term sustainability of hemispheric economic 
integration within the context of the transformed security environment 
of the post-9/11 world.
    Thank you Mr. Chairman. I look forward to responding to your 
questions.

                               FOOTNOTES

    \1\ Peter Andreas, Border Games: Policing the U.S.-Mexico Divide 
(Ithaca: Cornell University Press, 2000).
    \2\ Keith Philips and Carlos Manzanares, ``Transportation 
Infrastructure and the Border Economy,'' in The Border Economy (Dallas: 
Federal Reserve Bank of Dallas, June 2001), 11.
    \3\ Field visit by the author to Laredo, Texas Aug 20-21, 2001.
    \4\ Office of National Drug Control Policy, National Drug Control 
Strategy: 2001 Annual Report, Shielding U.S. Borders from the Drug 
Threat (Washington: USGPO, 2001).
    \5\ U.S. Customs Service, ``About U.S. Customs,'' accessed on 
September 6, 2002 at http://www.customs.gov/about/about.htm.
    \6\ U.S. Customs Service, Border Wait Times at major northern and 
southern border crossings. Current border wait-times information is 
available at http://www.customs.gov/travel/travel.htm.
    \7\ Steve Erwin, ``Automakers forced to shut down: Parts shortage 
suspends production,'' Edmonton Journal, September 14, 2001, F4.
    \8\ ``Parts Shortages Cause Ford Shutdown,'' Associated Press, 
September 14, 2001.
    \9\ The Committee is informally known as the ``Leene Committee,'' 
named for its founder, James Leene, a former policeman who serve's in 
the U.S. Attorney's office in Burlington, VT.
    \10\ 6th Annual Canada-U.S. Cross-Border Crime Forum Press Release, 
July 6, 2002, accessed on September 6, 2002 at http://www.sgc.gc.ca/
Releases/e20020722.htm
    \11\ George Haynal, ``Interdependence, Globalization, and North 
American Borders,'' in Governance and Public Security (Syracuse: 
Maxwell School, 2002), 55.
    \12\ Authors calculations based on statistics available at 
Statistics Canada, www.statcan.ca
    \13\ The Whitehouse Office of Homeland Security, ``Action Plan for 
Creating a Secure and Smart Border,'' Dec. 12, 2001, accessed on 
September 5, 2002 at http://www.whitehouse.gov/news/releases/2001/12/
20011212-6.html
    \14\ Office of the Inspector General, ``Interim Report on Status of 
Implementing the North American Free Trade Agreement's Cross Border 
Trucking Provisions,'' Federal Motor Carrier Safety Administration, 
MH2001-059, (May 8, 2001), 7. Also, Statement of the Honorable Kenneth 
M. Mead, Inspector General, USDOT, ``Motor Carrier Safety at the U.S.-
Mexican Border,'' July 18, 2001 before the Committee on Commerce, 
Science and Transportation, United States Senate.
    \15\ TEA-21 [1119(a)].
    \16\ Robert C. Bonner, ``Pushing Borders Outwards: Rethinking 
Customs Border Enforcement,'' A speech presented at the Center for 
Strategic and International Studies, Washington, D.C., Jan. 17, 2002.
    \17\ Intrusion Detection Resources, accessed on September 6, 2002 
at http://www.cerias.purdue.edu/coast/ids/ids-bodv.html.
    \18\ ``Summary of Smart Border Action Plan Status,'' Press Release, 
Office of the Press Secretary, The White House, September 9, 2002, 
http://www.whitehouse.gov/news/releases/2002/09/20020909.html
    \19\ Transcript of remarks by President George W. Bush and Canadian 
Prime Minister Jean Chretien at Detroit Customs Station, Monday, 
September 9, 2002, http://www.whitehouse.gov/news/releases/2002/09/
20020909-4.html
    \20\ Ibid.

    The Chairman. Thank you very much, Dr. Flynn, for citing 
three very, very important issues which we will try to continue 
to address in our discussion, and which we hope that you will 
discuss further in the rest of your paper.
    Dr. Papademetriou.

    STATEMENT OF DR. DEMETRIOS G. PAPADEMETRIOU, PRESIDENT, 
                   MIGRATION POLICY INSTITUTE

    Dr. Papademetriou. Thank you very much, Mr. Chairman. I 
thank you for the opportunity to appear before your committee.
    I will talk a little bit about the U.S.-Mexico relationship 
initially in the context of migration. Then I will say 
something about thinking outside of the box with regard to 
NAFTA and what it is that perhaps we can expect from that 
relationship beyond the standards of trade and economic 
relationships. Then I will say a few things about how one 
conceptualizes and goes about putting together, piecing 
together, comprehensive immigration reform. And in the context 
of doing so, I will also say a couple of things about the 
Craig-Kennedy legislation, the AgJOBS legislation, that you 
heard referenced. Finally, I will return to Mexico and suggest 
a few things we might do there, if you do not mind.
    Mexico and the United States, with regard to migration and 
many other things, are completely intertwined, in fact, 
indivisible, inseparable. The relationship goes back more than 
100 years. About a third of all of the foreign-born people in 
the United States are, indeed, Mexicans. About one-sixth of the 
annual legal immigration flow to the United States comes from 
Mexico. According to the best estimates that we have of illegal 
immigration, about three-fifths, 60 percent, of unauthorized 
immigrants are coming from Mexico. Incidentally about an 
additional 23 percent comes from Central America and South 
America.
    Entire economic sectors in the United States are now 
dependent--I am not saying relying on--dependent on the kind of 
labor that hardworking Mexican workers and other Central 
Americans provide. Of course, no one relies more heavily on 
Mexican and Central American workers than U.S. agriculture with 
its perishable crops. There almost 100 percent of the work 
force is Latino, Hispanic, and at least 75 percent of it is 
undocumented, unauthorized.
    So regardless of how we think about Mexico, regardless of 
what it is we do with regard to immigration, Mexico will always 
be the big elephant in the room that we cannot ignore.
    Mexico is also a NAFTA partner, and I would like to help us 
think of NAFTA in larger terms, not just as an opportunity for 
greater trade with and greater investments in Mexico, or for 
that matter within the North American space, but as an 
opportunity for greater, deeper North American integration. I 
think reasonable people can really think through what that 
might mean.
    NAFTA is also a vehicle for addressing issues of common 
concern, but more importantly, for taking joint responsibility 
for fixing these issues, for positive outcomes with regard to 
these issues. Border issues and terrorism, but also migration, 
are a natural fit for this kind of understanding of NAFTA. 
Together with Mexico and Canada, perhaps we can start thinking 
of NAFTA as a vehicle toward a safer North America, a more 
competitive and more prosperous North America, a more 
democratic and rule of law-based North America, and a North 
America that is better socially developed.
    How should we conceptualize comprehensive immigration 
reform? If you will allow me, I think of it as a three-legged 
stool. The beauty and the problem with putting together three-
legged stools is that you have to be very accurate about the 
length and everything else of each of the legs. I suggest that 
if we want to have stable immigration reform, perhaps putting 
it differently, immigration reform that will last each element 
must be carefully balanced. The alternative is that we can have 
quick and dirty or, for that matter, very lengthy and not 
particularly well-conceived, immigration reform legislation 
that is going to bring us back to the Congress 2 or 3 or 4 
years down the road seeking to fix it again.
    So I tried to think, with the experience of the last 10, 
20, 30 years, what it might take to come up with something that 
perhaps has an opportunity to last awhile. I thought that three 
things would be required.
    The first one would be to give an opportunity to people 
here who are in an unauthorized, undocumented, illegally 
resident status, whatever your preferred term is, but 
essentially those people who are here illegally, to actually 
earn their new legal status. Reasonable people can sit around 
the table and try to figure out what those criteria might be. 
They should be tougher rather than easier and should give 
people an opportunity to work hard toward achieving that new 
status in the future, 2 or 3 years later, rather than on the 
basis of what they may have done in the past 2 or 3 years.
    The second one is that we have to enforce our immigration 
and related laws better. This is not about putting more money 
there, although money will also be required, or perhaps 
deploying forces more intelligently, in methodological terms, 
though that will also be required. I am actually asking for 
nothing less than a from-the-ground-up rethinking of what laws 
we are being asked to implement because my fundamental 
conclusion from looking at these issues over a long time now is 
that some of the ideas that we introduced in the mid-1980s may 
have looked fine at the time, but 20 years later it is time for 
us to rethink them. I am asking for a zero-based policy review 
of these ideas.
    The third element of reform is taking into account future 
demand for immigrants, for individuals, to reunify with their 
close family members and for employers to have employees that 
they value. We are going to have to do something about truly 
expanding immigration numbers in all sorts of different ways, 
temporary, permanent, work visas, family visas.
    Finally, I wanted to plug AgJOBS. I have been listening to 
the government witnesses. This is the third time I have 
testified in the past month on this. I am always stunned by the 
fact that really they are not saying anything much different 
than what is included in AgJOBS. But I have yet to hear a 
government witness basically saying we will support AgJOBS.
    AgJOBS may not be the model that we will ultimately follow 
in immigration reform, but it is certainly a model that makes 
sense. It has been negotiated in a painstaking way, and it 
makes sense considering the exceptionality of the U.S. 
agricultural sector.
    Finally, back to Mexico. Anything we do with regard to all 
of these people who are here will have a disproportionate 
effect on people from Mexico. As I noted, Mexicans account for 
60 percent of unauthorized immigrants and probably more. We 
have been surprised before in our estimates.
    Also, most of the things that we try to accomplish in terms 
of our security, in terms of keeping the wrong kinds of things 
from coming into our country, et cetera, can be achieved much 
better when we work with our contiguous countries in the NAFTA 
partnership than by ourselves.
    Second, anything with regard to any future worker scheme--
temporary workers or whatever you want to call it--inevitably 
the lion's share of those visas will go to Mexico. Mexicans 
have the employer relationships. They have the networks, et 
cetera. Why not begin to think together with Mexico about that 
part of it?
    Finally, since Mexico inevitably is going to be the 
principal partner directly or indirectly in whatever it is that 
we do on immigration, why not start to talk to them in a 
systematic way immediately?
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Papademetriou follows:]

          Prepared Statement of Dr. Demetrios G. Papademetriou

                              INTRODUCTION

    Mr. Chairman, Ranking Member, Members of the Committee on Foreign 
Relations.
    Thank you for the invitation to comment on the President's 
immigration reform proposals in the context of the broader U.S./Mexico 
relationship.
    In his far-reaching statement of January 7, 2004, President Bush 
returned to one of the earliest themes of his Presidency and to one of 
the country's most intractable policy and political dilemmas: how to 
manage better the U.S. immigration system. Echoing the refrain of 
``safe, orderly, and legal'' immigration of his first meeting with 
Mexico's President Vincente Fox in February, 2001, Mr. Bush 
acknowledged again that while the U.S. ``values'' and ``depends on'' 
immigrants, our broken immigration system ``condemns . . . millions of 
hardworking men and women'' to working in a ``massive, undocumented 
economy . . . [albeit in] jobs American citizens are not filling.'' Mr. 
Bush's prescription? A massive and apparently rolling temporary worker 
program both for currently unauthorized and new immigrants matching 
``willing workers'' with ``willing employers.''
    In doing so, the President jump-started a stalled national 
conversation on the role of immigrants in U.S. society and on the way 
forward on U.S. immigration reform. His acknowledgment that the 
immigration system is broken is fully consistent with the facts. There 
are currently as many as 10 million unauthorized immigrants in the 
United States; about three-fifths of them are Mexicans, while Central 
and South Americans provide another quarter of that total (see Chart 
1). More than half of this illegally-resident population is found in 
just four states--California, with more than a quarter of the total, 
followed by Texas, Florida, and New York (see Chart 2). Furthermore, 
nearly half-a-million new unauthorized immigrants (mostly Mexicans) are 
added to our economy and society each year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While Asians and the rest of the world are estimated to provide 
about one-in-five of the foreigners who are illegally-resident in the 
U.S., the U.S. unauthorized immigration problem is decidedly a 
hemispheric one. More precisely, it is a Northern Hemisphere one, and 
more precisely yet, a Mexican problem. Numbers and geography, as a 
result, mean that any attempt to manage unauthorized immigration to the 
United States must keep Mexico and Mexicans close in mind.

              THE MEXICO FACTOR IN U.S. IMMIGRATION POLICY

    Nor is this somehow a new phenomenon. In the last regularization of 
unauthorized immigrants, conducted under the 1986 Immigration Reform 
and Control Act (IRCA), about two million Mexicans received permanent 
lawful resident (LPR or ``green-card'') status--about 75 percent of the 
successful applicants. Since then, and in the largest part because of 
IRCA, legal migration from Mexico has come to comprise about one-sixth 
of total annual U.S. intakes. Illegal Mexican migration has also gained 
considerable momentum, as the social and labor recruitment networks 
that help Mexican migrants come northward have become even more 
efficient and U.S. employers have become even more accustomed to 
recruiting and employing Mexican workers. As a result, Mexicans already 
living in the United States have become even more embedded in U.S. 
society and Mexicans of all legal statuses have come to comprise 
increasingly large pluralities of workers in low-skill, low value-added 
economic sectors--and even to dominate many of them throughout the 
United States.
    Beyond the numbers, however, many of the assumptions that are now 
driving U.S. thinking about immigration reform are directly informed by 
migration from Mexico. For example, every major immigration reform 
proposal introduced in the last year or so emphasizes, more or less 
directly, restoring the ``circularity'' of earlier migration patterns 
as a key goal of immigration reform. To be sure, immigrants from all 
countries often return to their home country and, increasingly, they 
may make this two-way trip repeatedly. However, Mexico's geographic 
proximity to and historically complicated migration relationship with 
the United States has shaped a tradition of circular migration that, 
until recently, had been far longer and stronger than any other 
nation's.
    Furthermore, it is Mexico's (and, to a much lesser extent, Central 
America's) tradition of circular migration that can be most accurately 
described as having been most directly ``disrupted'' by the U.S. border 
enforcement policies of the past ten or so years. Stepped-up 
enforcement on the United States' southern border has both preceded 
and, until the last two years or so, has been more intense than changes 
in controlling access by air and sea. This, in turn, has contributed to 
longer stays by unauthorized Mexican immigrants and has made the 
tendency toward longer--and essentially permanent--stays the key to 
understanding the Mexico-to-U.S. migration of the last decade or so. 
Not surprisingly, then, the success of any U.S. immigration reform 
effort will ultimately rest on the accuracy of our assumptions about 
the nature of Mexican migration and its place in the U.S. economy and 
society.
    Yet, so far, every major immigration reform proposal--including the 
President's--has been decidedly unilateral in expression. A combination 
of factors makes Mexico the most natural partner--a true primus inter 
pares--in a more realistic approach to our efforts to manage migration 
more effectively.

  <bullet> First, since Mexico contributes a significant majority of 
        the U.S.'s total unauthorized population, it is a logical major 
        partner in a bilateral approach to resolving the illegal 
        immigration puzzle.

  <bullet> Under the same logic, Central America must also remain 
        within our proximate policy thinking on immigration reform, 
        making ``thinking regionally'' on this issue simply compelling.

  <bullet> Secondly, the United States and Mexico (as well as Canada) 
        already have a well established relationship--they are partners 
        in the North American Free Trade Agreement (NAFTA) and jointly 
        manage many critical issues that relate to our border security 
        and to law enforcement priorities for both countries.

  <bullet> The United States and Mexico have also launched a modest 
        joint program to promote economic development in Mexico called 
        the ``Partnership for Prosperity''--a program that acknowledges 
        the importance of Mexican economic development in promoting the 
        NAFTA region's long-term economic and social well-being. So 
        far, however, the program is mostly ``aspirational'' in nature 
        but, with the help of this Committee, it can be moved off the 
        political back-burner.

  <bullet> Third, political and economic imperatives in both countries 
        make thinking bilaterally (and, again, regionally) about 
        migration and related issues particularly attractive: in few 
        other countries is migration as potent a domestic political 
        issue as in Mexico, Spanish-speakers power our labor intensive 
        economic sectors, and Hispanics (and particularly Mexican-
        Americans) make up an already large and fast increasing part of 
        the electorate in the United States.

    These and many other factors like them make Mexico (and the region) 
the natural starting point for an open-ended conversation on migration. 
It is also the place where whatever immigration legislation emerges 
will be tested first, and most tellingly. Put differently, while 
Mexican cooperation may not guarantee the full and immediate success in 
whatever immigration reform objectives we set for ourselves, the 
failure to enlist Mexico's fullest cooperation will make progress 
toward meeting those objectives much more expensive, much more 
difficult, and far less certain.
     the three-legged stool of smart and stable immigration reform
    Almost regardless of the level of bilateral (and regional) 
coordination, any immigration reform package that aims for long-term 
success must deal with three very difficult issues more or less 
simultaneously: (a) accounting for and offering the opportunity to the 
currently illegally-resident immigrant population to earn green cards; 
(b) preventing future unauthorized immigration to the fullest extent 
possible through thoughtful policies and smart enforcement; and (c) 
providing adequate legal means for needed immigrants to enter the 
United States by expanding the number of visas of all types--permanent 
and temporary, for families and for workers.
    These three policy goals must be understood as being fundamentally 
indivisible, at least if the policy aim is stability in, rather than 
simply another bite at, reform. A fully integrated approach to reform 
might thus be conceptualized best as a ``three-legged stool'' that will 
be by definition wobbly if any of its legs are significantly uneven and 
will simply topple if any one leg is removed. I will discuss each of 
these three ``E''s of comprehensive reform--earning legal permanent 
status, enforcing the immigration laws better, and expanding visas in 
sequence below.

Leg One: Earning green cards must become an opportunity available to 
        all illegally-resident immigrants
    The domestic security agenda established after September 11 has 
cast the longstanding and growing unauthorized population in the U.S. 
in a new light--as a potential hiding place for terrorists. Analysts 
talk about the challenges of finding the ``needle in the haystack'' and 
hotly debate the appropriate and constitutionally sound ways to make 
that haystack significantly smaller. Ideas have included registration, 
deportation (focusing initially on criminal immigrants), increased 
enforcement measures internally and at the border, and attrition (as a 
collective result of these efforts).
    As noted earlier, today's ``haystack'' is composed of nearly 10 
million people who are living and working in American communities. Even 
the most ``back-of-the-envelop'' calculation shows that, even under the 
most favorable assumptions, a strategy designed to reduce the 
unauthorized population to publicly acceptable levels (if we knew what 
those might be) that utilized only enforcement and deportation methods 
would require tens of billions of dollars, decades of time, and 
significant damage to the nation's concept of civil and other rights. 
It would also require even more heroic assumptions about the United 
States' ability to keep new would-be illegal entrants and illegal 
stayers out.
    It is in this context that we must evaluate the plan proposed by 
President Bush. According to that plan, the permission to stay legally 
would be contingent upon employment and initially last for three years, 
with the possibility of one (or more?) renewals. In order for that plan 
to succeed in its principal objective of ``breaking the back'' of 
illegal immigration, such an offer must be combined with a meaningful 
opportunity for unauthorized immigrants to remain in our country by 
``earning'' their green cards. The White House is reported to be more 
open to this idea than the President's statement may have indicated at 
first.
    The domestic security argument for following this, more expansive, 
course is as simple as it is compelling: the utility of the overall 
effort depends greatly on the level of participation. An effort that 
leaves millions of people unregistered (and hence un-vetted in security 
terms) still leaves a considerable security problem. In fact, a program 
that allows only temporary stays is not likely to prove a sufficient 
inducement to come forward either for those immigrants who have 
developed deep social and economic roots in our communities or who fear 
that registration could be used against them in other ways.
    The level of participation in the regularization program will also 
influence the success of broader efforts to control illegal 
immigration. When Congress enacted IRCA in 1986, it thought of 
regularization only in classic amnesty terms, and extended its pardon 
to anyone ``continuously'' in the U.S. since before January 1, 1982. 
When the law was finally implemented in November, 1986, the previous 
five years of illegal arrivals did not qualify for regularization. At 
the same time, however, they had little incentive to leave.
    These three million still-unauthorized immigrants simply burrowed 
into U.S. communities, continuing to do essential work, but in an even 
more unprotected legal environment. They continued to reunify with 
their families legally or illegally, build new families, and have 
American children. With millions of unauthorized residents continuing 
to live and work in the U.S., the IRCA legalization program never 
established a ``clean slate'' from which to launch its enforcement 
provisions, and the unauthorized immigrants left behind by the law 
formed the nucleus for the even more spectacular growth of the 
unauthorized population in the 1990s.
    Many unauthorized immigrants have spent years in the country, are 
working at permanent jobs, and are parents of citizen children. At the 
end of the last fiscal year, the Department of Homeland Security had 
more than 1.2 million pending green card applications and 
naturalization waiting times in the largest metropolitan areas are 
approaching four years. For most of these people, and many more, 
``restoring circularity'' may not be a goal that will move them to 
register in a program like that proposed by the White House; they will 
need a real opportunity to obtain legal permanent residency instead. If 
offered regularization without the prospect of permanent residency, and 
even if they take that offer up front, many may simply choose to remain 
in the United States at the end of their allotted time, rather than 
return home after a decade or more of absence.

Leg Two: Enforcing our immigration laws better
    Offering the currently illegally-resident population an opportunity 
to earn ``green cards'' will not amount to much of a reform if 
unauthorized immigration is not controlled more effectively during and 
following the regularization process. Effective enforcement, however, 
will not only require greater enforcement resources; it will demand a 
rethinking of enforcement strategies.
    The U.S.-Mexico border provides an important example. Beginning in 
the mid-1990s, spending on border enforcement was increased 
dramatically and the Border Patrol adopted a new strategy of ``control-
through-deterrence'' that initially focused enforcement resources on 
regaining control over one sector at a time--starting with the sectors 
most in need of attention. In many ways, these efforts paid off: 
crossing successfully became gradually more difficult and the fees 
charged by smugglers rose accordingly. Yet, border-crossers shifted 
their efforts to other, less well-secured (but also more dangerous) 
areas and once over the line, unauthorized immigrants found jobs easily 
and faced little threat of apprehension and removal. As a result, many 
migrants continued to cross, but their passage became costlier and 
riskier--and deaths along the border mounted. Migrants who successfully 
ran the gauntlet of crossing the ever more heavily patrolled border 
started to defer trips back home, turning the enhanced border 
enforcement strategy into one that effectively ``locked people in,'' 
rather than keeping them out.
    Part of the lesson from this experience is that although border 
enforcement remains a necessary part of the strategy for controlling 
unauthorized immigration, it must be supplemented by a smart interior 
enforcement strategy. Until recently, this strategy has been based 
almost exclusively on penalizing employers for hiring illegal workers--
an approach that has never developed roots and, as a result, it has 
never received adequate resources or worked particularly well even when 
resources were made available. A renewed commitment to manage migration 
much better will require more resources, a review of employer sanctions 
that re-examines U.S. enforcement methods from the ground up, and 
serious consideration of alternatives. As we move toward a temporary 
work visa program, enforcement of labor standards and other workplace 
protections will also have to be rethought and become essential parts 
of the enforcement agenda.

Leg Three: Expanding visa numbers must become a co-principal in the new 
        policy architecture for recapturing control over unauthorized 
        immigration
    However generous the earned regularization provisions of a 
comprehensive U.S. response to immigration is, and however well-
conceived and properly funded enforcement efforts come to be, they will 
be for naught unless the number of available visas also expands. 
Expanding visas will give American employers access to legal foreign 
workers while allowing would-be migrants a more realistic opportunity 
to migrate legally to work, to join family members, or both. 
Unauthorized immigrants, and the overwhelming majority of Mexicans and 
Central Americans in particular, are largely employed in low-wage, low 
value-added jobs, mostly but not exclusively in the service sector, 
making these positions a priority for additional visas. Temporary work 
visas will be an appropriate solution for some of these entries. For 
any large-scale visa program to maintain its integrity, however, it 
must be accompanied by tough but fair enforcement as well as by 
imaginative financial incentives to return. At the same time, we must 
also be clear that neither enforcement nor return incentives will work 
in every case; some workers will still want to stay and some employers 
will still want to keep their most reliable employees. Creating a 
clear, if demanding, path to permanent residency is the only way to 
address this policy challenge.
    While more work visas are thus an essential migration management 
tool, family reunification will remain a core value in the U.S. 
immigration system (and it will continue to play a crucial role in 
fostering immigrant integration). As such, it must receive its share of 
attention in any serious effort at immigration reform. Our 
administrative failings in this regard are legion. As Chart 3 makes 
clear, the backlogs in out immigration adjudications' system are 
massive and contribute unnecessarily to unauthorized immigration.
    Part of the reason for the backlog is legitimate. Delivering 
immigration benefits must be accurate, security considerations must be 
satisfied to virtual certainty, and the service must be professional, 
courteous and above reproach. But immigration benefits must also be 
delivered in a timely fashion. The cost of failure in that last regard 
is not just longer waiting lines and the likely (but largely 
unnecessary and avoidable) swelling in the unauthorized population; it 
is the breeding of disrespect, if not disregard, for the rules, a 
phenomenon that has an hugely corrosive effect on the rule of law. That 
effect is not unlike that which offends so many law-abiding Americans 
when they see unauthorized immigrants come and/or stay in our country 
illegally.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A look at Chart 3, which tracks the total benefit applications 
received, completed (a number that reflects approvals plus denials), 
and pending since 1980, makes clear that until the early 1990s, pending 
applications were holding fairly steady both in absolute numbers (in 
the low hundreds of thousands) and relative to completion rates. So 
were the numbers of received and completed applications. Demand began 
to grow as those who received lawful permanent status under the 
Immigration Reform and Control Act of 1986 became eligible for 
benefits, primarily as petitioners for their immediate family members. 
Yet, for a period, the immigration service was more or less able to 
keep up with most of the additional demand.
    Things started to fall apart, however, by the mid-1990s, when the 
IRCA-fueled demand for adjudications combined with the surge in 
naturalization petitions that resulted from what some analysts have 
characterized as that period's ``assault on immigrants.'' That 
``assault'' culminated in three pieces of legislation in 1996: The 
``Anti-Terrorism and Effective Death Penalty Act,'' the ``Personal 
Responsibility and Work Opportunity Reconciliation Act,'' and the 
``Illegal Immigration Reform and Immigrant Responsibility Act.''
    Surges in demand, however, are not the only variable responsible 
for what happened to adjudications after 1996. The naturalization re-
engineering that followed the political debacle of the Clinton 
Administration's efforts to promote naturalizations in 1995 and 1996, 
created a sharp completion trough that lasted until 1998. Following the 
reengineering, completion rates increased again until FY 2002, when, in 
the painstaking review of all immigration procedures that 9/11 made 
necessary, they dropped precipitously once more--a drop from which they 
have shown no signs of recovering so far. In fact, at this time, the 
immigration benefits' overall adjudication backlog is well over six 
million (it stood at 6.2 million at the end of FY 2003, with more than 
1.2 million pending ``green card'' adjudications and multiyear 
naturalization delays).
    Creating a system in which immigrants will ``wait for their turn'' 
requires renewed commitment on our part to adjudicate petitions for 
immigration benefits in a much more timely fashion. This includes the 
commitment to appropriate the requisite public resources to clear these 
backlogs.

 ENACTING THE AGJOBS AS A DOWNPAYMENT TOWARD COMPREHENSIVE IMMIGRATION 
                                 REFORM

    The three ``E''s of reform set standards for judging not only the 
``completeness'' of any reform proposal but especially the likelihood 
that we would control illegal immigration while promoting U.S. social 
goals and economic priorities. Viewed through the lenses of both human 
rights and economics, the three-legged stool of reforms proposed here 
will bring millions of hard working, law-abiding people ``out of the 
shadows'' with absolutely no disruption to the economy--and do so while 
building a deep reservoir of good will in the region whose returns will 
be counted in terms of increased security, greater stability, improved 
prosperity, and good will.
    Do these lofty goals mean, then, there is nothing that can be 
achieved in this legislative session that is a downpayment for, rather 
than an excuse not to, undertake comprehensive reform? Put differently, 
are there no legislative ``baby steps'' that can be taken now that can 
set the table for more comprehensive reform after the elections? There 
is in fact one such well thought out piece of bipartisan legislation 
that is pending already before the Congress: The Agricultural Job 
Opportunity, Benefits, and Security Act, or ``AgJOBS.'' The President 
chose not to mention this bill in his statement on immigration but the 
White House has apparently indicated to the Bill's authors that if the 
legislation is enacted, the President will sign it.
    In essence, AgJOBS would stabilize the agricultural workforce in 
perishable crops--a workforce that is almost entirely Latino and three-
quarters or more unauthorized--while protecting better in fact all of 
that sector's workers. It would do so by allowing unauthorized workers 
to work legally and begin to earn lawful permanent residence if they 
have worked in U.S. perishable crop fields for 100 work days in 12 
consecutive months during the 18 months prior to the legislation's 
enactment (thus targeting the more experienced workers). These newly 
legal temporary workers would be able to remain in the U.S. for up to 
three years and take any job. However, they would have to perform a 
minimum of 360 work days of agricultural work in the subsequent six 
years (and required minimums in the first three of these six years) 
before they can obtain lawful permanent residence.
    New workers would also be able to gain legal access to this 
economic sector with fewer procedural requirements--thus guaranteeing 
growers more predictable access to the legal and stable workforce they 
seek. In return, work-related benefits, legal protections, and labor 
standards throughout the sector (such as wages, housing/housing 
allowances, collective bargaining rights, and, most notably from a 
worker protection perspective, a federal private right to action and 
the ability of third parties to bring complaints to the U.S. Department 
of Labor) would also be enhanced, in many instances dramatically so.
    Agjobs has been painstakingly negotiated, has made its peace with 
American agriculture's long ``exceptionalism'' with regard to 
immigration rules, and, most importantly, it is a vast improvement over 
the status quo. It thus meets most criteria of what reform legislation 
on immigration must come to terms with--while its single sector focus 
tackles smartly and removes one of the toughest issues on which 
comprehensive immigration reform efforts have always stumbled.
returning to mexico: being smart about and building upon the bilateral 

            COOPERATION OPPORTUNITIES THE NAFTA HAS CREATED

    At the moment, debate in the United States is largely focused on 
unilateral approaches to immigration control, including much-needed 
changes designed to ``putting our own house in order.'' While some of 
the dimensions of a new approach to immigration must involve nationals 
of all countries--earning green cards, for instance--cooperation with 
Mexico (and Central America) continues to have distinct advantages.
    A phenomenon as complex as migration, and in which so many sectors 
of American society--including ``government at all levels''--are so 
deeply ``implicated'' (in the January 2001 words of former Texas 
Republican Senator Phil Gramm), cannot be managed as well unilaterally 
as it can with the cooperation of our neighbors. Pragmatism, even 
humility, is no weakness if the focus is on the right prize, an insight 
that is being reinforced everyday in our ``war on terror'' and one 
referred to explicitly in the President's 2004 Budget Statement 
regarding the Department of Homeland Security.
    Furthermore, the North American Free Trade Agreement (NAFTA) has 
created a framework for cooperation on and, consequently, ample 
opportunities for joint action in the region that the U.S. Congress, 
most analysts, and key stakeholders on this issue did not have in their 
field of vision in the drafting and deliberations of the 1986 attempt 
at large-scale immigration reform. Nor were Mexico's or most notable 
Mexicans' public comments at the time particularly helpful or 
cooperation-inspiring. As a result, reaching out to Mexico (or Canada) 
20 years ago was not a realistic option and few actors gave it serious 
consideration.
    Today, ten years after NAFTA and two-plus years after the September 
11, 2001, attacks on our homeland, there is a far greater appreciation 
of the fact that homeland security does not start at our borders. 
Border controls are in fact more effective the further away they begin 
from our physical borders, while the fight against human and other 
trafficking stands a much better chance at success when undertaken in 
cooperation with like-minded countries. Mexico and Canada are thus 
essential assets in our homeland security arsenal.
    In this perspective, one of NAFTA's principal contributions to the 
U.S. is creating an environment in which deeper and broader bilateral 
relationships between the United States and Mexico (and the United 
States and Canada) on matters that go well beyond trade has become 
possible--and in some ways, even routine. This reality has set the 
stage for far greater cooperation on security, migration and other 
difficult issues. Whether we are able to draw out of these 
relationships what we need in terms of our security and our migration 
management aims is almost a direct function of how much capital of all 
types we are willing to invest and where we are willing to make these 
investments.
    Specifically, working with the Mexican Government in the political 
context created, even if inadvertently, by NAFTA, can pay crucial 
security dividends for us. For instance, it can lead to agreements 
whereby Mexico can take an ever more active role in disrupting people-
smuggling networks, the same networks that are often thought to be 
responsible for the smuggling of other illicit materials, and in 
controlling access to its territory by those seeking to use Mexico as a 
transit or staging area for people and goods seeking entry into the 
United States illegally.
    Defeating these networks and disrupting illegal entry and passage 
routes--domains in which the Mexican Government is making substantial 
progress but receives little public credit in the U.S. (while 
simultaneously paying a significant political price in Mexico)--is not 
just a U.S. priority. The Fox Administration has an increasingly 
finely-tuned appreciation of the fact that, by undermining the rule of 
law and undercutting his government's credibility, smuggling syndicates 
and criminal networks make Mexico's own good governance aims more 
distant. Furthermore, Mexico's limited policing resources will be able 
to cover less ground if more people attempt to use it as a transit 
country into the United States. Hence the coincidence of bilateral 
policy interests--a reality that Mexican leaders at times seem to 
appreciate more than their U.S. counterparts do, especially those in 
the U.S. Congress.
    The most obvious way in which true, organic cooperation with Mexico 
can help the United States is with the management of our common border. 
Significant efforts to cooperate in border management are already 
underway, but can be expanded and deepened. Tying this cooperation to 
reforms in U.S. immigration policy may be the best way to give the 
Mexican government the political ammunition it needs to make full and 
active cooperation at the border even more possible.
    The possibilities for mutually useful cooperation do not stop at 
the border. In the three-legged stool approach to immigration reform I 
have outlined, Mexico has much to offer. Its public records can be a 
valuable resource for verifying the backgrounds and eligibility of 
candidates both for legalization and temporary work program 
participants. The Mexican Government's cooperation in conceiving of and 
implementing a large scale temporary worker program must also not be 
underestimated.
    Cooperation on all these fronts will require both the United States 
and Mexico to come to view stability and predictability in their 
bilateral migration relationship as a goal that brings enormous 
benefits to both countries. There is indeed evidence that this idea is 
beginning to take hold. In the United States, the language used to 
discuss the issue in some mainstream political circles has shifted from 
``illegal aliens'' to ``willing workers.'' Mexico, for its part, 
appears to understand better that policies that may appear to offer it 
the most immediate economic and domestic political rewards (such as 
arguing only for a temporary worker program or taking its part of the 
joint responsibility for managing the common border lightly) may prove 
to be shortsighted--and that working with the United States to build a 
common pillar of security and prosperity is indeed in the best 
interests of its citizens.
    As the discussion over immigration reform moves forward in the 
United States, Mexico will continue to hold a prominent place both in 
the debates and the solutions. The extensive and complex migration 
relationship that has evolved between the two countries in the last 100 
years may be the greatest obstacle facing immigration reform in the 
United States; their deepening and broadening political and economic 
relationship, however, may offer the best chance of surmounting this 
obstacle.

    The Chairman. Thank you very much, sir.
    Let me now introduce Dr. Valenzuela. I have mentioned the 
Aspen Institute conferences. He has been a tremendous resource 
to Members of Congress. I very much appreciate your testimony 
at the Aspen Institute. We look forward to your testimony here 
this morning. Would you please proceed.

  STATEMENT OF DR. ARTURO A. VALENZUELA, DIRECTOR, CENTER FOR 
         LATIN AMERICAN STUDIES, GEORGETOWN UNIVERSITY

    Dr. Valenzuela. Thank you very much, Mr. Chairman. I 
appreciate this opportunity, Mr. Chairman, to appear before the 
committee and I want to commend you for this hearing today.
    As you know, Mr. Chairman, over the last two decades, the 
relationship between the United States and Mexico has grown in 
visibility, scope, complexity, becoming one of the most 
important bilateral relationships that the United States has in 
the world.
    Mexico's growing importance for the United States is the 
reflection of fundamental changes that have taken place in 
Mexico and in the world economy, changes that have accentuated 
the integration of both countries. In 1950, Mexico was a semi-
authoritarian, largely rural country of 25.8 million people 
with a life expectancy of 49 years and only half of its 
population literate. Today Mexico is an overwhelmingly urban, 
competitive democracy with close to 100 million inhabitants, a 
life expectancy of 69 years, and a literacy rate of 87 percent. 
It is the 11th most populous country in the world with an 
economy that ranks among the 15th largest.
    With the approval of the North American Free Trade 
Agreement, Mexico became the third largest export market for 
the United States and an important destination for U.S. direct 
investment. U.S.-Mexico trade is now $232 billion, three times 
what it was before NAFTA. And of course, we know that the long 
2,000-mile border, the busiest in the world, has over 340 
million legal crossings a year, suggesting the growing 
integration of border communities.
    Mexico accounts also for 25 percent of the significant 
increase in foreign-born residents of the United States, the 
largest share of that category that any country has had since 
1890 when Germans accounted for 30 percent of all residents 
born abroad. In turn, Mexican migration is a driving force 
behind the surge of the Latino population in the United States, 
which at 37.4 million has become the largest minority in the 
country, over 60 percent of whom are natives of the United 
States. It is estimated that about 66 percent of the total 
Latino population, that is, about 25 million, are of Mexican 
origin. Mexicans also constitute the largest number of 
immigrants who entered the country illegally, perhaps as many 
as 5 million of an estimated 7 million to 8 million 
undocumented workers.
    Employment in the United States has been an important 
outlet for Mexico's population whose per capita income is a 
fifth of that of its neighbor to the north and has 40 million 
citizens living in poverty. Mexico, in turn, has supplied labor 
in critical areas of the U.S. economy, at a time when the 
population is aging and the United States faces the imminent 
retirement of the baby boom generation. But growing integration 
also poses numerous challenges including illegal immigration, 
unfair trade and labor practices, law enforcement problems, 
narcotics trafficking, environmental, health and security 
concerns, and many others.
    It is important to stress that while Mexico commands far 
greater attention, it is not central today to U.S. foreign 
policy priorities and imperatives. Rather, policy toward Mexico 
is driven in fits and starts by a myriad of domestic factors. 
It is a policy that is often diffuse, fragmented, and 
contradictory, spread across numerous government agencies with 
little overall coordination and focus. The very 
institutionalization of the relationship, which helps to 
routinize it and manage more fully its complexity, has also the 
unintended consequence of Balkanizing Mexico policy, losing 
sight of the overall national security and foreign policy 
priorities of the United States.
    With the overall engagement with Mexico being largely 
positive, it is also true that United States policymakers have 
not fully assimilated the implications for the United States of 
the profound changes taking place in Mexico and their relevance 
to fundamental U.S. interests. In an uncertain and dangerous 
world, Mexico also needs to be conceptualized first and 
foremost in security and strategic terms. This means taking 
seriously the implications of the ongoing political, economic, 
and social transformations taking place south of the Rio 
Grande.
    It is important to remember, Mr. Chairman, that not too 
long ago, in 1988, the election in Mexico was deeply flawed and 
in 1994 we saw several assassination attempts. Political 
institutions have lagged behind in Mexico the rapid changes 
that have taken place in the Mexican economy and society and 
account in part for some of the failures of Fox administration 
to advance needed economic, social, and political reforms, 
including critical reforms in tax policy, energy, education, 
justice, and broader reforms of the state. It is not an 
exaggeration, Mr. Chairman, that Mexican politics today is 
facing a serious stalemate.
    In particular, Mexico's inability to implement energy 
reform and fiscal reform in a country where tax revenues 
account for only 12 percent of the national product has 
severely hampered the country's ability to become fully 
competitive internationally.
    Now, it is not hard to articulate why the relationship with 
Mexico is of such vital interest. A prosperous and stable 
Mexico is essential to the well-being of the United States. A 
failed Mexico, on the other hand, of course, would present 
enormous challenges to the United States.
    Now, the relationship with Mexico needs to be based, it is 
absolutely clear, on trust but also on a mutuality of interests 
that are not held hostage to disagreements in other areas. The 
souring of the promising U.S.-Mexican dialog initiated by the 
Bush administration because Mexico did not go along with U.S. 
preferences in the U.N. Security Council regarding the war with 
Iraq is a case in point. It sent a message that U.S. views 
progress on bilateral issues with proposal as concessions that 
are subject to Mexico agreeing with U.S. foreign policy 
priorities, rather than essential steps that also advance U.S. 
interests.
    Now, what should be the general thrust of U.S. policy 
toward Mexico? To the credit of Presidents Bush and Fox in the 
early conversations that they had, they identified two key 
neuralgic areas for both countries in the years ahead, issues 
that are both intimately related. The first is the vast 
asymmetries in the standard of living between the two 
countries, and the second is the problem of migration and labor 
mobility.
    Now, the Partnership for Prosperity, which speaks to the 
issue of asymmetries, was signed by the two Presidents and did 
reflect a new emphasis. It does respond to Mexico's urging that 
the U.S. and Canada take a leaf out of the European experience 
where large investments were made by the richer countries in 
the poorer countries of the European Union such as Spain and 
Portugal that were also primarily labor-exporting countries.
    The problem, Mr. Chairman, to date is that the Partnership 
for Prosperity includes no real tangible commitment from the 
United States. Private investment, a central feature of the 
scheme, can only work with substantial public investment, and 
the Bush administration has been long on rhetoric and short on 
substance regarding real efforts to support Mexico.
    On immigration, both Presidents signaled at the beginning 
of the Bush administration that they were prepared to break the 
mold and seek genuine immigration change. It is clear that the 
U.S. economy has benefited enormously from migrant labor, and 
yet U.S. immigration laws, rather than protecting American 
jobs, tolerates a two-tiered labor market, one with no labor 
rights, poor working conditions, insufficient wages, and no 
rights to organize.
    At the beginning, high level conversations between both 
countries centered on accomplishing two objectives, instituting 
a temporary worker program that would permit large numbers of 
Mexicans to come to the United States to work on a short-term 
basis, permitting greater circulation of labor back and forth. 
And these programs would expand the very limited ones geared 
today to agricultural workers.
    The second objective that was discussed at the beginning of 
both administrations was to find mechanisms to regularize the 
status of illegal workers in the United States with the option 
of placing them on a path toward citizenship.
    Now, unfortunately, that fruitful conversation came to an 
end, and it is not true, Mr. Chairman, that immigration reform 
was set back by 9/11. Already before the terrorist attacks, 
opposition from conservative circles in the Republican Party 
had led the President's political advisors to caution against 
any real progress in this area.
    Now, I am pleased that President Bush, in hosting President 
Fox at his ranch in Crawford earlier this month, seems to have 
signaled that he wants to get the administration's Mexico 
policy back on track. And the President's speech calling also 
for immigration reform is encouraging because it puts this 
issue at the center of the national debate.
    Unfortunately, the President's speech indicates that the 
White House has backed away from the fundamental tenets of 
immigration reform that was discussed at the beginning of their 
conversations, tenets that pointed immigration reform in the 
right direction. Rather than seeking a two-track policy that 
would expand temporary worker programs on the one hand and 
provide for regularization of the status of immigrants already 
in the United States with a path to citizenship on the other, 
the administration has opted for an ill-defined temporary 
worker program that would include those seeking temporary 
employment in the United States and those already working in 
the country without proper documentation.
    Mr. Chairman, such a program will simply not work because 
it is based on faulty assumptions. The most serious is that 
undocumented immigrants in the United States, many of whom have 
worked here for many years and have families in this country, 
would be willing to sign up for a temporary worker program that 
might force them to return to their country of origin after a 
limited time period. And with no concrete guarantee that their 
status in the United States could be made permanent, there 
would be then few incentives for them to participate and to 
come out of the shadows.
    A realistic reform would recognize the contributions these 
immigrants have made to the American economy and provide them 
with a legal path toward regularization of their status and 
citizenship should they choose to do so.
    A temporary worker program with a clear time line and no 
specific limitations on size is also based on faulty premises 
because it assumes that workers will come to the United States 
for a finite period of time and then return to their homeland. 
If businesses are willing to hire in the United States, despite 
legal restrictions barring them from hiring undocumented 
migrants, and workers face the reality of unemployment back 
home, they will continue to pursue employment opportunities in 
this country. A mechanism for adjusting status is essential for 
any temporary worker program.
    It is also critical that workers in temporary worker 
programs be fully covered by U.S. labor laws. In that sense, 
Mr. Chairman, I think that the bipartisan legislation along the 
lines that Senator Hagel has presented and discussed earlier is 
a far better and more sensibly conceived package than the ones 
that have been outlined by the President even though he has not 
spelled them out completely.
    In concluding, let me return and finalize my remarks by 
simply going back to the thrust of what I said at the 
beginning. Even the best conceived immigration reform proposals 
will not solve the inexorable population and social pressures 
that stem from the reality of contiguous societies with vast 
differentials in living standards. Mexico will continue to 
export workers to the United States as long as U.S. wage levels 
are higher and jobs are available.
    The United States can no longer take Mexico for granted. 
While managing the complex and broad agenda involving two 
nations with 400 million inhabitants, the United States must 
not lose sight of the fact that Mexico is an essential partner 
that must successfully meet the challenges of building 
democracy and creating a better life for its citizens. And this 
requires, Mr. Chairman, a U.S. foreign policy with vision and 
leadership that sees Mexico in broader strategic terms and is 
willing to expend the energy and resources to ensure that 
Mexico can become a full partner in the North American 
Continent.
    Thank you very much.
    [The prepared statement of Dr. Valenzuela follows:]

             Prepared Statement of Dr. Arturo A. Valenzuela

    My name is Arturo Valenzuela. I am a Professor of Government and 
Director of the Center for Latin American Studies in the Edmund A. 
Walsh School of Foreign Service at Georgetown University. In the first 
administration of President William Jefferson Clinton I served as 
Deputy Assistant Secretary in the U.S. Department of State where my 
primary responsibility was the formulation and implementation of U.S. 
policy towards Mexico. In President Clinton's second term I served as 
Special Assistant to the President for National Security Affairs and 
Senior Director for Inter-American Affairs at the National Security 
Council where I also focused considerable attention on U.S. relations 
with Mexico at a time when that country moved through a political 
transition of historic dimensions.
    Mr. Chairman, over the last two decades the relationship between 
the United States and Mexico has grown in visibility, scope and 
complexity, becoming one of the most important bilateral relationships 
for the United States in the world. In its 1999 polling of elite public 
opinion, the Chicago Council on Foreign Relations found that Mexico 
tied in third place with Russia, just below Japan and China, at the top 
of a list of countries with which the U.S. has ``vital interests.'' 
President George W. Bush scheduled his first foreign trip to Mexico and 
proclaimed ``the United States has no more important relationship in 
the world than our relationship with Mexico. . . . We are united by 
values and carried forward by common hopes.''
    Mexico's growing importance for the United States is a reflection 
of fundamental changes that have taken place in Mexico and the world 
economy, changes that have accentuated the integration of both 
countries. In 1950, Mexico was a semi-authoritarian largely rural 
country of 25.8 million people with a life expectancy of 49 years and 
only half its population literate. Today, Mexico is an overwhelmingly 
urban competitive democracy with close to 100 million inhabitants, a 
life expectancy of 69 years and a literacy rate of 87%. It is the 
eleventh most populous country in the world with an economy that ranks 
among the fifteen largest. Its relative standing vis-a-vis the United 
States can be appreciated by the fact that the U.S. population fell 
short of doubling since 1950 while Mexico's quadrupled. Although the 
Mexican birth rate has dropped substantially in recent years, it 
remains much higher than that of the United States. As Mexico moved 
from a closed to an open economy the United States has absorbed over 
80% of Mexican exports. With the approval of the North American Free 
Trade Agreement, Mexico became the third largest export market for the 
United States and an important destination for U.S. direct investment. 
U.S. Mexico trade is now $232 billion; three times what it was before 
NAFTA. The long 2000-mile border, the busiest in the world, has over 
three hundred and forty million legal crossings a year, suggesting the 
growing integration of border communities.
    Mexico accounts for 25% of the significant increase in foreign-born 
residents of the United States, the largest share of that category that 
any country has had since 1890 when Germans accounted for 30% of all 
residents born abroad. In turn, Mexican migration is the driving force 
behind the surge of the Latino population in the United States, which 
at 37.4 million has become the largest ``minority'' in the country, 
over 60% of whom are natives of the United States. It is estimated that 
about 66% of the total Latino population (25 million) are of Mexican 
origin. Mexicans also constitute the largest number of immigrants who 
entered the country illegally, perhaps as many as 5 million of an 
estimated 7 million undocumented workers.
    This increase in commerce, population movements and migration has 
been accompanied by economic and cultural changes that have brought 
benefits to both countries and are rapidly transforming both societies. 
Employment in the United States has been an important outlet for 
Mexico's population whose per-capita income is a fifth of that of its 
neighbor to the north and has 40 million citizens living in poverty. 
Mexico in turn has supplied labor in critical areas of the U.S. 
economy, at a time when the population is aging and the United States 
faces the imminent retirement of the baby boom generation. But growing 
integration also poses numerous challenges including illegal 
immigration, unfair trade and labor practices, law enforcement 
problems, narcotics trafficking and environmental, health and security 
concerns.
    Mexico's greater visibility in recent years on the Washington 
public policy agenda debate is a fairly new phenomenon. And yet it is 
important to stress that while Mexico commands far greater attention it 
is not central to U.S. foreign policy priorities and imperatives. 
Rather, policy towards Mexico is driven in fits and starts by a myriad 
domestic factors. It is a policy that is often diffuse, fragmented and 
contradictory, spread across numerous government agencies with little 
overall coordination and focus. The growing density of the relationship 
has resulted in increased efforts to institutionalize it as exemplified 
by the 14 working groups of the Bi-National Commission that brings 
cabinet members from both countries together every year. The very 
institutionalization of the relationship, which helps to routinize it 
and manage more fully its complexity, has had the unintended 
consequence of further Balkanizing Mexico policy, losing sight of the 
overall national security and foreign policy priorities of the United 
States. To the fragmentation of U.S. policy at the federal level must 
be added a myriad of interactions at the state and local level 
particularly in the border region. More than with any other country in 
the world, policy towards Mexico is driven not by security or foreign 
policy imperatives, but by domestic considerations.
    While the overall of engagement with Mexico is largely positive, it 
is also true that United States policy makers have not fully 
assimilated the implications for the United States of the profound 
changes taking place in Mexico and their relevance to fundamental U.S. 
interests. In an uncertain and dangerous world Mexico also needs to be 
conceptualized first and foremost in security and strategic terms. This 
means taking seriously the implications of the ongoing political, 
economic and social transformations taking place south of the Rio 
Grande, transformations that raise serious concerns about the short and 
mid-term ability of Mexico to prosper and consolidate its democratic 
institutions.
    Although Mexico's transition to democracy has been less daunting 
than those of Eastern and Central Europe, the country is still forging 
the key institutions and practices of a competitive democracy and has a 
significant way to go in establishing the full rule of law. It is 
important to remember that the 1988 election in Mexico was deeply 
flawed and that as recently as 1994 Mexico saw the assassination of 
prominent political leaders, a guerrilla uprising in the South and a 
genuine struggle to ensure the legitimacy of the presidential contest 
in that same year. Political institutions have lagged behind the rapid 
changes that have taken place in the Mexican economy and society and 
account in part for some of the failures of the Fox administration to 
advance needed economic, social and political reforms, including 
critical reforms in tax policy, energy, education, justice and broader 
reforms of the state. It is not an exaggeration to say that Mexican 
politics is facing a serious stalemate. A weak president without 
majorities in Congress and little control over his own party has had 
difficulty navigating a new political reality where opposition parties 
are also fragmented, authority is increasingly decentralized, and 
critical institutions such as the police and the judiciary are fragile 
and corrupt.
    Policy paralysis and the absence of reforms threaten to undermine 
Mexico's economic progress. NAFTA and the fact that trade represents 
40% of the Mexican GDP has helped to cushion the Mexican economy from 
the deeper economic crisis affecting other countries in the Western 
Hemisphere. Nonetheless, Mexico has not experienced sustained real per 
capita growth since 1980. The cycle of economic crises, which usually 
coincide with the end of presidential terms of office, may not have 
been broken with Zedillo's successful transfer of power to Fox. Fox, 
who promised 7% growth rates, has presided over a decline in real per-
capita income as Mexican's fear that their export engine is being 
threatened by the booming Chinese economy. In particular, Mexico's 
inability to implement fiscal reform in a country where tax revenues 
account for only 12% of the national product has severed hampered the 
country's ability to become fully competitive internationally.
    It is not hard to articulate why the relationship with Mexico is of 
such ``vital interest'' to the United States. A prosperous and stable 
Mexico is essential to the well-being and security of the United 
States. Should the Mexican political transition succeed and Mexico's 
economy prosper, the United States stands to gain from trade and 
economic integration while experiencing a reduction in the pressures 
for illegal migration. A prosperous Mexico can help improve living 
standards in Central America and the Caribbean and provide leadership 
to what is currently the most peaceful continent in the World. Should 
the Mexican political transition falter and the Mexican economy 
stagnate the costs to the United States could be enormous.
    U.S. officials should not confuse the will of the Mexican 
authorities to undertake certain steps with their capacity to respond 
or cooperate. This is particularly true in the law enforcement and 
judicial areas. The will may very well be there but the capacity, in a 
context of archaic institutions and rapid social and political change, 
may be woefully lacking. Or, Mexican officials like their U.S. 
counterparts may simply not have the political and public opinion 
support to carry out an unpopular policy the U.S. wishes to implement. 
By pressuring Mexico because of poor performance in certain areas, the 
U.S. may unwittingly undermine those very elements in the Mexican 
government and broader political establishment, including the 
opposition, that have a commitment to improving institutional capacity 
and cooperation with the United States.
    In cooperating with Mexico to help the country steer the right 
course, U.S. officials must be mindful not only of the fact that Mexico 
is going through a difficult transition where democratic institutions 
are not yet fully in place, but also that Mexico is a sovereign country 
acutely sensitive for historical reasons to an overbearing U.S. 
presence. Indeed, on certain issues, including the rights of migrants, 
the death penalty, or the role of international organizations and 
conventions, Mexico has and will differ with United States policy. That 
difference should not be interpreted as a betrayal on the mistaken 
presumption that U.S.-Mexican relations should be based on an 
acceptance by the latter of U.S. policy in order to deserve U.S. 
friendship.
    The relationship with Mexico needs to be based on trust, but also 
on a mutuality of interests that are not held hostage to disagreements 
in other areas. The souring of the promising U.S. Mexican dialogue 
initiated by the Bush administration because Mexico did not go along 
with U.S. preferences in the U.N. Security Council regarding the war 
with Iraq is a case in point. It sent a message that the U.S. views 
progress on bilateral issues with Mexico as concessions that are 
subject to Mexico agreeing with U.S. foreign policy priorities, rather 
than essential steps that also advance U.S. interests. Ironically, the 
effect of U.S. actions and the personal recriminations that were levied 
against Fox contributed to undermining Fox' standing in Mexico, 
weakening his capacity to press his reform agenda and jeopardizing U.S. 
interests. It is tragic that the Bush administration lost its footing 
on Mexico, and indeed on the broader interests the United States has in 
the Hemisphere.
    What should be the general thrust of U.S. policy toward Mexico? To 
the credit of President's Bush and Fox in their early conversations 
they identified the two key neuralgic issues for both countries in the 
years ahead, issues that are intimately related: the vast asymmetry in 
the standard of living of the two countries and the problem of 
migration and labor mobility.
    Like other Latin American countries Mexico followed an import 
substitution strategy of economic development, protecting infant and 
state sponsored enterprises from competition. The policy was successful 
in promoting growth and industrialization. Mexico grew on average of 6% 
per year from the 1940s through the 1970s and industrial growth rates 
where higher. That policy was not sustainable, however, as it spawned 
inefficient industries and over-bloated state institutions with 
widening deficits. Mexico was able to stave off the vulnerabilities of 
its economic model through increased oil production--but an over 
reliance on oil and international borrowing coupled with weak macro-
economic discipline contributed to the economic crisis of the 1980s. As 
a response, Mexico set into place some bold new initiatives to open its 
economy and seek a trade agreement with the United States. U.S. policy 
also moved away from ``aid'' to ``trade'' as the key engine of growth 
that would parallel new policies aimed at assuring fiscal and monetary 
discipline and the downsizing of the state.
    In the aftermath of the serious economic crises that have hit Latin 
America in the late 90s many observers are reassessing the reforms of 
the 90s. Growth has not occurred automatically despite significant 
economic reforms and privatizations. As a result, today far more 
attention is being paid to the quality of institutions and the 
transparency of rules and procedures. And, many observers of Mexico, 
which has gone farther than any other country in Latin America in 
encouraging trade, are beginning to question whether trade alone will 
suffice, if the domestic economy does not show stronger signs of 
growth. The serious downturn of 1995 exposed the weakness of the 
Mexican banking system and continuous problems of lack of transparency. 
At the same, time it has highlighted the weakness of investment in 
infrastructure, in effective state institutions and in education as an 
essential element in promoting sustainable growth. Mexico's greatest 
challenge is not simply privatization and the opening of markets--it is 
in laying the foundations for competitiveness in an era of 
globalization.
    The Partnership for Prosperity signed by the two presidents did 
reflect a new emphasis. It responds to Mexico's urging the U.S. and 
Canada to take a leaf out of the European experience where large 
investments where made by the richer countries in the poorer countries 
of the European Union, such as Spain and Portugal that were also 
primarily labor exporting countries. Massive transfers of resources 
helped to level the playing field in Europe bringing up the standards 
of living of the poorer countries and setting the groundwork for common 
economic and monetary policy. While not envisioning a similar process 
of integration, Mexico has underscored that the integration of North 
America will not be successful until the disparities in standards of 
living are reduced.
    The problem to date is that the Partnership for Prosperity includes 
no real tangible commitment from the United States. Private investment, 
a central feature of the scheme, can only work with substantial public 
investment and the Bush administration has been long on rhetoric and 
short on substance regarding real efforts to support Mexico. The 
imaginative initiative embodied in the New Millennium challenges would 
simply not apply to a country such as Mexico. In short, U.S. policy 
must couple a push for reforms, trade and private initiative with 
greater attention to investment in infrastructure and education.
    Although there is considerable controversy over the degree to which 
illegal immigrants in the United States generate wealth or are a public 
burden, both in terms of law enforcement and social service 
expenditures, the costs to the U.S. are likely to increase if Mexicans 
can't find gainful employment at home. At the same time the 
opportunities for Americans to sell to 100 million Mexicans next door 
will be less if the purchasing power of the average Mexican does not 
increase. A genuine Partnership for Prosperity is needed with 
substantial and real commitments over the median term. At time when 
U.S. willing to spend 87 billion with little debate to secure Iraq, 
some thought needs to be given to the importance of ensuring the long 
term viability of a country with which the United States has ``the most 
important'' relationship in the world. Needless to say, any substantial 
commitment from the United States needs to be coupled by tangible 
reforms in Mexico particularly in energy and tax policy.
    On immigration both president's signaled at the beginning of the 
Bush administration that they were prepared to break the mold and seek 
genuine immigration change. It is clear that the U.S. economy has 
benefited enormously from migrant labor. And yet, U.S. immigration 
laws, rather than protecting American jobs, tolerates a two-tiered 
labor market, one with no labor rights, poor working conditions, 
insufficient wages and no rights to organize. High level conversations 
between both countries centered on accomplishing two objectives: 
instituting a temporary worker program that would permit larger numbers 
of Mexican to come to the United States to work on a short term basis, 
permitting a greater ``circulation'' of labor back and forth. These 
programs would expand the very limited ones geared to agricultural 
workers by including other job categories. The second objective was to 
find mechanisms to ``regularize'' the status of illegal workers in the 
United States with the option of placing them on a path towards 
citizenship.
    Although these same issues affect workers of other nationalities, 
moving ahead with Mexico was justified in the bilateral conversations 
by Mexico's inclusion in the North American Free Trade Association and 
its unique status as a country sharing a long frontier with the United 
States, a status shared only by Canada also a NAFTA member.
    It is not true that immigration reform was set back by 9/11. 
Already before the terrorist attacks opposition from conservative 
circles in the Republican Party had led the president's political 
advisers to caution against any real progress, particularly on 
``regularization.'' Despite the increasing importance of Hispanic 
voters of Mexican descent in American politics, the administration was 
not willing to ``go to immigration'' as Bill Clinton went to ``Nafta,'' 
bucking opposition from his own party. On immigration the position of 
both parties has shifted, as the labor movement more closely allied 
with the Democrats now appears to be more receptive to immigrant 
workers and sees them as future members.
    President Bush's hosting of President Fox at his ranch in Crawford 
early this month is a welcome step that suggests that the 
administration may be moving to place U.S.-Mexican relations back on 
track after a long hiatus. The president's speech calling for 
immigration reform is also encouraging because it once again places an 
issue that is central not only to the relations between both countries, 
but to the Latino community in the United States, at the forefront of 
the national policy debate. The president should be commended for 
underscoring that the United States is a nation of immigrants and 
immigrants continue to make a substantial contribution to the nation's 
progress. He also is correct in noting that immigrants are subject to 
abuse and discrimination and laws affecting immigrants must be changed.
    Unfortunately, the President's speech indicates that the White 
House has backed away from the fundamental tenets of immigration reform 
that was discussed by the two governments in the early months of the 
administration, tenets that pointed immigration reform in the right 
direction. Rather than seeking a two track policy that would expand 
temporary worker programs, on the one hand, and provide for 
regularization of the status of immigrants already in the United States 
with a path to citizenship, on the other, the administration has opted 
for an ill defined temporary worker program that would include those 
seeking temporary employment in the United States and those already 
working in the country without proper documentation.
    Such a program will simply not work because it is based on faulty 
assumptions: The most serious is that undocumented immigrants in the 
United States, many of whom have worked here for many years and have 
families in this country, would be willing to sign-up for a temporary 
worker program that might force them to return to their country of 
origin after a limited time period. With no concrete guarantee that 
their status in the United States will be made permanent, there would 
be few incentives for these workers to come out of the shadows. Indeed, 
many would fear that taking such a step would jeopardize their ability 
to continue to work in the United States, with the risk of being 
separated from their families and livelihoods.
    A realistic reform would recognize the contributions these 
immigrants have made to the American economy and provide them with a 
path to citizenship should they choose it. Legalization opportunities 
should not be reserved only for Mexicans, but for workers of all 
nationalities in similar circumstances. Such a policy would not only 
address the problems of discrimination and abuse, which undocumented 
workers face and which reverberates across the Latino community; it 
would also address critical national security needs. The conventional 
wisdom after 9/11 was that any program that granted legal status to 
individuals who entered the U.S. by violating U.S. laws was simply out 
of the question politically, particularly for a Republican 
administration. And yet, that argument can be easily turned around. 
Precisely because of the importance of security considerations it is 
untenable for the U.S. to permit 7 million people to reside and work in 
the country when their identities and status are not fully known. In 
the name of national security as well as good immigration policy, the 
U.S. should move regularize the status of individuals who have been 
productive residents, working and living in the United States for some 
time.
    But, a temporary worker program with a clear timeline and no 
specific limitations on size is also based on faulty premises if it 
assumes that workers will come to the United States for a finite period 
of time and then return to their homeland. If businesses are willing to 
hire in the United States (despite legal restrictions barring them from 
hiring undocumented migrants) and workers face the reality of 
unemployment back home, they will continue to pursue employment 
opportunities in this country. A mechanism for adjusting status is 
essential for any temporary worker program.
    It is also critical that workers in temporary worker programs be 
fully covered by U.S. labor laws in order to avoid the abuses that 
characterize current temporary worker programs in the agricultural 
sector and their predecessors, including the infamous ``Bracero'' 
program instituted during World War II. Such a program cannot be open-
ended, but rather be limited in scope. I believe, Mr. Chairman, that 
bipartisan legislation along the lines of the Hagel/Daschle proposal is 
far better conceived to address these problems than the proposal 
outlined by the President.
    In concluding, I must return, however, to the thrust of my remarks 
at the beginning of this testimony. Even the best conceived immigration 
reform proposal will not solve the inexorable population and social 
pressures that stem from the reality of contiguous societies with vast 
differentials in living standards. Mexico will continue to export 
workers to the United States as long as U.S. wage levels are higher and 
jobs are available. Although this dynamic has beneficial aspects for 
both countries as Mexico has available labor and the United States 
increasingly needs additional labor, a fully open border that permits a 
natural adjustment between the supply and demand of labor, as well as 
goods and capital, will not be achieved until the fundamental 
asymmetries between both countries is overcome.
    The United States can no longer take Mexico for granted. While 
managing the complex and broad agenda involving two nations with 400 
million inhabitants, the United States must not lose sight of the fact 
that Mexico is an essential partner that must successfully meet the 
challenges of building democracy and creating a better life for its 
citizens. That requires a U.S. foreign policy with vision that sees 
Mexico in broad strategic terms and is willing to expend the energy and 
resources to ensure that Mexico can become a partner on equal standing 
on the North American continent.

    The Chairman. Well, thank you very much, sir.
    Let me start the questioning. We will once again have a 7-
minute. We will rotate. Hopefully, we will not tax the patience 
of our witnesses by too lengthy an inquiry.
    What you all have said is tremendously important. Dr. 
Flynn, I noted three ideas here that are worth exploring. When 
someone gets sick, people anticipate the person will come in 
for treatment. We identify illness, as well as potential 
epidemics, in this way. The suppression of that could be 
ominous, leaving aside these overall macroeconomic or 
immigration issues that we are talking about.
    In our intensity of focus on security after 9/11, by the 
hardening of the border regime, we may have led, if not quite 
to the creation of a ``coyote'' industry, then certainly to an 
increase in divisive means, quite apart from the transportation 
and trucking anomalies. Sorting out how this is to be done is 
critically important, because of all the side effects that come 
with it.
    An important implication of this hearing is that 
immigration has to be looked at as important in terms of our 
own security, given the nature of the war against terrorism, 
whether it be al-Qaeda cells or allied situations, including 
nongovernmental groups and very small groups of people. To the 
extent that we do not know who is in our country, because 
illegal immigrants are not identified correctly, we will have 
an invisible population beyond our own law. Obviously such a 
situation would create great hazards.
    It seems to me that those three points, regardless of how 
we come out on some other issues, really need to be felt by 
each one of us in the Senate, and hopefully by the 
administration.
    Let me just say, Dr. Valenzuela, your opening comments are 
an excellent tutorial on Mexico. Just the statistics themselves 
are important for each one of us to understand, including the 
dimensions of the population size, and the fact that Mexico is 
the 11th largest country, with from 100 million to 110 million 
people. Some would say that the figure you gave of 40 million 
people in dire poverty it's even larger than 50 million or half 
of the entire population of the country. Even then, with the 
employed wage levels that approximate in terms of income--maybe 
one-fifth, 20 percent, of the average wage levels and income in 
our country--there is an enormous disparity.
    To play the devil's advocate for a moment, some skeptics 
about this kind of a hearing, and this kind of a dialog, might 
wonder about this huge disparity, this huge population, of let 
us just say 50 million people who are in dire poverty, in 
hopeless condition, still dream of something happening in their 
lives. The young ones want to make something happen for 
themselves and their families. As a result, they take great 
risks. Perhaps hundreds of thousands, maybe millions consider 
migrating to the United States.
    Regardless of how we structure our immigration policy with 
regard to those who are now undocumented in our country quite 
apart from those who may be on the way, whether it is a hard-
line policy or a soft-line policy and so forth, some Americans 
would say, given the huge number of people and the huge amount 
of hope that is here, the population of the United States is 
likely to expand rapidly. Now, some would say, well, as a 
practical matter, it will expand anyway. You are all sort of 
missing the point that in fact these things happen. The 
pressures are so great. We have witnessed this. You just sort 
of cope with this.
    The critics do have a point. In essence, how do we maintain 
basic institutions in our country, whether they be public 
schools under great pressure, hospitals or clinic facilities? 
For example, in my State, during the last congressional recess 
I recently visited another one of the Success for All programs 
in innercity Indianapolis. There are a number of students who 
are from Mexico, recently arrived. As a matter of fact, the 
turnover in that particular school is 75 percent of the entire 
student population in the past year. Even the Leave No Child 
Behind program has a difficult time testing who was there last 
year and whether there was progress, because a whole different 
group of people are here this year. In a practical way, we must 
face these problems.
    The fact is that these students are learning English. They 
are learning to read. A lot of good things are happening in 
their lives. From a humanitarian standpoint, you are delighted 
that that is the case, but you also see that the public school 
system lacks money. The State of Indiana is running a $1 
billion deficit. I suppose Connecticut does not have one that 
big, but it may be bordering on this in terms of State support. 
The situation in Indiana is not unusual for an innercity public 
school system. Suddenly, there are many more young people who 
are in the schools or in institutions.
    One thing we have talked about today is, well, what can we 
do with the prosperity for Mexico program that we talked about? 
The comment was made, that, well, it is there but there is not 
much emphasis by our government, quite apart from private 
industry. From the Mexican side, there is sometimes great 
suspicion. I deliberately mentioned PEMEX because I know that 
this creates great vibes of difficulty. Mexico needs revenue 
for their government to offer services, to have things that 
they want to do.
    If the United States and Mexico are such big friends, we 
have to be in a position to be able to advise each other on how 
to achieve better democratic institutions, and better economic 
prosperity, if we are serious about changing the gap and 
addressing the pressures that this puts upon immigration. 
Otherwise, I suspect Senators will be having a hearing very 
similar to this a decade from now, with a different group of 
people, but with many of the same problems, which might indeed 
by then be exacerbated by everything that has happened in the 
previous 10 years.
    In terms of a macropolicy, what advice can you give? Maybe 
all of the above? That is, you do the prosperity project; you 
try to be humane in immigration; you try to identify who is in 
the country. Within the broad scope of this hearing, please 
give us some more good counsel.
    Dr. Valenzuela. Should I start?
    The Chairman. Yes.
    Dr. Valenzuela. Well, I tried to stress, Mr. Chairman, that 
the key for us is to understand that the United States has 
fundamental interests with Mexico, but we need to look at 
Mexico from a strategic point of view and not just simply get 
lost in the multiplicity of the issues of the bilateral 
relationship.
    What do I mean by look at it in a strategic way? We need to 
understand that Mexico is going through a very complex 
transition. It is a political transition that is not fully 
complete. There are still a lot of questions about how Mexico 
is going to address that. The first government in a long time 
that has been fully democratically elected is now facing 
significant difficulties. So Mexico is a country that is right 
on our border, 100 million people. It is going through a 
difficult process of transition. The United States cannot 
ignore that.
    Now, I happen to believe that the glass is half full not 
half empty. I think that the progress that has been made in 
Mexico is extraordinary. If you compare it with many other 
places in eastern Europe and others that went from a one-party 
state to a competitive democracy, it is really on the right 
track. But it is in our fundamental interest to address the two 
prongs I think of the relationship. One is the immigration 
issue and the other one is the question of the asymmetries 
between the two countries.
    On the asymmetries between the two countries, the Mexicans 
are correct when they point to the fact--how did the Europeans 
handle this sort of thing? When they looked at the whole 
process of European integration, they realized that there were 
some countries that were significantly poorer than the other 
countries and that it was in the interest of the Germans and 
the French and the other countries in fact to bring the others 
up. It is extraordinary what has happened to Spain and what has 
happened to Portugal and what has happened to the other 
countries.
    I believe that Mexico really can become more competitive. 
It has got huge challenges. Competition is the critical 
challenge for Mexico. It has to become more competitive in the 
international global environment of today. This means more 
resources in infrastructure. It means resources in education. 
It means more resources across the board.
    And where are we with those sorts of things? With all due 
respect, Mr. Chairman, if we can spend $87 billion on a project 
of reconstruction in one part of the world, let us pay some 
attention to our own hemisphere and the challenges that we face 
in our own hemisphere.
    The Chairman. Dr. Flynn.
    Dr. Flynn. Mr. Chairman, I may point out one of the 
unintended consequences of our struggle with our immigration 
policy in terms of how it works and how our enforcement efforts 
have sort of confounded it is that issue that you raised about 
the illegal population putting pressure on these institutions. 
What we know now, from watching this over time, is the case 
that Senator Craig made. What we did in terms of 9/11 is we did 
not just try to lock people out, we locked people in.
    As the border has become harder and became harder 
throughout the late 1980s and throughout the 1990s, instead of 
having seasonal labor, young men basically or middle-aged men 
coming up, working a time, going home with their remittances 
and basically that is where they want to live, that is where 
they want to bring their fortune back, that the costs of 
getting across the border got too high. So they had to bring in 
their family because they could not go home. And then we put 
the pressure on the social institutions that flow from that.
    So it is not to say given the overall demographic trends, 
given the paucity of economic opportunities, that this trend of 
whole families moving across the border will not continue, but 
it is clearly an outgrowth of our effort to harden the 
enforcement here that has created the demand for bringing 
dependents into the country and keeping them here even in many 
cases when they prefer to go home, at least for portions of the 
year. So that issue is intertwined. It is sort of narrower.
    At a more macro level, I would raise this sort of basic 
notion of moving beyond the border and the investment we are 
making along the border is really the issue of transportation 
infrastructure. There is little question that Mexico is 
woefully behind in building the kind of transportation systems 
it needs to have a fully integrated marketplace to make sure 
those jobs can stay there and people can stay there and work.
    There is an opportunity, I would suggest, under the notion 
of security. If we build a big development in the 
transportation areas we call intelligent transportation 
systems, knowing where trucks are--we do this in our EZ Pass 
designs and so forth. One of the opportunities is the 21st 
Century Transportation Equity Act talks about building the 
whole ports to plane corridor, the I-69 NAFTA highway. We 
basically often stop at our own edge of our own border, and 
then you get into very rugged sides on the other side. We can 
imagine I think advancing an improvement of that 
infrastructure, building a single inspection station. It does 
not have to be at the border. Put it someplace where it makes 
more sense, not at the base of a bridge or in a busy area, have 
Canadian, Americans, and Mexicans working side by side, the 
kind of thing you have at the base of the Chunnel on both sides 
of the English Channel. You declare sovereignty where each 
country can enforce their laws in one place. Then you start 
getting out of sort of the small truck and other kinds of 
industries that cause a lot of environmental damage, that are 
not registered and so forth.
    We can think more imaginatively if we are willing to do the 
kinds of things of really putting a blank sheet on integration 
and the opportunity that presents. We built our transportation 
systems to go west, young man. They are east-west, both on the 
Canadian and the U.S. side particularly. Now, our economic 
relationships are increasingly pivoting on a north-south, but 
none of the infrastructure has been adapting for that. That has 
to happen even if we did not have security issues because of 
the nature of where our economies are going, but when we build 
new infrastructure, just like it makes a lot more sense to 
build a home, handicap accessible, in its design instead of 
trying to do it afterwards, we can basically begin to think 
about how we can integrate these concepts of management within 
those developments.
    But we have to get out of this very narrow, prescriptive 
and Balkanized approach to dealing with these issues within our 
government and see these connections. I get frustrated seeing 
the Department of Transportation efforts to improve this here 
with no security link and then have now the new Department of 
Homeland Security weigh in and introduced new requirements and 
protocols that can upset the whole queuing and everything else 
that is associated with the transportation side. It becomes 
almost impossible. You get a 10-year environmental impact 
statement process to develop upgraded facilities on the border, 
but when the border is congested, you get mass pollution. We 
need to take a fresh slate at really looking at the way in 
which these zones are managed and look at how they are 
integrated in the broader context and we need to do it now 
because the stakes transcend even our security concerns. They 
are really about this vital relationship that we should be 
trying to advance.
    The Chairman. Those are excellent suggestions.
    Dr. Papademetriou.
    Dr. Papademetriou. Thank you, Mr. Chairman. I would like to 
respond to your question in three different ways: the things 
that Mexico can best do primarily on its own, the things that 
we can do and we should do primarily on our own, and then the 
things that we need to do together.
    We know the things that Mexico can do. They fall under the 
overall rubric of good governance and that includes 
improvements in terms of political governance. Arturo 
Valenzuela has told us about some of the improvements that have 
been made there and they are, indeed, phenomenal. There have 
also been great improvements in terms of economic governance. 
They are not ``there'' yet, but they are on the right path. And 
then the third one is social governance. Here is where the 
Mexican Government has an extraordinary difficult path and a 
way to go yet.
    The thing that we have to do better bu ourselves is to 
really think about our laws, whether they are immigration laws 
or labor laws. How good are they? What are we trying to 
protect? Are they really accomplishing the things that we think 
that they are, and should be, accomplishing? At no point in any 
immigration reform proposal are we going to just sit back and 
let immigration just happen. I do not think that even the 
extremists often associated in a derisive way with the Wall 
Street Journal viewpoint about open borders would at any point 
suggest that we should just sit back and enjoy it. But we have 
to have regulations that make sense and we have to implement 
whatever it is that we write on the books. So if we need to 
rewrite what we have on the books, let us do so.
    Finally, there are things that the United States and Mexico 
must do together. The Partnership for Prosperity is one of 
them. But it will require significant investments on the part 
of our government. Somebody has to lead. The private sector 
will follow, and perhaps will be responsible for the lion's 
share of investments over time. However, in the startup phase, 
we are going to have to commit some money.
    On migration, what we have to change is the expectations 
that poor Mexicans have about opportunities in the United 
States and, the calculation that they will make. The 
calculation has to change from, my God, there is absolutely no 
other alternative. I will take whatever chances are necessary, 
including dying--and there are several hundreds of them dying 
every year. I will pay ``coyotes'' or organized syndicates any 
amount of money because I have got to make it to the other 
side. The calculation only needs to change to something that 
says, you know what? I hear that there are some opportunities 
about to become available: a new factory is going up, the 
educational system is getting better, and something is being 
done with all of these remittances that we do not pay to much 
attention to. That is $13 billion, $14 billion, $15 billion, 
possibly $20 billion in remittances annually that goes back to 
Mexico. We can also think perhaps of multiplying the affects of 
those funds through smart kinds of investments. So, we have to 
change the calculus at the level where decisions are made, and 
the entire literature on migration tell us the decisions are 
made at the level of the family or the household.
    With regard to the security issue, we are fixated on the 
border. If this was a budget hearing, you would have heard that 
the President is asking for another half a billion dollars for 
border-related security improvements. It is difficult to take 
border and immigration spending out of the overall Department 
of Homeland Security budget, but together, this part of the 
Homeland Security budget is going to be over $10 billion.
    I wonder often what would $300 million in strategic, smart 
investments in Mexico per year might do and whether in the long 
term--and I do not mean after we are all dead, but in the next 
5 or 10 years--this kind of sustained investment might, indeed, 
begin to make a difference in people's lives to the point where 
the calculus at the individual and family level may change.
    Thank you, sir.
    The Chairman. Very helpful.
    Senator Dodd.
    Senator Dodd. Thanks very much, Mr. Chairman, again for the 
hearing.
    As I am sitting here, I kind of regret we did not have you 
come on first because I think invariably what happens with 
second panels is the administration witnesses and others leave 
the room. I think not only have we benefited from your 
testimony, but I think the administration could have benefited 
tremendously from hearing all three of you talk in ways in 
which I think this hearing could be most instructive and 
helpful. So I thank all three of you very, very much for your 
ideas and thoughts.
    Just a couple of my own as I was listening to you. I think, 
Arturo, one statistic I do not think you shared with us is the 
age of the Mexican population today. The number of people of 
that 100 million who are under the age of 18. Do you recall 
what that is? I know it is staggeringly high.
    Dr. Valenzuela. That is correct. When you look at the 
demographics of both countries, our concern over Social 
Security and what is going to happen to the baby boomers and 
who is going to pay for our retirement, who is going to be 
working to cover that, it is being answered as we speak right 
now by the movement of a younger labor force into the United 
States.
    Your comment also reminds me of the comment that Senator 
Lugar made about school kids. There are a lot of immigrants who 
come into the United States who may not have had much education 
but who got their education also in Mexico. We are benefiting 
from the fact that even if it was very, very poor or maybe very 
inadequate, nevertheless, we have people who are bricklayers 
and others who have substantial amount of training that they 
have gotten elsewhere and we benefit from that as well.
    Senator Dodd. Well, it is very important to note that 
obviously. And the demographic explosion and the urbanization 
of Mexico I think are too very important. We have a tendency to 
look at this from a two-dimensional perspective, that is, 
United States versus Mexico. Within Mexico itself, you are 
watching the same phenomenon, that same calculus that a family 
has made about taking the risk of crossing a border with all 
the dangers inherent in that, have earlier made the decision to 
leave Chiapas and these other areas and to move into the 
greater Mexico City area, which I think has a population of 
some 25 million, some number like that. It is a staggering 
number. I think it is the largest city in the world or 
certainly near the largest. So they are demonstrating already 
their concerns about the ability to have much hope where they 
are.
    Getting beyond even just the immigration issue, we are 
still unfortunately trapped in this--less so, but still trapped 
with a paternalistic notion, the concessional idea that you 
mentioned, Arturo. We fail yet to understand the critical 
importance to us of the well-being of Mexico from both an 
economic, political, and social standpoint. We have yet to 
break through that, unfortunately. It is not just this 
administration. It seems to be an inherent problem that goes on 
year after year after year. Until you break that mentality to 
some degree, it is awfully difficult to start talking about the 
concepts that all three of you have raised here. Maybe we are 
doing some of that here today.
    I was a supporter of creating the Homeland Security office 
and so forth. But I had great hesitations in my own mind--I may 
have expressed them. I am not sure I did, but I wish I had if I 
did not--about lumping all these agencies together. The very 
fact that we have taken the INS and thrown it into a Homeland 
Security office says volumes about where our heads are when it 
comes to this issue. Instead of understanding immigration as 
being a far more broad-based subject matter than the issue of 
security--and I do not minimize the importance of security, but 
putting it under that umbrella, then you look at this issue 
through that prism. As you do, then your judgments are colored 
in terms of how we deal with these larger questions. It ought 
to be a basis of a bilateral relationship here.
    I think certainly the asymmetrical points you make about 
Europe. You mentioned Portugal. You mentioned Greece, Ireland 
certainly. Look at what happened in Ireland. Today the most 
expensive country in Europe and certainly the fastest growing 
economically until recently was the Irish economy, the ``Celtic 
Tiger,'' that just took off because there was an investment 
made by the European community to do what? Exactly what Dr. 
Flynn talked about, infrastructure, roads, transportation 
networks and so forth, the Internet highway that made it 
attractive for foreign investment to come in. They made 
themselves appealing and thus are now making a contribution.
    Ten years ago, 40,000 young people left Ireland every year 
to come to the United States, or to go to England, to go to 
France for their economic prosperity and future. That was their 
calculus. Today Ireland has the problem of immigration coming 
in. And it did not take long. It turned very quickly. Now, 
there are differences obviously in a country of 4 million and a 
country of 100 million with all the other issues. But 
nonetheless, it is an example of what can happen when you 
change the calculus and how things are looked at.
    So I find myself sort of here we are, we are talking 
remittances, which is a great thing. But it is as if somehow 
the continuation of the remittance program was really the 
ultimate answer here. Registering people and so forth. The 
costs associated with that. Someone brought up the issue of 
budgets. No one raised the issue and it is hard to do it here, 
but just the cost of registering people and so forth instead of 
going at the issue of how do you create economic growth to such 
a degree that the calculus that the individual family makes is 
going to be at least tempered by the fact that there may be 
other opportunities.
    I am tremendously grateful. I am glad I could stay around 
and listen to the three of you share your thoughts. I would 
like to figure out some way to make them available to people in 
our own committee here. I know they are loaded with paper and 
so forth. I know you look around. You do not see the number of 
people here. But you have made a significant contribution to 
this debate, and I am once again very grateful to the chairman 
for elevating this debate and discussion.
    I do not really have any questions unless you have any 
final comments the three of you want to make. But I think you 
have all brought very, very solid ideas to the table. I for one 
am very, very grateful to hear them.
    I want to invite you to our interparliamentary meeting. We 
are going to be meeting in Mexico this year. I may be back in 
touch with the three of you and see if there is not some 
opportunity maybe for you to come and address this 
interparliamentary group as well on some of these ideas.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Dodd. 
Apropos of your comment, it might be useful for us to circulate 
to our members the statements of our witnesses so that they 
might have the benefit of those. Their staffs may already have 
made those available to members, but let's take an additional 
precaution and re-distribute them, so that there may be an 
opportunity to emphasize the remarks you have made. There will 
be a full record of the dialog with the Senators who were 
present at this committee hearing, and who were raising 
questions or making comments to you.
    We did have, at one point or another, by my count, 10 
Senators in the hearing this morning.
    Senator Dodd. Good.
    The Chairman. That is significant. Ten percent of the whole 
Senate at least was involved in this issue today. Perhaps they 
appeared for only short periods of time, but nevertheless they 
are sensitized to the important issues that we raised. I am 
sure that we will raise these issues again.
    We thank each one of you for the special care that you gave 
in statements, as well as in your additional responses and 
thoughts. They have been helpful to us, hopefully to our 
administration, and to the dialog of the American people, who 
have heard this hearing by other means. We thank you for 
coming, and we look forward to inviting you again.
    With that, the hearing is adjourned.
    [Whereupon, at 12:28 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                              ----------                              


            Responses to Additional Questions for the Record


  Responses of Hon. Roger F. Noriega to Additional Questions for the 
                Record Submitted by Senator Norm Coleman

    Question 1a. Would you comment on the regularity with which the 
U.S. raises concerns about the murders, particularly the Kiecker case, 
and the apparent lack of adequate law enforcement at the local and 
state level in Chihuahua?

    Answer. Our Embassy in Mexico City and our Consulate General in 
Ciudad Juarez have formally protested the treatment of Cynthia Kiecker 
and raise her case at every opportunity. Senior officials of the 
Department have also raised the matter with their Mexican counterparts 
and will continue to do so.
    With respect to the situation in Chihuahua, and particularly Ciudad 
Juarez, involving the murders of women, we follow this issue closely 
and have discussed the matter with officials of the Mexican Government, 
including in conversations between Secretary Powell and Mexican Foreign 
Secretary Derbez. The U.S. Government has provided training and 
technical assistance in the past and stands ready to provide further 
assistance.

    Question 1b. President Fox has developed a federal response to this 
crisis. Can you tell me what has been the result of this federal 
attention and whether the U.S. is assisting in this effort?

    Answer. President Fox has ordered the Federal Attorney General's 
Office (PGR) to assist local authorities in bringing to justice those 
responsible for these crimes. In June of last year, units of the 
Federal Preventive Police were sent to Ciudad Juarez to reinforce the 
local authorities. In August, a joint task force was created between 
the PGR and the State Attorney General's office. In October President 
Fox appointed a commissioner to coordinate the Mexican Federal 
Government's participation in the case, and in January of this year the 
PGR named a special prosecutor on the matter.
    The Mexican Government claims that all this appears to have reduced 
the incidence of murders of women in the city. The Mexican Government 
has also advised that, while overall the investigations are still not 
advancing as fast as they wish, of 328 cases involving murders of 
women, 103 convictions have been obtained and arrest warrants have been 
issued in another 27 cases.
    We note that Mexico has been open to outside expert evaluation of 
the problem and has invited numerous entities, including the United 
Nations Office on Drugs and Crime and the Inter-American Commission on 
Human Rights Rapporteur on the Rights of Women, to visit Ciudad Juarez 
to examine the situation.
    Offers of technical assistance and training have been made to 
Mexican law enforcement authorities by U.S. law enforcement authorities 
and a working group has been formed with the Mexicans to facilitate the 
provision of assistance. The U.S. Government funds and coordinates a 
broad range of training, material, and technical assistance to Mexican 
federal law enforcement agencies to increase their crime-fighting 
capacities, including their ability to render assistance to Mexican 
state and local law enforcement. We have offered to tailor technical or 
other assistance to the PGR or to state and local police, if desired by 
the appropriate Mexican authorities, to help them address the crimes in 
the Ciudad Juarez area.

    Question 2a. Can you please detail for me the types of law 
assistance the U.S. provides to Mexico and any measurable results for 
this aid?

    Answer. In FY 2003, the United States Government, through the 
United States Agency for International Development, provided assistance 
related to rule of law and judicial reform in several key areas:

  <bullet> Served as the key advisor to the Mexican Presidency on the 
        development of the Justice Reform Package that President Fox 
        presented to the Mexican Congress on March 29, 2004;
  <bullet> Drafted a modern code of criminal procedures that serves as 
        a model and guide for the conversion of the Mexican criminal 
        justice system from a written to oral adversarial system; and
  <bullet> Advised on the creation of court-annexed mediation programs 
        in 10 states and provided training to over 150 mediators. 
        (Hundreds of civil cases ranging from commercial law to family 
        law were successfully mediated and demand is on the rise in 
        Mexico for this method of increasing access to justice.)
    USAID support for the rule of law in FY 2004 will include 
continuing to work with the Mexican Presidency, as well as federal and 
state judiciary, public defense, and prosecutors, especially in the 
Mexican states along the border, to carry out President Fox's planned 
comprehensive overhaul of Mexico's criminal justice system. USAID is 
assisting in this process, much as it did with the Civil Service Law, 
by providing state of the art technical assistance to identify key 
issues, exposing reform leaders and opponents to these issues and how 
they are resolved in other countries, and sponsoring venues for 
constructive dialogue among interested parties in Mexico, implementing 
agencies from other countries, and international experts.
    In FY 2004, USAID will also help seven more states set up court-
sponsored mediation centers to increase access to justice for 
disadvantaged sectors of the population, support and advise human 
rights NGOs that run treatment and legal aid centers for victims of 
torture and human rights abuses, and advise on the creation of 
certification standards, here-to-fore non-existent, for law schools and 
lawyers.

    Question 2b. What priority do we place on the rule of law program 
in our overall assistance to Mexico?

    Answer. We place a very high priority on rule of law programs in 
Mexico and the Fox administration itself places a priority on key 
structural reforms that will institutionalize the democratic change of 
2000. On March 29 President Fox submitted a judicial reform package to 
the Congress, a wide-ranging proposal to transform Mexico's legal 
culture and judicial system.
    At the Mexican Government's request, USAID helped develop this 
judicial reform package, and USAID's highest priority democracy 
activity is to assist with its passage and thereafter with 
implementation at both the Federal and state levels.
    The United States Government is the principal international donor 
and key advisor supporting criminal justice reform. USAID assistance is 
a key element of the U.S. Mission's law enforcement program closely 
coordinated with other U.S. agency efforts in Mexico. Other USG 
agencies (the Department of State's Bureau of International Narcotics 
and Law Enforcement Affairs, the Department of Homeland Security, and 
the Department of Justice) are providing assistance to police and anti-
narcotics efforts.

                                 <all>

</pre></body></html>
